U.S. Department of Housing and Urban Development
Office of Inspector General




          Semiannual Report to Congress
                      October 1, 2010, through March 31, 2011
Profile of Performance
                                   Audit profile of performance
                      for the period October 1, 2010, through March 31, 2011
    Results                                                                        This reporting period
    Recommendations that funds be put to better use1                                     $767,733,003
    Recommended questioned costs1                                                         $96,031,267
    Collections from audits                                                               $25,821,283
    Administrative sanctions                                                                    2


                                Investigation profile of performance
                      for the period October 1, 2010, through March 31, 2011
    Results                                                                        This reporting period
    Funds put to better use                                                               $58,832,240
    Recoveries/receivables                                                               $262,552,001
    Arrests2                                                                                  767
    Indictments/informations                                                                  693
    Convictions/pleas/pretrial diversions                                                     500
    Civil actions                                                                              77
    Administrative sanctions                                                                  405
      Suspensions                                                                              79
      Debarments                                                                               77
      Limited denial of participation                                                           3
      Program or professional license suspensions                                             115
      Evictions or removal from subsidy program                                               131
    Search warrants                                                                            51
    Subpoenas issued                                                                          845


                                   Hotline profile of performance
                      for the period October 1, 2010, through March 31, 2011
    Results                                                                        This reporting period
    Funds put to better use                                                                $799,973
    Recoveries/receivables                                                                  $48,202



1
  This represents all cost transactions during the period in which dollar amounts were reported with any recom-
mendation.
2
  Included in the arrests is our focus on the nationwide Fugitive Felon Initiative which amounts to 60 arrests. For
more information on the Fugitive Felon Initiative, see page 43.
A Message from the Deputy Inspector
General
                                       It is an honor to present to you the U.S. Department of Housing
                                   and Urban Development (HUD), Office of Inspector General’s (OIG)
                                   Semiannual Report to Congress for the first half of fiscal year 2011. HUD
                                   OIG employees–auditors, agents, attorneys, and support staff–maintain
                                   a spirit of commitment in their mission on behalf of the taxpayers of the
                                   United States.

                                       The scope and impact of HUD programs have always resulted in a
                                   robust agenda of OIG plenary oversight responsibilities. Over the past
                                   few years, these responsibilities have significantly expanded as the
                                   result of legislation and of Administration and departmental initiatives.
                                   Likewise, OIG’s investigative, audit, evaluative, and legal activities have
                                   evolved at a remarkable pace.

                                       During this reporting period, we had $767.7 million in funds put
                                   to better use, questioned costs of $96 million, and $262.5 million in
                                   recoveries and receivables while issuing 78 audits. We also had 693
                                   indictments and informations, 500 convictions, and 767 arrests during
this reporting period. This exceptional work has had a dramatic effect in reducing fraud and the misuse
of taxpayer dollars.

    Our high profile audits and investigations continue to complement the Department’s strategic initiatives,
with the health of the Federal Housing Administration’s (FHA) mortgage insurance fund receiving particular
attention. HUD OIG staff continues to work with the Department to improve HUD’s effectiveness and as
a result, has developed and implemented better and more effective audit recommendations.

    Some of our key investigations this reporting period include the case against Taylor, Bean & Whitaker
Mortgage Corporation (Taylor, Bean & Whitaker), a former FHA-approved direct endorsement lender
and Government National Mortgage Association (Ginnie Mae) issuer. Former Colonial Bank employees
Catherine Kissick and Teresa Kelly each pled guilty in U.S. District Court, Alexandria, VA, to committing
a conspiracy to commit bank, wire, and securities fraud or making false statements to Federal agents.
Between 2002 and August 2009, Kissick and Kelly conspired with other individuals and provided funding
to Taylor, Bean & Whitaker for phony or previously pledged loans, and Bowman, Ragland, Brown, and
other individuals conspired and sold phony and previously pledged loans to investors in the secondary
mortgage market. Their actions and those of other coconspirators caused Taylor, Bean & Whitaker to
submit false statements to HUD, Ginnie Mae, and other financial entities. HUD, Ginnie Mae, and other
financial entities realized losses in excess of $1.9 billion.

    In the area of public housing, Elias Castellanos, a former Housing Authority of New Orleans contract
chief financial officer, was sentenced in U.S. District Court, New Orleans, LA, to 46 months incarceration
and 36 months probation, ordered to pay the Authority $225,889 in restitution, and fined $75,000 for
his earlier guilty plea to committing embezzlement. From September 2006 to June 2009, Castellanos
submitted false billings for accounting services and fraudulently obtained $900,927 in Authority funds.

    In the area of Community Development Block Grants (CDBG), Kwame Kilpatrick, the former mayor
of Detroit, MI; Bobby Ferguson, doing business as Ferguson Enterprises; and other individuals were each



A Message from the Deputy Inspector General                                                                      iii
     charged in U.S. District Court, Detroit, MI, with allegedly obstructing justice and committing bribery,
     extortion, Federal income tax evasion, an organized scheme to defraud, and mail and wire fraud. From
     2003 to 2004, Kilpatrick, Ferguson, and other individuals allegedly planned fraudulent activities and
     attempted to obtain $18 million in HUD CDBG loan guarantees for demolition work at the Book Cadillac
     Hotel.

         We audited the underwriting of a $45.6 million mortgage loan that was acquired by Deutsche Bank
     Berkshire Mortgage, Inc., Bethesda, MD (lender), to rehabilitate Wingate Towers and Garden Apartments.
     The lender acquired and became responsible for the loan origination activities, personnel, books, and
     records related to this loan from Berkshire Mortgage Finance Limited Partnership (underwriter) in October
     2004. The FHA-insured loan went into default in October 2009, and in May 2010, HUD paid a $44.3 million
     insurance claim to the lender. HUD sold the property in a note sale in September 2010 for $14.5 million,
     resulting in a loss of $29.8 million. The underwriter failed to properly assess the financial resources and
     the construction capabilities of the owner and the general contractor.

         We audited the District of Columbia’s administration of its HOME Investment Partnerships Program
     (HOME) and found that the grantee did not administer its program in accordance with Federal
     requirements. The grantee also accumulated funds that it could have used to improve its administration
     of its HOME program or fund additional eligible HOME projects. We recommended that HUD require
     the grantee to recover more than $1.6 million that it spent on ineligible expenses and provide support
     for nearly $6.5 million in expenses or repay that amount to the HOME program. In addition, the grantee
     should use nearly $1.6 million in accumulated funds to improve its administration of the program or fund
     additional eligible HOME projects.

        As we address an expanding mission to protect HUD’s vital programs, I would once again like to express
     my appreciation to Congress and to the Department for their sustained commitment to supporting the
     important work of our office. Also, I would also like to commend Secretary Donovan for his leadership
     and tireless efforts in these challenging times.




        Michael P. Stephens
        Deputy Inspector General




iv                                                                    Message from the Deputy Inspector General
                                   Audit reports issued by program


                                                                         Single-family housing, 13%
                                                                         Multifamily housing, 8%
                                                                         Public and Indian housing, 28%
                                                                         Community planning and 	
                                                                         development, 36%
                                                                         Other programs, 15%




                          Audit monetary benefits identified by program


                                                                         Single-family housing, 1%
                                                                         Multifamily housing, 3%
                                                                         Public and Indian housing, 3%
                                                                         Community planning and 	
                                                                         development, 5%
                                                                         Other programs,* 88%



* Other programs include financial and information system audits.


                     Audit monetary benefits identified in millions of dollars

                                                                                    $757.5
        $800
        $700
        $600
        $500
        $400
        $300
        $200
                        $6.6           $30.2           30.2           $39.2
        $100
          $0
                 Single-family    Multifamily     Public and      Community       Other
                    housing        housing      Indian housing   planning and   programs
                                                                 development




Audit Charts                                                                                              v
         Investigative cases opened by program area (total: 796)


                                                Single-family housing, 32% (260)
                                                Public and Indian housing, 43%
                                                (341)
                                                Multifamily housing, 8% (64)
                                                Community planning and 	
                                                development, 12% (93)
                                                Other, 5% (38)




     Investigative recoveries by program area (total: $262,552,001.10)

                                                Single-family housing, 91%
                                                ($237,664,629.96)
                                                Public and Indian housing, 5%
                                                ($13,496,929.49)
                                                Multifamily housing, 1%
                                                ($3,382,319.18)
                                                Community planning and 	
                                                development, 3% ($7,912,335.14)
                                                Other, 0% ($95,787.33)




          Investigative cases closed by program area (total: 524)


                                                Single-family housing, 29% (155)
                                                Public and Indian housing, 43%
                                                (224)
                                                Multifamily housing, 9% (49)
                                                Community planning and 	
                                                development, 13% (66)
                                                Other, 6% (30)




vi                                                                   Investigation Charts
Acronyms List
AIGI		          Assistant Inspector General for Investigation
ARIGA		         Assistant Regional Inspector General for Audit
ARRA		          American Recovery and Reinvestment Act of 2009
ASAC		          Assistant Special Agent in Charge
CDBG		          Community Development Block Grant
CHDO		          Community Housing Development Organization
CFFP		          Capital Fund Financing Program
CFR		           Code of Federal Regulations
CPD		           Office of Community Planning and Development
FEMA		          Federal Emergency Management Agency
FFI		           Fugitive Felon Initiative
FFMIA		         Federal Financial Management Improvement Act of 1996
FHA		           Federal Housing Administration
FTE		           Full time equivalent
FY		            fiscal year
GAO		           Government Accountability Office
Ginnie Mae	     Government National Mortgage Association
HECM		          home equity conversion mortgage
HERA		          Housing and Economic Recovery Act of 2008
HOME		          HOME Investment Partnerships Program
HPRP		          Homelessness Prevention and Rapid Re-Housing Program
HUD		           U.S. Department of Housing and Urban Development
IDIS		          Integrated Disbursement and Information System
IED		           Inspections and Evaluations Division
IRS		           Internal Revenue Service
IT		            information technology
MAP		           Multifamily Accelerated Processing
NAHRO	          National Association of Housing and Redevelopment Officials
NSP		           Neighborhood Stabilization Program
OI		            Office of Investigations
OIG		           Office of Inspector General
OMB		           Office of Management and Budget
PHA		           public housing agency
RIGA		          Regional Inspector General for Audit
SA		            Special Agent



Acronyms List                                                                 vii
       SAC		      Special Agent in Charge
       SHP		      Supportive Housing Program
       SSA		      Social Security Administration
       SSN		      Social Security number
       TCAP		     Tax Credit Assistance Program
       U.S.C.		   United States Code
       USDA		     United States Department of Agriculture
       USPS		     United States Postal Service




viii                                                        Acronyms List
Table of Contents
Executive Highlights 											                                                                	 1
Chapter 1 - HUD’s Single Family Housing Programs 		                                               7	
	     Audit        												                                                                   8	
	     Investigations 										                                                                  13
Chapter 2 - HUD’s Public and Indian Housing Programs 						                                      27	
	     Audit       										                                                            	        28	
	     Investigations 									                            		                                     36
Chapter 3 - HUD’s Multifamily Housing Programs 		                                                47	
	     Audit       											                                                                    48	
	     Investigations 											                                                                 52
Chapter 4 - HUD’s Community Planning and Development Programs 				                               57	
	     Audit       											                                                                    58	
	     Investigations                                     					                                   66	
	     Inspections and Evaluations									                                                       73
Chapter 5 - American Recovery and Reinvestment Act of 2009 					                                 75	
	     Introduction and Background								                                                        76 	
	     Audit			                                                                                   77 	
	     Investigations											                                                                  84 	
	     Inspections and Evaluations									                                                       85
Chapter 6 - Disaster Grant Programs 								                                                	    87	
	     Introduction and Background 								                                                       88 	
	     Audit             								             	                                              	    89 	
	     Investigations 									                                                                   91
Chapter 7 - Other Significant Audits and Investigations/OIG Hotline 				                         97	
	     Audit      											                                                                     98	
	     Investigations											                                                                 104 	
	     Inspections and Evaluations									                                                      105	
	     OIG Hotline      										                                                               106
Chapter 8 - Outreach Efforts                   							                                          109
Chapter 9 - Legislation, Regulation, and Other Directives 					                                 123	
	     Enacted Legislation					                             					                                124	
	     Notices and Policy Issuances             							                                          125
Chapter 10 - Audit Resolution  									                                                        127	
	     Audit Reports Issued Before the Start of the Period With No Management Decision   	       128	
	     Significantly Revised Management Decisions		                  				                        130	
	     Significant Management Decision With Which OIG Disagrees        				                      131 	
	     Federal Financial Management Improvement Act of 1996 					                                132
Appendix 1 - Peer Review Reporting									                                                     135
Appendix 2 - Audit Reports Issued 									                                                     137
Appendix 3 - Tables 											                                                                 145
Appendix 4 - Index 											                                                                  165
HUD OIG Operations Telephone Listing 								                                                   169



Table of Contents                                                                                       ix
    Reporting Requirements
    The specific reporting requirements as prescribed by the Inspector General Act of 1978, as amended by
    the Inspector General Act of 1988, are listed below:
    Source/Requirement              							                                              		          pages
    Section 4(a)(2)-review of existing and proposed legislation and regulations.			                       124
    Section 5(a)(1)-description of significant problems, abuses, and deficiencies relating to	      1-107, 124	
    the administration of programs and operations of the Department.
    Section 5(a)(2)-description of recommendations for corrective action with respect to		              7-107	
    significant problems, abuses, and deficiencies.
    Section 5(a)(3)-identification of each significant recommendation described in Appendix 3, Table B
    previous semiannual report on which corrective action has not been completed.		
    Section 5(a)(4)-summary of matters referred to prosecutive authorities and the                       7-107
    prosecutions and convictions that have resulted.
    Section 5(a)(5)-summary of reports made on instances in which information or            No Instances	
    assistance was unreasonably refused or not provided, as required by Section 6(b)(2) of 				
    the Act.
    Section 5(a)(6)-listing of each audit report completed during the reporting period and   Appendix 2
    for each report, where applicable, the total dollar value of questioned and unsupported 			
    costs and the dollar value of recommendations that funds be put to better use.
    Section 5(a)(7)-summary of each particularly significant report and the total dollar value          7-107 	
    of questioned and unsupported costs.
    Section 5(a)(8)-statistical tables showing the total number of audit reports and Appendix 3, Table C 	
    the total dollar value of questioned and unsupported costs. 					
    Section 5(a)(9)-statistical tables showing the total number of audit reports Appendix 3, Table D
    and the dollar value of recommendations that funds be put to better use by 					
    management.
    Section 5(a)(10)-summary of each audit report issued before the commencement Appendix 3, Table A 	
    of the reporting period for which no management decision had been made by the 		            		
    end of the period.
    Section 5(a)(11)-a description and explanation of the reasons for any 			                             130
    significant revised management decisions made during the reporting period.
    Section 5(a)(12)-information concerning any significant management decision with which the            131	
    Inspector General is in disagreement.
    Section 5(a)(13)-the information described under section 05(b) of the Federal Financial               132	
    Management Improvement Act of 1996.




x                                                                                       Reporting Requirements
Executive Highlights
    Strategic Initiative 1
    HUD Strategic Goal: Strengthen the Nation’s Housing Market to Bolster the
    Economy and Protect Consumers
    Office of Inspector General (OIG) Strategy: Contribute to the increase of effectiveness in the
    single-family insurance programs through
    •	 Audits uncovering single-family and loan origination abuse
    •	 Audits of the U.S. Department of Housing and Urban Development’s (HUD) internal policies to
         determine whether controls are adequate
    •	   A strategy for civil fraud initiatives
    •	   A national strategy for single-family mortgage fraud task forces
    •	   Outreach to industry and consumer groups and the Department
    •	   Review of Federal Housing Administration’s (FHA) and Government National Mortgage Association’s
         (Ginnie Mae) ability and capacity to oversee their expanding market share
    •	   Proactive enforcement measures through the use of real estate-owned (REO) properties in partnership
         with HUD

    Highlights: Results or impact of significant OIG work
    •	 Audits of five FHA single-family mortgage lenders found that lenders did not follow HUD requirements
         when underwriting loans and performing quality control procedures.
    •	   HUD OIG summarized systemic issues identified from the Operation Watchdog initiative, which
         consisted of a review of the underwriting process of 15 direct endorsement lenders to determine
         whether loans were processed in accordance with FHA requirements.
    •	   HUD OIG audited a selection of management and marketing contractors for single-family properties
         owned by HUD to assess allegations of mismanagement, political influence, and possible violations of
         law.
    •	   HUD OIG special agents are participating in 70 mortgage fraud working groups and task forces
         throughout the country.
    •	   HUD OIG chaired the Mortgage Fraud Working Group’s (MFWG) Policy Committee and was
         instrumental in marshalling law enforcement support for the Financial Crimes Enforcement Network’s
         (FinCEN) notice of proposed rule making to include nonbank mortgage lenders and originators within
         the definition of financial institutions for purposes of the Bank Secrecy Act.
    •	   During the reporting period, special agents gave dozens of presentations to mortgage industry partners.
         In January 2011, special agents from HUD OIG and FinCEN, together with the Federal Bureau of
         Investigation, gave presentations on mortgage fraud and fraud schemes.
    •	   A systemic implication report (SIR) was prepared and presented to HUD in relation to a home equity
         conversion mortgage (HECM) investigation of “fraudsters” who were duping seniors into purchasing
         homes using HECM mortgages and not advising them of certain important requirements.

    Emerging Issues: Areas of OIG interest
    •	   Dramatic increase in lenders/brokers/issuers seeking to do business with FHA and Ginnie Mae
    •	   FHA’s and Ginnie Mae’s ability and capacity to oversee their expanded market share
    •	   Effectiveness of loan modification programs in the prevention of foreclosures
    •	   Review of mortgage servicers’ processing of foreclosures
    •	   Continued concerns for the health and soundness of the FHA fund
    •	   Short sale frauds and foreclosure rescue schemes
    •	   Impact of appraisers in mortgage fraud



2                                                                                            Executive Highlights
Strategic Initiative 2
 HUD Strategic Goal: Meet the Need for Quality Affordable Rental Homes
 OIG Strategy: Contribute to the reduction of erroneous payments in rental assistance programs
 through
 •	 Focus on grantees’ administration of American Recovery and Reinvestment Act (ARRA) funds
 •	 Reducing erroneous payments
 •	 Contributing to improving the performance of entities managing rental assistance programs
 •	 Investigative initiatives involving corruption in the management of troubled public housing agencies
    (PHA), multifamily developments, and those in receivership
 •	 Public and departmentwide outreach initiatives

 Highlights: Results or impact of significant OIG work
 •	 HUD OIG audited HUD’s oversight of PHAs’ Section 8 Project-Based Voucher programs to determine
      whether HUD had adequate oversight of PHAs’ programs to ensure that program funds were used in
      accordance with HUD’s requirements.
 •	   HUD OIG audited the Philadelphia, PA, Housing Authority to determine whether the Authority’s
      payments to outside legal firms could be supported and complied with HUD regulations and other
      applicable requirements.
 •	   The Office of Investigation (OI) has coordinated efforts with housing authorities and local law
      enforcement throughout the country to target erroneous rental assistance payments for the benefit of
      program participants who fraudulently underreported household income, failed to report household
      composition, or allowed registered sex offenders to reside in public housing units.
 •	   Special agents gave dozens of presentations to industry partners and organizations on ARRA, the
      Neighborhood Stabilization Program (NSP), and rental assistance fraud schemes and investigations.
 •	   OI has focused investigative efforts on housing authority officials and public officials, including but not
      limited to investigations of bribery, embezzlement, bid rigging, and theft.
 •	   HUD OIG completed 19 ARRA-related reviews of how HUD is administering the program and/or how the
      grantees are administrating the ARRA-related funds.

 Emerging Issues: Areas of OIG interest
 •	 Rental assistance fraud initiatives targeting PHAs in receivership or on HUD’s list of “troubled” housing
      authorities
 •	 Eligibility of grantee expenditures, particularly ARRA
 •	 HUD’s oversight of grantee ARRA expenditures
 •	 Review and analysis of management of rural housing authorities




Executive Highlights                                                                                                3
    Strategic Initiative 3
    HUD Strategic Goal: Build Inclusive and Sustainable Communities Free From
    Discrimination
    OIG Strategy:
    •	 Promote integrity, efficiency, and effectiveness of programs
    •	 Contribute to the reduction of fraud, waste, and abuse
    •	 ARRA – focus on grantees’ execution and administration of NSP2 and Community Development Block
         Grant (CDBG) grantees
    •	   Audits of the CDBG, Supportive Housing, and HOME Investment Partnerships (HOME) programs
    •	   Audits of disaster activities
    •	   Investigative initiative to fight corruption in the administration of State or local community grant
         recipients
    •	   Disaster relief fraud in HUD CDBG-funded programs
    •	   Public dissemination of HUD OIG activities and outreach activities with State and local government
         agencies and other community affairs agencies

    Highlights: Results or impact of significant OIG work
    •	 HUD OIG reviewed several CDBG recipients to determine whether the grant funds were administered
         for eligible activities and that the auditee met program objectives.
    •	   HUD OIG audited the District of Columbia’s administration of its HOME program and found that the
         grantee did not administer its program in accordance with Federal requirements.
    •	   HUD OIG conducted several NSPI reviews during the period to determine whether the grantees were
         properly obligating NSPI funds in accordance with the Housing and Economic Recovery Act of 2008.
    •	   HUD OIG conducted audits of grantees receiving ARRA funding for NSP2, the Tax Credit Assistance
         Program, and the Homelessness Prevention and Rapid Re-Housing Program (HPRP).
    •	   During the current reporting period, OI has made 15 outreach presentations to government and industry
         partners and to partner law enforcement agencies regarding risks and fraud trends relating to ARRA,
         NSP, CDBG, and HOME funds.
    •	   OI has targeted frauds against HUD programs, including but not limited to HPRP.
    •	   OI continues to focus investigative efforts on disaster relief frauds in the Gulf States impacted by
         Hurricanes Katrina and Rita that received disaster relief funding.

    Emerging Issues: Areas of OIG interest
    •	   Audits and investigations of ARRA funding and NSP
    •	   Review of Green Retrofit Program activities
    •	   Focus on infrastructure projects
    •	   Emergency Shelter Grants and programs




4                                                                                             Executive Highlights
Strategic Initiative 4
 HUD Strategic Goal: Transform the Way HUD Does Business
 OIG Strategy:
 •	 Be a relevant and problem-solving advisor to the Department
 •	 Contribute to improving HUD’s execution of and accountability for fiscal responsibilities
    through
 •	 Referring audits and investigations to the Departmental Enforcement Center and other management
      officials to ensure the accountability of individuals and firms committing fraud
 •	   Referring audits and investigations to the U.S. Department of Justice for civil enforcement
 •	   Audits of HUD’s financial statements
 •	   Audits of HUD’s information systems and security management
 •	   Participating in the U.S. Department of Justice Financial Fraud Enforcement Task Force (FFETF) and
      Procurement Fraud Task Force

 Highlights: Results or impact of significant OIG work
 •	 HUD OIG audited the underwriting of a $45.6 million mortgage loan that was acquired by Deutsche
      Bank Berkshire Mortgage, Inc., in Bethesda, MD, to rehabilitate Wingate Towers and Garden
      Apartments.
 •	   HUD OIG audited HUD’s, FHA’s, and Ginnie Mae’s financial statements and reported on significant
      deficiencies and instances of noncompliance with laws and regulations.
 •	   HUD OIG audited ACORN Associates, Inc., regarding its use of its fiscal years 2004 and 2005 Lead
      Elimination Action Program grant funds to determine whether Associates expended program funds in
      accordance with HUD’s requirements.
 •	   HUD OIG is cochair of FFETF MFWG, and HUD OIG chaired MFWG’s Policy Committee and Metrics
      Group.
 •	   HUD OIG attended monthly meetings with the Mortgagee Review Board on all proposed actions.
 •	   HUD OIG special agents have conducted 6 outreach/training sessions for HUD employees who oversee
      government contracts at the request of the Office of Chief Procurement Officer. Sessions are conducted
      during regularly scheduled ethics training sessions for HUD employees and have been offered in
      Washington, DC, Colorado, Georgia, and California.
 •	   During this current reporting period, HUD OIG special agents submitted three SIRs to HUD. The most
      recent suggested that each page of the form HUD-1 should be signed or initialed by all parties involved
      in the transaction, including the buyer, seller, and settlement agent.
 •	   OI’s Inspections and Evaluations Division (IED) completed two reports, one memorandum report, and
      four research memorandums during the most recent reporting period. Among the reports, IED looked
      at the Departmental Enforcement Center and its practices of processing referrals for action from HUD
      OIG.

 Emerging Issues: Areas of OIG interest
 •	   Issuer accountability in loan portfolio defaults in the Ginnie Mae Mortgage-Backed Securities program
 •	   Continued modernization and enhancement of HUD’s information systems
 •	   Contracts and procurement acquisition
 •	   HUD’s method for contracting and monitoring of REO properties due to the increase in foreclosures
 •	   Outreach and training to HUD’s Office of Procurements and Contracts on the procurement fund




Executive Highlights                                                                                            5
Chapter 1 - Single-Family Housing
Programs
        The Federal Housing Administration’s (FHA) single-family programs provide mortgage insurance
    to mortgage lenders that, in turn, provide financing to enable individuals and families to purchase,
    rehabilitate, or construct homes. In addition to the audits and investigations described in this chapter,
    the U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG), has
    conducted a number of outreach efforts (see chapter 8, page 110).


    Audit
                        Strategic Initiative 1: Contribute to the reduction of fraud
                                   in single-family insurance programs
     Key program results                                 Questioned costs               Funds put to better use
            Audit                10 audits                    $600,000                          $6 million
             Our               Page 9      •	 Underwriting review of 15 FHA lenders
            focus              Page 9      •	 Review of management and marketing contractors for single-
                          		                  family properties
                           Page 10         •	 Mortgagees, loan correspondents, and direct endorsement
                          		                  lenders
                           Page 12         •	 Review of housing counseling services




                    Chart 1.1: Percentage of OIG single-family housing audit reports
                                      during this reporting period



                                                                                          Region 1 - 20%
                                                                                          Region 2 - 0%
                                                                                          Region 3 - 10%
                                                                                          Washington DC - 20%
                                                                                          Region 4 - 10%
                                                                                          Region 5 - 0%
                                                                                          Region 6 - 30%
                                                                                          Regions 7/8/10 - 0%
                                                                                          Region 9 - 10%
                                                                                          Region 11 - (N/A)*




    * This does not include disaster relief audits. See chapter 6 for these reviews.




8                                                                            Chapter 1 - Single-Family Housing Programs
Underwriting Review of 15 FHA Lenders

    In January 2010, HUD OIG began Operation Watchdog, an initiative to review the underwriting of
15 Federal Housing Administration (FHA) direct endorsement lenders having default and claim rates
indicating lender performance problems. The objective was to determine whether each lender
underwrote its respective loans in accordance with FHA requirements.

    OIG reviewed between 12 and 20 FHA loans underwritten by each of the 15 lenders that resulted in
claims against the FHA insurance fund and reported the results in individual memorandums to HUD.

    OIG recommended in each of the 15 memorandums that HUD pursue appropriate remedies under
the Program Fraud Civil Remedies Act against each lender and/or its principals for incorrectly certifying to
the integrity of the data or that due diligence was exercised during the underwriting of the 140 questioned
loans. These loans resulted in actual losses or were expected to result in losses to the FHA insurance
fund of more than $11 million. Further, the lenders’ improper certifications could result in affirmative
civil enforcement actions of more than $23 million. OIG recommended that HUD take appropriate
administrative action against each lender and/or its principals.

    Based on the overall results of the Operation Watchdog initiative and the systemic problems identified,
OIG made an additional recommendation to HUD that (1) it develop and implement procedures for
reviewing a statistical or risk-based selection of loans, for which FHA paid a claim on the mortgage
insurance within the first 2 years of endorsement, to verify that the loans met FHA requirements and were
qualified for insurance and (2) these procedures include a requirement for HUD to seek appropriate civil
and administrative remedies to recover losses incurred on loans not qualified for FHA insurance. (Audit
Report: 2011-CF-1801)


Review of Management and Marketing Contractors for Single-Family
Properties

    HUD OIG audited a selection of management and marketing contractors for single-family properties
owned by HUD to determine whether allegations of mismanagement, political influence, and possible
violations of law received in a hotline complaint were valid.

    The allegation of mismanagement was credible; however, OIG did not find support to substantiate the
allegations of political influence or violations of law. HUD did not have adequate controls to ensure that
third generation management and marketing (M&M III) contracts were awarded in a timely and efficient
manner. Specifically, key stakeholders were not included in the initial planning for these contracts, and
acquisition plans were not developed in a timely manner. As a result, the M&M III contracts were delayed
for nearly a year, and bridge contracts with an estimated cost of more than $275 million had to be awarded
to the existing contractors to avoid a lapse in the management and marketing services.

    OIG recommended that HUD (1) develop controls to award contracts in a timely manner, thus
avoiding unnecessary expenditures for extending contracts; (2) follow the established acquisition
planning requirements and procurement acquisition lead time (PALT) guidance; (3) submit timely and
complete performance work statements on all future contracts; (4) use in-house resources when forming
the integrated program team for all significant acquisitions to avoid unnecessary expenditures such as




Chapter 1 - Single-Family Housing Programs                                                                     9
     those paid to a contractor for writing performance work statements; (5) assign significant acquisitions to
     offices that have sufficient staff and expertise to avoid unnecessary expenditures such as those paid to an
     administrative support contractor; and (6) ensure that the PALT schedule is followed and require written
     justification when significant delays are encountered. (Audit Report: 2011-HA-0001)

     Mortgagees, Loan Correspondents, and Direct Endorsement Lenders
         HUD OIG audited Nationwide Home Loans, Inc., an FHA-approved direct endorsement lender located
     in Miami, FL, to determine whether the lender followed HUD’s requirements when (1) originating and
     underwriting loans and (2) implementing its quality control program.

         Nationwide did not follow HUD requirements when it used at least 16 various independent loan
     officers to originate 41 loans. These loan officers were also employed by or owned businesses involved
     with mortgage lending or related fields such as real estate sales and mortgage processing. In addition,
     Nationwide did not follow HUD requirements when originating and underwriting loans for FHA insurance.
     It used inaccurate and unsupported information to qualify borrowers for five of six FHA loans reviewed.
     As a result, it approved loans that did not qualify for FHA insurance and unnecessarily placed the FHA
     insurance fund at risk.

         Further, Nationwide did not conduct quality control reviews in compliance with requirements, and
     its written quality control plan did not contain the required provisions. As a result, Nationwide increased
     the risk to the FHA insurance fund because it did not have assurance regarding the accuracy, validity, and
     completeness of its loan origination and underwriting operations.

         OIG recommended that HUD require Nationwide to indemnify it for the 46 ineligible FHA loans with
     an estimated potential loss of $5 million. OIG also recommended that Nationwide be referred to the
     Mortgagee Review Board for consideration of imposing civil money penalties for the ineligible loans and
     taking appropriate administrative actions against the individuals and entities responsible. Finally, OIG
     recommended that Nationwide develop, implement, and enforce (1) written controls to ensure that loans
     are originated and underwritten in accordance with HUD requirements and (2) a quality control program
     that complies with HUD requirements. (Audit Report: 2011-AT-1001)

                                                       nnn

        HUD OIG audited WR Starkey Mortgage, LLP, an FHA direct endorsement lender in Plano, TX, to
     determine whether WR Starkey complied with HUD and FHA loan origination requirements for loans
     endorsed between April 1, 2008, and April 30, 2010.

        WR Starkey did not follow HUD/FHA underwriting requirements in 13 of 14 loan originations reviewed.
     As a result, it improperly originated four loans that resulted in losses to FHA’s insurance fund and nine
     loans that increased the risk to the insurance fund.

         OIG recommended that HUD require WR Starkey to (1) reimburse the FHA insurance fund more than
     $360,000 in actual losses on four loans and (2) indemnify nine loans that placed the FHA insurance fund
     at unnecessary risk with unpaid balances of nearly $906,000, thereby putting more than $543,000 in funds
     put to better use. (Audit Report: 2011-FW-1003)

                                                       nnn

        HUD OIG audited Semper Home Loans, Inc., in Providence, RI, an FHA lender approved to underwrite
     and close mortgage loans without prior FHA review or approval to determine whether (1) Semper acted




10                                                                     Chapter 1 - Single-Family Housing Programs
in a prudent manner and complied with HUD regulations, procedures, and instructions for the origination,
underwriting, and closing of the FHA-insured single-family loans and (2) Semper’s quality control plan, as
implemented, fulfilled HUD’s requirements.

   Semper generally met HUD requirements for the origination of FHA-insured single-family loans.
However, OIG identified several underwriting deficiencies that negatively affected the insurability of two
loans for which Semper acted as the loan correspondent and for which the underwriting was performed by
one of Semper’s sponsors. The deficiencies consisted of qualifying ratios that exceeded HUD’s benchmarks
without significant compensating factors.

    In addition, Semper did not fully implement its quality control plan. It failed to perform sufficient
reviews, which prevented it from ensuring the accuracy, validity, and completeness of its loan origination
operations. As a result, Semper may not have identified and corrected potential deficiencies in a timely
manner, resulting in an unnecessary risk to the FHA insurance fund.

    Semper was also incorrectly listed as the holding lender for 34 active loans and the servicing lender
for 11 active loans. HUD will not pay a claim for insurance benefits for which the information on the claim
and HUD’s FHA insurance system does not agree.

    OIG recommended that HUD require the sponsor(s) of the respective loans to (1) reimburse the FHA
insurance fund $169,000 in actual losses on one loan and (2) indemnify HUD for a potential loss of more
than $179,000 that may be incurred related to one loan that did not meet FHA insurance requirements.
OIG also recommended that HUD direct Semper to (1) implement its quality control plan as required and
follow up with the lender in 9 months to ensure its compliance and (2) update its remaining mortgage
records in HUD’s system to reflect the appropriate mortgage holder and implement procedures to ensure
the timely submission of mortgage record changes for future loans sold to investing lenders. (Audit Report:
2011-BO-1005)

                                                  nnn

HUD OIG audited Gold Financial Services, Inc., in San Antonio, TX, an FHA direct endorsement lender
and a branch of AmericaHomeKey, Inc., to determine whether Gold Financial complied with HUD/FHA
loan origination requirements.

Gold Financial did not follow HUD/FHA underwriting requirements in two of seven loan originations
reviewed. Its underwriter did not require two borrowers to explain recent poor credit. As a result, it
originated two ineligible loans that resulted in a loss to HUD of more than $71,000 and an increased
risk to the FHA insurance fund of nearly $87,000. It originated a third loan that did not violate HUD/FHA
underwriting requirements but did violate its own internal controls concerning borrowers with poor credit.
Specifically, the underwriter did not require the borrower to have 3 months’ reserves in accordance with
Gold Financial’s closing instructions.

OIG recommended that HUD require Gold Financial to (1) indemnify it for one ineligible loan with an
unpaid principal balance of nearly $145,000 and (2) reimburse the FHA insurance fund for losses incurred
on one loan. (Audit Report: 2011-FW-1002)

                                                  nnn

HUD OIG audited NFM, Inc., in Linthicum, MD, a nonsupervised lender approved to originate FHA single-
family mortgage loans, to determine whether NFM complied with HUD requirements in the origination
and quality control review of FHA loans.




Chapter 1 - Single-Family Housing Programs                                                                    11
     NFM generally complied with HUD requirements in the origination of FHA loans. However, it had not
     implemented certain aspects of its quality control plan in accordance with HUD requirements. It did not
     perform routine quality control reviews within the timeframe required by HUD or review all loans that
     defaulted within the first six payments in a reasonable and timely manner. Consequently, the effectiveness
     of the plan, which was designed to ensure accuracy, validity, and completeness in the loan underwriting
     process, was lessened.

     OIG recommended that HUD direct NFM to fully implement its quality control functions as required and
     follow up in 9 months to ensure the lender’s compliance. (Audit Report: 2011-PH-1004)

     Review of Housing Counseling Services
          HUD OIG audited the Neighborhood Assistance Corporation of America (NACA) in Jamaica Plains,
     MA, a HUD-approved organization providing housing counseling services to qualified home buyers or
     homeowners with unaffordable mortgage payments, to determine whether NACA properly administered
     its HUD grants used for housing counseling activities in accordance with HUD requirements. Specifically,
     OIG wanted to determine whether (1) NACA provided counseling services in accordance with the HUD
     grants and properly addressed client complaints, (2) HUD funds were properly accounted for and used to
     pay only counselor salaries, (3) NACA’s process for documenting and reporting program results/outcomes
     complied with HUD grant requirements, (4) NACA staff was adequately trained and experienced in housing
     counseling and management staff adequately monitored the work of the counselors, and (5) NACA complied
     with HUD disclosure and conflict-of-interest requirements.

         NACA generally administered its HUD grants used for housing counseling activities in accordance with
     HUD requirements. With respect to HUD’s conflict-of-interest disclosure requirements, NACA adequately
     informed its counseling clients of its relationships with major industry partners. However, it needs to
     resolve issues raised by HUD with respect to how it discloses relationships that its local offices may have
     with local industry partners, such as lenders and realtors.

        OIG made no recommendations because HUD had already asked NACA to identify every industry partner
     with which it had a financial relationship and amend its disclosures to fully disclose these arrangements.
     Therefore, no further action is necessary. (Audit Report: 2011-BO-1004)

                                                       nnn




12                                                                     Chapter 1 - Single-Family Housing Programs
Investigations
   Some investigations discussed in this report were generated from leads provided by HUD single-family
housing program staff and conducted jointly with Federal, State, and local law enforcement agencies.
The results of various significant investigations are described below.


                   Strategic Initiative 1: Contribute to the reduction of fraud
                              in single-family insurance programs
    Key program                Cases                $            Convictions/pleas/         Admin/civil
       results                 closed           recovered            pretrials               actions

    Investigations               155           $237,664,630                 152                    156
         Our                   Page 14       •	 Loan origination fraud
        focus                  Page 20       •	 Home Equity Conversion Mortgage program fraud
                               Page 20       •	 Civil and administrative actions
                               Page 22       •	 Other single-family fraud




       Chart 1.2: Percentage of OIG single-family housing closed investigation cases
                                during this reporting period

                                                                                  Region 1 - 2%
                                                                                  Region 2 - 5%
                                                                                  Region 3 - 6%
                                                                                  Region 13 - 26%
                                                                                  Region 4 - 10%
                                                                                  Region 14 - 7%
                                                                                  Region 5 - 3%
                                                                                  Region 15 - 10%
                                                                                  Region 6 - 6%
                                                                                  Regions 7/8 - 3%
                                                                                  Region 9 - 17%
                                                                                  Region 10 - 5%
                                                                                  Region 11 - 0%




Chapter 1 - Single-Family Housing Programs                                                                13
     Loan Origination Fraud

         Michael McGrath, Jr., the former president of U.S. Mortgage Corporation (U.S. Mortgage) and CU Nations
     Mortgage, LLC; Frank Corallo and Jerry Carti, former loan officers for U.S. Mortgage; Renford Davis, a property
     manager for Renhops Management, LLC; William Ottaviano, an appraiser for Equity Appraisal Services, LLC
     (Equity Appraisal); Equity Appraisal; and eight additional individuals were collectively sentenced in U.S.
     District Court, Newark, NJ, to 357 months incarceration, 54 months home confinement, and 432 months
     supervised release; ordered to pay a number of victims more than $72.4 million in restitution and forfeit
     more than $140.7 million; and fined $5,800 for their earlier conviction of or guilty pleas to committing a
     conspiracy to commit money laundering or mail and wire fraud or making false statements in a Federal
     income tax return. From January 2004 to February 2009, McGrath conspired with others, fraudulently
     sold credit union mortgage loans to the Federal National Mortgage Association (Fannie Mae), and used
     more than $139 million in illicit proceeds to fund personal and business investments and U.S. Mortgage
     operations. In addition, between December 1998 and 2007, the above defendants and other individuals
     inflated home values, provided false information or fraudulent appraisals and other documents used by
     unqualified borrowers to obtain FHA-insured and conventional mortgages, and placed the fraudulent
     conventional mortgaged properties into the Paterson Housing Authority or the City of Paterson, NJ, Section
     8 programs. HUD realized losses of $2.7 million after 100 mortgages defaulted.

                                                         nnn

         Reyes Quintero, a former loan officer for American Residential Funding, was sentenced in U.S. District
     Court, Riverside, CA, to 5 years probation and ordered to pay HUD more than $1.6 million in restitution
     for his earlier guilty plea to committing a conspiracy. From 1997 to 2001, Quintero and other individuals
     conspired and caused the submission of fraudulent documents used by unqualified borrowers to obtain
     FHA-insured mortgages. HUD realized losses in excess of $1.6 million after 38 mortgages defaulted.

                                                         nnn

         Maria Contreras, a loan officer for Atlantic Pacific Mortgage Company, doing business as America’s
     First Mortgage, was sentenced in U.S. District Court, Fort Meyers, FL, to 18 months incarceration and 3
     years probation for her earlier guilty plea to committing loan application fraud. From June 2006 to July
     2007, Contreras created and submitted false information and fraudulent documents used by unqualified
     borrowers to obtain FHA-insured mortgages. HUD realized losses of more than $1 million after six mortgages
     defaulted.

                                                         nnn

         Eric Wendlandt, the owner of Pricise Mortgage, and Roni Watkins each pled guilty in U.S. District Court,
     Grand Rapids, MI, to making false statements to HUD or committing a conspiracy. From February 2008
     to April 2010, Wendlandt, Watkins, and other individuals produced or provided fraudulent documents
     used by unqualified borrowers to obtain FHA-insured mortgages. HUD realized losses of $553,000 after
     six mortgages defaulted.

                                                         nnn

        Harold Meza, a former real estate agent for JLF Properties, was sentenced in U.S. District Court,
     Riverside, CA, to 3 years incarceration and 3 years probation and ordered to pay victims that have not yet
     been identified $486,474 in restitution for his earlier guilty plea to committing a conspiracy. From 2002 to
     2005, Meza and other individuals created fraudulent documents used by unqualified borrowers to obtain
     FHA-insured mortgages. HUD realized losses of $486,474 after 16 mortgages defaulted.

                                                         nnn
14                                                                       Chapter 1 - Single-Family Housing Programs
    Henry and Elizabeth Robertson, the former owners of Elohim, Inc., were collectively sentenced in U.S.
District Court, Chicago, IL, to 104 months incarceration and 60 months probation and ordered to pay HUD
$459,000 and others $283,832 in restitution for their earlier guilty pleas to committing bank and wire fraud.
From February 1997 to June 1999, Henry and Elizabeth Robertson provided fraudulent documents and
downpayment funds used by unqualified borrowers to obtain FHA-insured and conventional mortgages.
HUD realized losses of $459,000 after 20 mortgages defaulted.

                                                       nnn

    Olu Campbell, the owner of Metropolitan Housing Associates, LLC, was sentenced in U.S. District Court,
Baltimore, MD, to 54 months incarceration and 3 years supervised release for his earlier conviction of
committing aggravated identity theft, wire fraud, and aiding and abetting. From August 2008 to January
2010, Campbell used the identities of other individuals to purchase properties, recruited straw borrowers,
and provided or submitted false information and fraudulent documents used by unqualified borrowers
to obtain FHA-insured and conventional mortgages. HUD realized losses of $395,000 after one mortgage
defaulted.

                                                       nnn

    Timothy Johnson, Tamiko Davis, and former Social Security Administration (SSA) employee Pamela
Terrell were collectively sentenced in U.S. District Court, Birmingham, AL, to 78 months, 14 days, and 1
hour incarceration and 120 months probation, and Johnson was ordered to forfeit more than $2.5 million
for their earlier guilty pleas to making false statements or committing mail fraud. Between 2007 and
December 2009, Johnson created and mailed fictitious SSA award letters, assisted unqualified borrowers
who fraudulently obtained FHA-insured and conventional mortgages, and provided false statements when
questioned by Federal investigators; Davis created fraudulent documents used by unqualified borrowers to
obtain FHA-insured and conventional mortgages; and Terrell used a fake SSA income award document to
obtain and later default on an FHA-insured mortgage. HUD realized losses of $384,357 after four mortgages
defaulted.




  Copyright 2010. The Birmingham News, Birmingham, AL. Reprinted with permission.


                                                       nnn

    Six individuals were each indicted in Dallas County District Court, Dallas, TX, for allegedly securing
the execution of documents by deception. In addition, Jose Torres was sentenced to 6 months deferred
adjudication and fined $500 for his earlier guilty plea to securing the execution of a document by deception.
Between March 2002 and October 2004, Torres admittedly and the remaining defendants allegedly used
false Social Security numbers (SSN) to obtain FHA-insured mortgages. HUD realized losses of $380,855
after seven mortgages defaulted.

                                                       nnn
Chapter 1 - Single-Family Housing Programs                                                                      15
         Ephrain Harris, the owner of Can Do Accounting; Darrell Booker, the owner of Boo Boo Wireless; and
     Tamiko Alston, the former owner of Above All Title & Escrow, were collectively sentenced in U.S. District
     Court, Norfolk, VA, to 87 months incarceration and 156 months supervised release and ordered to pay HUD
     $165,373, Fannie Mae $167,857, and First Horizon Home Loans $207,898 in restitution for their earlier guilty
     pleas to committing a conspiracy to commit mail and wire fraud. Between September 2007 and June 2008,
     Harris, Booker, Alston, and other individuals conspired and provided closing funds, false information, or
     fraudulent documents used by unqualified borrowers to obtain FHA-insured and conventional mortgages. In
     addition, Alston created fraudulent HUD-1 settlement statements that failed to accurately report the receipt
     and disbursement of settlement funds. HUD realized losses of $275,271 after two mortgages defaulted.

                                                        nnn

         Derrick Boamah was sentenced in U.S. District Court, Worcester, MA, to 12 months home confinement
     and 60 months probation and ordered to pay FHA and CitiMortgage $280,315 in restitution for his earlier
     guilty plea to making false statements. In September 2006, Boamah provided false income, employment,
     and other information to obtain an FHA-insured mortgage. HUD realized a loss of $257,095 after his
     mortgage defaulted.

                                                        nnn

         A.J. Adewunmi, a former owner of Re/Max Associates Plus (Re/Max) and Cots Realty; Richard Rodawald,
     an unlicensed real estate closer for Dedicated Closing; and former Re/Max real estate agent Christian Juan
     each pled guilty in U.S. District Court, St. Louis, MO, to making false statements to HUD or committing
     mail fraud. Between 2003 and 2010, Adewunmi and Juan assisted unqualified borrowers who obtained
     FHA-insured mortgages, and Rodawald created about 1,100 fraudulent HUD-1 settlement statements for
     FHA-insured and conventional mortgage loans that included about $98,000 in inflated and illegal fees and
     disbursements. HUD realized losses of about $200,000 after four mortgages defaulted.

                                                        nnn

        Dhia Abdulridha and Falah Tamimi were each indicted in U.S. District Court, St. Louis, MO, for allegedly
     committing bank fraud and a conspiracy to commit bank fraud. From March 2004 to September 2009,
     Abdulridha and Tamimi allegedly conspired and provided fraudulent documents used by unqualified
     borrowers to obtain FHA-insured mortgages. HUD realized losses of about $150,000 after three mortgages
     defaulted.

                                                        nnn

         Meggan and David Alexander were each convicted in U.S. District Court, Cedar Rapids, IA, of making
     false statements. In April 2007, Meggan Alexander provided false information when she obtained an FHA-
     insured mortgage, and in September 2007, Meggan and David Alexander provided false information when
     they attempted to avoid foreclosure. HUD realized a loss of $110,772 after their mortgage defaulted.

                                                        nnn

         Joseph Dintino was indicted in U.S. District Court, Kansas City, KS, for allegedly committing bank and
     wire fraud and money laundering. From March 2005 to April 2006, Dintino allegedly provided false Federal
     income tax returns when he obtained an FHA-insured mortgage and other consumer loans. HUD realized
     a loss of $82,404 after his mortgage defaulted.

                                                        nnn



16                                                                     Chapter 1 - Single-Family Housing Programs
    Nathan Russo, a former vice president of Action Mortgage Corporation, and five additional individuals
each pled guilty in U.S. District Court, Hartford, CT, to making false statements or committing a conspiracy,
mail and wire fraud, or a conspiracy to commit wire fraud. Between February 2007 and April 2010, the
above defendants conspired and resold properties at inflated values or provided false information and
fraudulent documents used by themselves or other unqualified borrowers to obtain FHA-insured and
conventional mortgages. HUD realized a loss of $75,000 after one mortgage defaulted.

                                                   nnn

   Kamal Hosn pled guilty in Maricopa County Superior Court, Phoenix, AZ, to committing residential
mortgage fraud and attempted fraudulent schemes and artifices. Between February and May 2008, Hosn
provided or submitted false information and fraudulent documents when he obtained an FHA-insured
mortgage. HUD realized a loss of $73,160 after his mortgage defaulted.

                                                   nnn

    Juan Goytia and Maria Ponce were each charged in Colorado State Court, Yuma, CO, with allegedly
committing identity theft, criminal impersonation, and forgery. In June 2005, Goytia and Ponce allegedly
used a false SSN and resident alien card when they obtained an FHA-insured mortgage. HUD realized a
loss of $48,465 after their mortgage defaulted.

                                                   nnn

   Michael Conley pled guilty in U.S. District Court, Roanoke, VA, to making false statements. In October
2005, Conley provided false information and fraudulent documents when he obtained an FHA-insured
mortgage. HUD realized a loss of about $38,000 after his mortgage defaulted. .

                                                   nnn

    LeeAnn Bible was sentenced in U.S. District Court, Fort Worth, TX, to 3 years probation and ordered
to pay HUD $18,277 in restitution for her earlier guilty plea to making false statements to HUD. In October
2002, Bible provided fraudulent documents when she obtained an FHA-insured mortgage. HUD realized
a loss of $18,277 after her mortgage defaulted.

                                                   nnn

    Raquel Berger, a realtor for Exit Dream Home Realty, Inc.; Rui Talaia, a former real estate agent and
broker for an unnamed business; Rosa Damasceno; and Jairo Nunes each pled guilty in U.S. District Court,
Newark, NJ, to committing a conspiracy to commit wire fraud or attempting to commit wire fraud. In
addition, Edivaldo Dos Santos, a former loan officer for Celebrity Mortgage; Maria Lourdes Sousa; and
Ricardo Muniz were collectively sentenced to 23 months incarceration and 84 months supervised release for
their earlier guilty pleas to committing a conspiracy to commit wire fraud. Dos Santos was also suspended
from procurement and nonprocurement transactions with HUD and throughout the Executive Branch of
the Federal Government pending the outcome of criminal proceedings or any related debarment action.
From June 2008 to May 2010, the above defendants and other individuals conspired and created or provided
fraudulent documents used by unqualified borrowers to obtain FHA-insured and conventional mortgages.
HUD losses have not yet been determined.

                                                   nnn




Chapter 1 - Single-Family Housing Programs                                                                      17
         Edgar Argotte, a real estate agent for Millennium Real Estate Company, was arrested and charged in
     U.S. District Court, Brooklyn, NY, with allegedly committing a conspiracy to commit wire fraud. In addition,
     Lauro Gutierrez, the owner of Lauro G. Home Improvement, pled guilty to committing a conspiracy to
     commit wire fraud. From October 2005 to January 2007, Argotte and other individuals allegedly and
     Gutierrez admittedly provided false information or fraudulent documents used by unqualified borrowers
     to obtain FHA-insured and conventional mortgages. HUD losses have not yet been determined.

                                                                nnn

         David Vickers, a general contractor with J & G Homes, Inc., was convicted in U.S. District Court,
     Jacksonville, FL, of committing a conspiracy to commit wire, mail, and bank fraud. From December 2006
     to September 2009, Vickers and other individuals provided downpayment funds and assisted unqualified
     borrowers who obtained FHA-insured mortgages. HUD losses have not yet been determined.




      Copyright 2010. The Jacksonville Times Union, Jacksonville, FL. Reprinted with permission.


                                                                nnn

         Daniel Nichter, a former licensed appraiser, loan originator for Preferred Mortgage Consultants, Hilliard
     City councilmember, and Franklin County development director, was indicted in Franklin County Court of
     Common Pleas, Columbus, OH, for allegedly committing theft and identity theft, engaging in a pattern of
     corrupt activity, and receiving stolen property. From February 2009 to December 2010, Nichter allegedly
     conducted and submitted 14 appraisals for FHA-insured mortgage loan approvals that contained false
     information and inflated property values. HUD losses have not yet been determined.

                                                                nnn

         Frederick Noland was charged in U.S. District Court, St. Louis, MO, with allegedly making false
     statements to HUD. In November 2008, Noland allegedly provided false documents used by an unqualified
     borrower who obtained and later defaulted on an FHA-insured mortgage. HUD losses have not yet been
     determined.

                                                                nnn




18                                                                                Chapter 1 - Single-Family Housing Programs
                                                                                   Elena Ramirez and Pablito Diaz-
                                                                              Quinon were collectively sentenced
                                                                              in Tillamook County Circuit Court,
                                                                              Ti l l a m o o k , O R , to 6 months
                                                                              incarceration and 108 months
                                                                              supervised probation for their earlier
                                                                              guilty pleas to committing forgery,
                                                                              aggravated or identity thefts, or a
                                                                              conspiracy to commit aggravated and
                                                                              identity thefts. Ramirez, Diaz-Quinon,
                                                                              and other individuals conspired and
Copyright 2010. The Daily Astorian, Astoria, OR. Reprinted with permission.   provided a false SSN used by Ramirez to
                                                                              obtain an FHA-insured mortgage. HUD
                                                                              losses have not yet been determined.

                                                            nnn

   Patricia Chmura, a former mortgage processor for Aurora Financial Group, pled guilty in U.S. District
Court, Scranton, PA, to committing a fraudulent FHA transaction. In November 2007, Chmura forged a
document that was used to fraudulently originate an FHA-insured mortgage. HUD losses have not yet
been determined.

                                                            nnn

    Curtis Poore, Fermin Bergouingnan, and William Alonso, loan officers for Great Country Mortgage
Bankers, were collectively sentenced in U.S. District Court, Miami, FL, to 90 months incarceration and 36
months supervised release for their earlier guilty pleas to committing a conspiracy to commit wire fraud.
In addition, Jose Cazas, a developer for Cedar Pointe Condominiums who was previously sentenced
for his earlier guilty plea to committing a conspiracy to commit wire fraud, was ordered to pay Bank of
America and Citibank more than $1.8 million in restitution. From April 2007 to January 2008, the above
defendants and other individuals conspired and submitted false information and fraudulent documents
used by unqualified borrowers who obtained more than $2.5 million in FHA-insured mortgages at Cedars
Pointe condominiums. Since the City of Miami condemned the buildings and the units cannot convey,
HUD paid no claims and realized no losses.

                                                            nnn

    Charles Schmalzried, a builder and partial owner of the Hull Prairie Development Company, was charged
in Wood County Court of Common Pleas, Perrysburg, OH, with allegedly committing theft and complicity
in defrauding creditors and securing writings by deception. Schmalzried allegedly concealed secondary
loans he made with FHA-insured borrowers and caused erroneous HUD-1 settlement statements.

                                                            nnn

    Former Rhode Island State Senator Christopher Maselli was sentenced in U.S. District Court, Providence,
RI, to 27 months incarceration and 3 years supervised release for his earlier guilty plea to committing
bank fraud. From December 2007 to March 2009, Maselli provided false information and documents and
fraudulently obtained four FHA-insured mortgages and other consumer loans.




Chapter 1 - Single-Family Housing Programs                                                                              19
     Home Equity Conversion Mortgage Program Fraud

         Mhilton Rimolo was sentenced in Kings County Criminal Court, Brooklyn, NY, to 1 to 3 years incarceration
     for his earlier guilty plea to making a false statement; offering a false instrument for filing; falsifying business
     records; and committing a conspiracy, grand larceny, criminal possession of a forged instrument, forgery,
     and criminal impersonation. From January 2003 to June of 2009, Rimolo and other individuals conspired
     and created or provided fraudulent documents used to obtain a $300,000 HUD home equity conversion
     mortgage (HECM) in the name of a deceased individual and $44,579 in SSA benefits.

                                                           nnn

         Carmen Szumilas and Melody Zuniga were each arrested and charged in Kings County Criminal
     Court, Manhattan, NY, with allegedly committing residential mortgage fraud and grand larceny, criminal
     possession of a forged instrument, and falsifying business records. In August 2010, Szumilas and Zuniga
     allegedly created, provided, and used a fraudulent document to obtain $369,670 in HUD HECM funds
     without authorization from the homeowner.

                                                           nnn

         Benjamin Okeke, a former loan officer for Beli Commercial Mortgage, entered into a pretrial diversion
     filed in Davidson County General Sessions Court, Nashville, TN, and agreed to perform an undetermined
     amount of community service and pay a victim $3,493 in restitution. In February 2010, an unnamed HUD
     HECM program applicant provided Okeke with $3,494 to settle a credit card debt before his loan closing,
     but Okeke stole and personally used these funds.

     Civil and Administrative Actions

         Mitchell Cohen, president of Buy a Home, LLC, and Buy a Home, LLC, were each named in a civil
     complaint filed in U.S. District Court, Manhattan, NY, and issued a preliminary injunction that prohibits
     them from originating FHA-insured loans. From 2007 to January 2011, Cohen, Buy a Home, LLC, and other
     individuals allegedly conspired and provided closing funds or fraudulent documents used by unqualified
     borrowers to obtain FHA-insured mortgages on properties with inflated values. HUD losses have not yet
     been determined.

                                                           nnn

         The Phoenix Housing Group (Phoenix Housing) entered into a consent judgment filed in Wake County
     Superior Court, Raleigh, NC, and agreed to the removal of Phoenix Housing officers, the appointment
     of a receiver to liquidate Phoenix Housing assets, the forfeiture of any proceeds, and the payment of
     $50,000 in restitution to a number of victims. From 2007 to 2008, Phoenix Housing employees or agents
     allegedly engaged in unfair and deceptive practices involving the sale and financing of manufactured and
     modular homes and provided false information used by unqualified borrowers to obtain FHA-insured,
     U.S. Department of Agriculture-guaranteed, or conventional mortgages. HUD losses have not yet been
     determined.

                                                           nnn

        Antonio Vitale, also known as Tony Vitale, a former Sterling Capital Mortgage Company loan officer
     who was previously convicted in Adams County District Court, Brighton, CO, of attempting to influence
     a public servant and offering a false instrument for recording, and Louis Luevano, also known as Ray



20                                                                          Chapter 1 - Single-Family Housing Programs
Luevano, a former Harvest Realty real estate agent who was previously convicted of offering a false
instrument for recording and committing theft, forgery, a conspiracy, and other crimes, were each debarred
from procurement and nonprocurement transactions with HUD and throughout the Executive Branch of
the Federal Government for 3 years. Between July 2003 and September 2005, Vitale, Luevano, and other
individuals provided false SSNs and fraudulent documents used by unqualified borrowers to obtain FHA-
insured mortgages. HUD realized losses of $378,045 after five mortgages defaulted.

                                                   nnn

    Julie Weaver, a former Alliance Guaranty Mortgage Corporation loan officer who previously pled guilty
in Denver County District Court, Denver, CO, to committing theft; Xochilt Alamillo, also known as Xochilt
Campos, a former Frontier GMAC Real Estate Company real estate agent who previously pled guilty to
offering a false instrument for recording; and Macarena Javalera, also known as Macarena Villalobos, a
former Prestige Capital Funding loan officer who previously pled guilty to committing forgery, were each
debarred from procurement and nonprocurement transactions with HUD and throughout the Executive
Branch of the Federal Government for 3 years. In addition, former Alliance Mortgage Capital loan officer
Kenya Hedges, also known as Kenya Ramos, who previously pled guilty to committing compounding, was
debarred for 2 years. In March 2006, Weaver fraudulently signed closing documents for a straw buyer and
stole $24,310 in FHA-insured mortgage loan proceeds, and between October 2000 and December 2004,
the remaining defendants and other individuals assisted undocumented immigrants who used fraudulent
SSNs or other documents to obtain FHA-insured mortgages. HUD realized losses of $372,195 after three
mortgages defaulted.

                                                   nnn

    Kenneth Lagonie, the president of Quality Homes Are Us, doing business as Quality Homes R Us and
Quality Land Development Corporation, and closing attorney Anthony Natale, both previously sentenced
in U.S. District Court, Newark, NJ, for their earlier guilty pleas to committing a conspiracy to commit wire
fraud, were each debarred from procurement and nonprocurement transactions with HUD and throughout
the Executive Branch of the Federal Government for an indefinite period. From August 2003 to September
2005, Lagonie, Natale, and other individuals provided false information to lure investors or submitted
fraudulent appraisals and other documents used by unqualified borrowers to obtain FHA-insured and
conventional mortgages. HUD realized losses of $327,839 after three mortgages defaulted.

                                                   nnn

    Scott Hinkley, a former ABK Mortgage Company loan officer who previously pled guilty in Adams
County District Court, Aurora, CO, to committing forgery and violating the Colorado Organized Crime
Control Act, was debarred from procurement and nonprocurement transactions with HUD and throughout
the Executive Branch of the Federal Government for an indefinite period. In addition, Idara Ekiko, who
previously pled guilty to committing computer crimes, was debarred for 3 years. Between April 2004 and
January 2007, Hinkley, Ekiko, and other individuals provided false information or fraudulent documents
used by themselves or other unqualified borrowers to obtain FHA-insured and conventional mortgages.
HUD realized losses of $153,814 after three mortgages defaulted.

                                                   nnn

    John Morrison, a loan officer and previously approved FHA appraiser who pled guilty in U.S. District
Court, Baltimore, MD, to committing mail fraud, was suspended from procurement and nonprocurement
transactions with HUD and throughout the Executive Branch of the Federal Government pending the
outcome of criminal proceedings or any related debarment action. Between 2005 and June 2006, Morrison



Chapter 1 - Single-Family Housing Programs                                                                     21
     sold property to an elderly home buyer at an inflated value and submitted a fraudulent appraisal for
     mortgage loan approval.

     Other Single-Family Fraud
         Ray Bowman, Sean Ragland, and Desiree Brown, a former executive, accounting supervisor, and
     treasurer for Taylor, Bean & Whitaker Mortgage Corporation (Taylor, Bean & Whitaker), a former FHA-
     approved direct endorsement lender and Government National Mortgage Association (Ginnie Mae) issuer,
     and former Colonial Bank employees Catherine Kissick and Teresa Kelly each pled guilty in U.S. District
     Court, Alexandria, VA, to committing a conspiracy to commit bank, wire, and securities fraud or making
     false statements to Federal agents. Between 2002 and August 2009, Kissick and Kelly conspired with
     other individuals and provided funding to Taylor, Bean & Whitaker for phony or previously pledged loans,
     and Bowman, Ragland, Brown, and other individuals conspired and sold phony and previously pledged
     loans to investors in the secondary mortgage market and caused Taylor, Bean & Whitaker to submit false
     statements to HUD, Ginnie Mae, and other financial entities. HUD, Ginnie Mae, and other financial entities
     realized losses in excess of $1.9 billion.




                Copyright 2011. St. Petersburg Times, St. Petersburg, FL. Reprinted with permission.


                                                               nnn

         Stanley Miller, a registered agent for Canyon View Escrow, was sentenced in U.S. District Court, Salt Lake
     City, UT, to 30 months incarceration and 36 months supervised release and ordered to pay HUD $321,000
     in restitution for his earlier guilty plea to committing wire fraud. From July 2002 to December 2004, Miller
     and other individuals identified distressed properties in a number of States, posed as bankruptcy court or
     financial institution representatives and secured quit claim deeds from the property owners, rented about
     300 properties and collected rents but failed to remit mortgage loan payments, and used the rents collected
     for personal expenditures. HUD realized losses of about $1.6 million after 45 mortgages defaulted.

                                                               nnn

         Kenneth Perkins, a realtor for Virtual Realty Funding Company, pled guilty in U.S. District Court, Phoenix,
     AZ, to committing a misprision of a felony. From June 2003 to September 2004, Perkins failed to report that




22                                                                                Chapter 1 - Single-Family Housing Programs
an unnamed investor acted as a straw borrower and fraudulently obtained and resold HUD real estate-
owned properties. HUD realized losses of $440,000 after 20 mortgages defaulted.

                                                   nnn

    Paul Hariston, doing business as Pro-Fund Property Management, Ltd., Pro-Team Property Management,
or Platinum Lending, was sentenced in Franklin County Court of Common Pleas, Columbus, OH, to 48
months incarceration and 3 years supervised release for his earlier guilty plea to committing theft, securing
writings by deception, and engaging in a pattern of corrupt activity. From March 2002 to January 2004,
Hariston obtained the deeds to six distressed FHA-insured properties and collected the mortgage payments
from the homeowners but failed to pay the mortgages as promised and filed fraudulent bankruptcies in
the names of the homeowners to delay foreclosure proceedings. HUD realized losses of about $127,000
after six mortgages defaulted.

                                                   nnn

    Kenyuano Jones, a HUD Good Neighbor Next Door program participant and assistant principal for
the Detroit Public School System, was charged in Wayne County Circuit Court, Detroit, MI, with allegedly
committing larceny by false pretenses and filing false State income tax returns. In March 2005, Jones
obtained a HUD-owned property and received a $22,500 discount, but Jones allegedly failed to reside in
the property or report his nonresidency on HUD certifications. In addition, Jones allegedly filed false State
income tax returns.

                                                   nnn

    John Murphy, the former President of Alliance Mortgage Banking Corporation (Alliance Mortgage), a
HUD-approved direct endorsement lender, was sentenced in U.S. District Court, Central Islip, NY, to 20
months incarceration and 5 years probation and ordered to pay the Federal Deposit Insurance Corporation
more than $3.3 million in restitution for his earlier guilty plea to committing bank fraud. From January
to August 2007, Murphy fraudulently used Alliance Mortgage warehouse line-of-credit funds for Alliance
Mortgage operations. HUD losses have not yet been determined.

                                                   nnn

   John Westbrook and Cynthia Thornsberry, former real estate agents for New Century Real Estate
Group and Ultima Realty Service; William Dunham, a former real estate agent for Hilton Properties, LTD;
and Clayton Aynesworth each pled guilty in U.S. District Court, Austin, TX, to making false statements to
HUD or committing a conspiracy to commit wire fraud. Between 2004 and 2009, the above defendants
provided false occupancy statements or conspired with other individuals and fraudulently obtained about
26 HUD real estate-owned properties. HUD losses have not yet been determined.

                                                   nnn

    Quincy Harrington, the owner of Lunar Mortgage Services; Julila Allen, the owner of Allen Home
Construction; Edward Rogers; Willis McMurran; and Sharetha Jackson were each indicted in U.S. District
Court, Plano, TX, for allegedly making false statements or committing fee splitting or a conspiracy to
commit money laundering. In addition, Rogers was arrested after his indictment. Between February 2006
and May 2007, the above individuals and others allegedly conspired and assisted with property sales at
inflated values to straw borrowers, obtained kickbacks without lender knowledge, caused the falsification
of HUD-1 settlement statements, violated the Real Estate Settlement Procedures Act of 1974, or lied to
Federal agents when questioned. HUD losses have not yet been determined.

                                                   nnn

Chapter 1 - Single-Family Housing Programs                                                                      23
         William Huston, Jr., a former owner of All-Star Mortgage, was charged in Madison County Superior
     Court, Anderson, IN, with allegedly committing theft, felony fraud on a financial institution, and conversion
     or misappropriation of money received or held in a title insurance escrow account. In July 2008, Huston
     originated a $217,700 FHA-insured refinance loan on behalf of a borrower but allegedly failed to pay off
     the first mortgage and diverted $217,700 into his personal accounts.

                                                        nnn

         Lawrence Luckett, the chief executive officer of Home Mortgage, Inc., a HUD-approved lender, was
     sentenced in U.S. District Court, Chicago, IL, to 24 months incarceration and 5 years probation and ordered
     to pay GMAC Bank $15 million in restitution for his earlier guilty plea to committing bank fraud. From
     August 2007 to March 2008, Luckett obtained fictitious mortgages on properties with outstanding mortgage
     loans, including properties with FHA-insured mortgages.

                                                        nnn

         Jennifer Wise, a former closing processor for an unnamed title company, was sentenced in U.S. District
     Court, Nashville, TN, to 8 months home detention and 3 years probation and ordered to pay a number of
     victims $64,019 in restitution for her earlier guilty plea to committing wire fraud. From August 2006 to May
     2009, Wise prepared and provided fraudulent HUD-1 settlement statements relating to 78 FHA-insured and
     conventional mortgage loans and embezzled more than $64,000 in inflated closing fees.

                                                        nnn

         John Hemphill, doing business as United States Mortgage Release Corporation (Mortgage Release),
     was sentenced in U.S. District Court, Chicago, IL, to 90 months incarceration and 3 years probation and
     ordered to pay a number of victims $166,910 in restitution for his earlier conviction of committing mail
     fraud and impersonating an officer, agent, or employee acting under the authority of the United States.
     From May to October 2009, Hemphill filed fictitious deeds and transferred the ownership of properties
     belonging to other individuals, including a HUD real estate-owned property, and posed as a Federal receiver
     to prospective buyers.

                                                        nnn

        Orlando Watson, the president of Woodstock Enterprises, was sentenced in U.S. District Court, Memphis,
     TN, to 51 months incarceration and 3 years probation for his earlier guilty plea to committing wire and
     mail fraud. From July 2004 to November 2006, Watson fraudulently obtained HUD real estate-owned
     properties, flipped the properties to straw buyers at inflated values, and provided or submitted fraudulent
     loan documents used by unqualified borrowers to obtain conventional mortgages.

                                                        nnn

         Attorney John Farano was charged in a superseding indictment filed in U.S. District Court, Chicago, IL,
     with allegedly committing mail and wire fraud. From 2002 to 2004, Farano and other individuals allegedly
     purchased 19 HUD real estate-owned properties and fraudulently resold the HUD properties at inflated
     values to investors.

                                                        nnn

        Kiya McNeal, a title agent for Lloyds and Handson Abstracts of Philadelphia (Lloyds and Handson),
     was sentenced in U.S. District Court, Philadelphia, PA, to 2 years incarceration and 3 years supervised




24                                                                      Chapter 1 - Single-Family Housing Programs
release and ordered to pay New Jersey Title Insurance Company $159,397 in restitution for her earlier guilty
plea to committing wire fraud. From May 2008 to January 2009, McNeal prepared false HUD-1 settlement
statements and electronically diverted and personally use more than $225,000 in Lloyds and Handson
settlement funds, including settlement funds associated with an FHA-insured mortgage.

                                                   nnn




Chapter 1 - Single-Family Housing Programs                                                                     25
Chapter 2 - Public and Indian
Housing Programs
         The U.S. Department of Housing and Urban Development (HUD) provides grants and subsidies to 4,100
     public housing agencies (PHA) nationwide. Many PHAs administer both public housing and Section 8
     programs. HUD also provides assistance directly to PHAs’ resident organizations to encourage increased
     resident management entities and resident skills programs. Programs administered by PHAs are designed
     to enable low-income families, the elderly, and persons with disabilities to obtain and reside in housing
     that is safe, decent, sanitary, and in good repair. In addition to the audits and investigations described in
     this chapter, HUD’s Office of Inspector General (OIG), has conducted a number of outreach efforts (see
     chapter 8, page 116).


     Audit
                     Strategic Initiative 2: Contribute to the reduction of erroneous
                                       payments in rental assistance
      Key program results                               Questioned costs               Funds put to better use
            Audit               22 audits*                 $28.2 million                       $2 million
             Our                  Page 29          •	 Section 8 Housing Choice Voucher
            focus                 Page 31          •	 HUD’s oversight of public housing agencies’ Section 8
                          			                         Project-Based Voucher programs
                           Page 32                 •	 Review of Philadelphia housing authority’s legal services
                                  Page 33          •	 Public Housing Capital Fund programs
                                  Page 34          •	 Public housing program activities
     * The total public and Indian housing audits, questioned costs, and funds put to better use amounts include any
     American Recovery and Reinvestment Act of 2009 (nine audits) type audits conducted in the public and Indian
     housing area. The writeups for these audits are shown separately in chapter 5 of this semiannual report.



                 Chart 2.1: Percentage of OIG public and Indian housing audit reports
                                     during this reporting period



                                                                                           Region 1 - 18%
                                                                                           Region 2 - 23%
                                                                                           Region 3 - 4%
                                                                                           Region 4 - 9%
                                                                                           Region 5 - 14%
                                                                                           Region 6 - 14%
                                                                                           Regions 7/8/10 - 4%
                                                                                           Region 9 - 9%
                                                                                           Region 11 - 5%




28                                                                     Chapter 2 - Public and Indian Housing Programs
    During this reporting period, the Office of Inspector General (OIG) reviewed HUD’s controls over
the Section 8 Housing Choice Voucher and Project-Based Voucher programs, the Philadelphia Housing
Authority’s Legal Services, Public Housing Capital Fund (Capital Fund) programs, and public housing
activities.

Section 8 Housing Choice Voucher
    Audits of the Section 8 Housing Choice Voucher program continued to be a priority during this
semiannual reporting period. PHAs were selected for audit based on risk analysis and/or hotline complaints.
While OIG’s objectives varied by auditee, the majority of reviews were to determine whether the units
met housing quality standards, the PHA managed the program according to HUD requirements, and the
eligibility of the tenants was correctly determined. The following section illustrates the audits conducted
in the Section 8 Housing Choice Voucher program area.

                                                    nnn

    HUD OIG audited the Section 8 Housing Choice Voucher program of the DuPage Housing Authority in
Wheaton, IL, and found that the Authority (1) did not maintain adequate documentation to support the
eligibility of its Section 8 Project-Based Voucher program projects, (2) executed housing assistance payments
contracts with inappropriate contract rents, (3) did not properly select Section 8 Project-Based Voucher
program households from waiting lists, (4) lacked controls over housing assistance and utility allowance
payments, (5) did not appropriately manage its program funds, and (6) did not properly select Section 8
Housing Choice Voucher program households from its waiting list. As a result, HUD had no assurance that
the Authority’s resources were used to benefit low- and moderate-income individuals.

    The Authority did not manage its program funds in accordance with HUD’s requirements and its policies.
It had unallowable and questionable transactions, did not correctly report its financial standing to HUD,
did not maintain complete and accurate records, and miscalculated its net restricted assets. As a result,
the Authority used more than $2.3 million in program funds for transactions not related to its program and
was unable to support the use of more than $330,000 in program funds.

    The Authority did not follow HUD’s requirements and directives and its program administrative plan
regarding the selection of program households. It did not properly select all program households from its
waiting list. Instead, it admitted 146 households based on referrals. As a result, it inappropriately paid more
than $2.6 million in housing assistance to households that were inappropriately admitted to its program.
In addition, it was unable to support that nearly $70,000 in funds received from the City of Chicago was
used toward housing assistance payments.

     OIG recommended that HUD require the Authority to (1) reimburse its program from non-Federal funds
for the improper use of nearly $5.1 million in program funds, (2) provide documentation or reimburse its
program from non-Federal funds for the unsupported use of more than $400,000 in program funds, and
(3) implement a detailed comprehensive plan to improve its programs.

   OIG also recommended that HUD (1) take administrative action against the executive director and
board of commissioners for failing to administer the Authority effectively and in accordance with HUD’s
and its own requirements and (2) review the Authority’s household selections to ensure that they comply
with HUD’s requirements. If the Authority fails to comply with HUD’s requirements, HUD should take
appropriate action against the Authority and/or its applicable employee(s). (Audit Report: 2011-CH-1006)

                                                    nnn




Chapter 2 - Public and Indian Housing Programs                                                                    29
         HUD OIG audited the Hawthorne, CA, Housing Authority’s Section 8 program and found that the
     Authority and the City of Hawthorne failed to maintain an adequate financial management system to properly
     administer their Section 8 Housing Choice Voucher program according to HUD rules and regulations.
     Specifically, the Authority and City (1) did not properly document more than $1.4 million in Section 8
     investment and interfund activity, making the expended funds ineligible; (2) accumulated Section 8 deficits
     due partly to the City’s failure to record portability receivables in its accounting system; and (3) failed to
     implement adequate internal controls to safeguard and minimize the risk of operating a Section 8 program.

          OIG recommended that HUD require the City to repay the ineligible expenditures of Section 8 funds
     and implement adequate policies and procedures regarding its accounting for interfund activities and
     portability receivables. In addition, HUD should consider sanctions against the City for not complying with
     its annual contributions contract. (Audit Report: 2011-LA-1008)

                                                         nnn

         HUD OIG audited the Housing Choice Voucher program at the Brockton, MA, Housing Authority and
     found that the Authority generally administered the program efficiently and effectively and in compliance
     with its annual contributions contract and HUD regulations. However, it did not properly account for and
     report interprogram fund transactions between its Federal and State programs during fiscal years (FY) 2008
     and 2009. During the audit, the Authority was able to reconcile its FY 2008 audited financial statement
     interprogram accounts of $3.8 million between State and Federal programs. However, it did not properly
     account for and report the remaining FY 2009 interprogram fund transactions, resulting in unsupported
     transactions being recorded in its program accounts. In addition, the Authority could not provide support
     and justification for program contracts to show that the contracts were properly awarded/documented.

          OIG recommended that HUD require the Authority to (1) provide support for more than $885,000
     in interprogram fund transactions between Federal and State programs and (2) provide support and
     justification for more than $260,000 paid for contracts for inspection services and legal services or reimburse
     its operating funds from non-Federal funds for the applicable amounts. (Audit Report: 2011-BO-1002)

                                                         nnn

          HUD OIG audited the Housing Authority of the City of Wilson, NC’s Section 8 Housing Choice Voucher
     program and found that the Authority failed to comply with many of HUD’s Section 8 program requirements.
     It mismanaged its program funds, improperly selected tenants for assistance, improperly terminated tenants,
     made improper housing assistance payments, and had other areas of noncompliance. Inspection of 23
     units showed that none met minimum housing quality standards and 6 were in material noncompliance.
     The Authority also failed to ensure that quality control inspections were performed in accordance with
     HUD requirements. In addition, it mismanaged its Family Self-Sufficiency and home-ownership programs.
     It did not fully comply with HUD’s administrative requirements for either program and did not maintain
     accurate accountability of participant funds for its Family Self-Sufficiency program.

        OIG recommended that HUD require the Authority to follow its existing controls and develop and
     implement additional controls as needed to ensure that it complies with all Section 8 program requirements.
     The Authority must repay nearly $110,000 in ineligible expenses from non-Federal funds and provide
     documentation showing that nearly $15,000 in unsupported expenses was eligible or repay that amount
     from non-Federal funds. (Audit Report: 2011-AT-1003)

                                                         nnn




30                                                                   Chapter 2 - Public and Indian Housing Programs
     HUD OIG audited the nonprofit development activities of the Housing Authority of the County of Cook
in Chicago, IL, and found that the Authority’s administration of its Section 8 Housing Choice Voucher
program housing assistance payments to its nonprofit instrumentality, Turnstone Development’s units was
inadequate. The Authority failed to collect more than $30,000 in housing assistance payments made to
an incorrect program landlord. The Authority also miscalculated program housing assistance payments
for its project-based vouchers allocated to 21 Turnstone units, resulting in the underpayment of more than
$10,000 in housing assistance to 21 households. Further, the Authority failed to recover housing assistance
payments made for four program households after they were deceased, resulting in more than $4,000 in
overpayments to Turnstone units.

    OIG recommended that HUD require the Authority to (1) reimburse its program more than $30,000
from non-Federal funds for the housing assistance payments owed by an incorrect program landlord, (2)
reimburse the 21 program households more than $10,000 from program funds for the underpayment of
housing assistance, and (3) reimburse its program more than $4,000 from non-Federal funds for the housing
assistance payments made for deceased households. (Audit Report: 2011-CH-1005)

                                                  nnn

    HUD OIG audited the East Point, GA, Housing Authority’s Housing Choice Voucher program and found
that the Authority generally computed accurate housing assistance payments. However, it made excessive
payments of more than $38,000 on behalf of a zero-income tenant who underreported her income and
did not provide proof of financial assistance. Also, the Authority’s physical inspection process did not
accurately identify the deficiencies, its quality control inspections were not performed on a timely basis,
and the results were not communicated to the inspector.

    OIG recommended that HUD require the Authority to (1) reimburse the Housing Choice Voucher
program for the ineligible housing assistance, (2) implement its policies and procedures to ensure that
its program operates in compliance with HUD’s requirements, (3) reinspect the units and ensure that
all deficiencies identified have been corrected, (4) evaluate the inspector’s workload and make the
necessary adjustments to ensure that housing quality standards deficiencies are properly identified and
corrected, (5) implement its policy and ensure that all quality control reviews are performed within the
3-month timeframe, and (6) establish and implement procedures to ensure that its quality control review
deficiencies are communicated to the inspector. (Audit Report: 2011-AT-1002)

HUD’s Oversight of Public Housing Agencies’ Section 8 Project-Based
Voucher Programs
   HUD OIG audited HUD’s oversight of PHAs’ Section 8 Project-Based Voucher programs to determine
whether HUD had adequate oversight of PHAs’ programs to ensure that program funds were used in
accordance with HUD’s requirements.

    HUD lacked complete and accurate information with which to adequately monitor its program. It also
did not adequately monitor the addition of new projects to its program or implement adequate procedures
and controls to ensure that its program was operated according to its and the PHAs’ requirements.

   OIG recommended that HUD provide additional guidance to PHAs to ensure accurate reporting
by agencies of their information in HUD’s Public and Indian Housing Information Center, the Voucher
Management System, and the agencies’ plans. The reporting requirements should include requiring
agencies to certify to the accuracy of their information reported to HUD. In addition, HUD should (1) issue
specific guidance to its field offices so they can ensure that the program’s reporting requirements are




Chapter 2 - Public and Indian Housing Programs                                                                31
     adequately monitored and (2) implement adequate monitoring procedures and controls for the oversight
     of its program to ensure that PHAs select and adequately document only eligible projects and use program
     funds in accordance with program requirements. (Audit Report: 2011-CH-0001)

     Review of Philadelphia Housing Authority’s Legal Services




      Copyright 2011. The Philadelphia Inquirer, Philadelphia, PA. Reprinted with permission.


        HUD OIG audited the Philadelphia, PA, Housing Authority to determine whether the Authority’s
     payments to outside legal firms could be supported and complied with HUD regulations and other applicable
     requirements.

         The Authority’s payments to outside attorneys did not comply with HUD regulations and other
     applicable requirements. Specifically, the Authority did not adequately support $4.5 million that it paid to
     outside attorneys during the period April 2007 to August 2010, nearly the entire amount reviewed. It made
     unreasonable and unnecessary payments of $1.1 million to outside attorneys to obstruct the progress of HUD
     OIG audits. It also did not obtain required HUD written concurrence before accepting all settlement offers
     arising from its litigations and allowed an apparent conflict-of-interest situation to exist. Further, although
     a previous HUD OIG audit found similar problems with the Authority’s payments to outside attorneys, the
     Authority failed to implement the recommendations made in the previous audit.

         OIG recommended that HUD require the Authority to (1) provide adequate documentation to support
     $4.5 million in unsupported costs or reimburse the applicable programs from non-Federal funds for any costs
     that it cannot support, (2) provide documentation to support the remaining $26 million in payments to law
     firms not reviewed if the Authority cannot support the $4.5 million or reimburse the applicable programs
     from non-Federal funds for any costs that it cannot support, (3) implement adequate procedures and
     controls to ensure that its payments for outside legal services comply with relevant laws and regulations,
     (4) develop and implement controls to ensure that invoices for legal services are adequately verified and
     payments are made in accordance with the terms of the related contracts, and (5) implement appropriate
     measures to prevent and resolve conflict-of-interest situations.

          OIG recommended that the Authority (1) implement controls to ensure that HUD is notified of pending
     litigation and that HUD’s written concurrence is obtained before accepting a settlement offer arising from
     litigation and that it implement controls to ensure that the use of attorneys is restricted on HUD OIG audits
     and other HUD oversight activities; (2) revise its contract provisions for future legal service contracts to
     reinstate sections that it removed, which required prior authorization for specific legal services, specifying
     work functions of various legal staff, and identifying activity descriptors needing additional explanation to
     be acceptable for payment; and (3) develop and implement a written policy and controls to ensure that
     contract requirements in its legal services contracts are enforced and have its OIG periodically audit a


32                                                                            Chapter 2 - Public and Indian Housing Programs
sample of current and future legal contracts and payments to ensure that the responsible personnel enforce
the requirements and only reimburse law firms for allowable expenses. (Audit Report: 2011-PH-1007)

Public Housing Capital Fund Programs
     HUD OIG audited the Jersey City Housing Authority in Jersey City, NJ, regarding the administration of
its Capital Fund programs to determine whether the Authority (1) obligated and expended funds under the
Capital Fund program and Capital Fund Financing Program (CFFP) in accordance with HUD regulations
and (2) had a financial management system in place that complied with program requirements.

    The Authority did not always comply with HUD regulations while obligating and expending capital funds,
and its financial management system did not always comply with program requirements. Specifically,
the Authority (1) inadequately used capital funds for a development that was subject to be converted
to tenant-based assistance, (2) drew down capital funds without proper supporting documentation,
(3) inappropriately obligated bond proceeds under the CFFP, (4) inadequately disbursed CFFP bond
proceeds for preaward costs, and (5) lacked a plan for using force account labor. Further, there were
control weaknesses in the Authority’s financial management system. Specifically, accounting records
and financial reports were not complete, accurate, and current, and the obligation of funds could not be
effectively tracked and monitored.

     OIG recommended that HUD instruct the Authority to (1) provide supporting documents for the more
than $3.3 million in capital funds spent on the Montgomery Gardens Development and for unsupported
drawdowns and reimburse any costs determined to be ineligible; (2) conduct the required annual reviews
to identify developments that should be converted to the tenant-based program; (3) deobligate more than
$338,000 obligated for contingencies under the CFFP; (4) reimburse more than $53,000 in ineligible preaward
costs to the CFFP bond proceeds from annual capital funds; (5) establish an adequate force account labor
plan; and (6) develop procedures that will improve the accounting system and internal controls to ensure
that accounting records and financial reports are accurate, current, complete, and adequately supported
with source documents. OIG also recommended that HUD determine whether further administrative
actions should be pursued regarding the Authority’s failure to carry out the actions certified to in its 5-year
plans in relation to the conversion of Montgomery Gardens. (Audit Report: 2011-NY-1001)

                                                    nnn

   HUD OIG audited the Jersey City, NJ, Housing Authority’s administration of its Replacement Housing
Factor (RHF) grants received under the Capital Fund program to determine whether the Authority obligated
and expended its RHF grants in accordance with HUD regulations.

     Authority officials did not always obligate or expend RHF funds in a timely manner. They failed to
obligate at least 90 percent of the Authority’s 2007 RHF grants within 24 months and disburse 100 percent of
its 2004 RHF grants within 48 months of the date of availability of the funds. Consequently, nearly $878,000
of the Authority’s 2007 RHF funds was not obligated, and more than $2.2 million of its 2004 RHF funds was
not expended within the specified period according to HUD regulations. Therefore, not all needed capital
improvements were accomplished within program time limits.

    OIG recommended that HUD (1) recapture more than $3.1 million in RHF capital funds or reduce future
capital funds by this amount because of the delayed obligation and expenditure of these funds and (2)
direct Authority officials to establish and implement procedures to ensure that the Authority obligates and
expends its capital fund grants within 24 and 48 months, respectively, from the date that funds become
available to the Authority. (Audit Report: 2011-NY-1008)

                                                    nnn


Chapter 2 - Public and Indian Housing Programs                                                                    33
         HUD OIG audited the Irvington, NJ, Housing Authority’s Capital Fund programs to determine whether
     Authority officials obligated and expended capital funds in accordance with HUD regulations and had
     a financial management system in place that complied with program requirements and whether the
     allegations in an anonymous complaint could be substantiated.

         Authority officials did not always administer the Capital Fund programs in accordance with HUD
     regulations. Specifically, (1) controls over procurements were not adequate, and (2) Capital Fund and CFFP
     funds were expended without adequate support and for ineligible items. As a result, goods and services
     were not obtained in the most economical or efficient manner, funds were not properly safeguarded as
     expenses were unsupported or ineligible, and funds disbursed were not properly recorded. Consequently,
     more than $2.4 million in expenses was unsupported, and more than $209,000 was ineligible. In addition,
     the Authority’s financial management system did not always comply with program regulations. As a result,
     the Authority did not adequately account for and safeguard program funds, and more than $132,000 was
     inappropriately charged to the Section 8 program. The allegations in the complaint regarding inadequate
     management controls appeared to be valid.

         OIG recommended that HUD require Authority officials to (1) provide supporting documentation so
     that HUD can determine the eligibility of the questioned costs, (2) repay the ineligible disbursements along
     with any additional amounts determined to be ineligible, and (3) establish adequate controls to ensure
     compliance with program requirements. (Audit Report: 2011-NY-1003)

                                                         nnn

         HUD OIG audited the East St. Louis, IL, Housing Authority’s Capital Fund program to determine whether
     the Authority had proper support for its capital fund draws.

         The Authority drew down grant funds for ineligible items and without adequate support. Specifically,
     it made unsupported draws, excessive administration draws, draws for force account labor without prior
     approval, draws above the invoiced amount, and duplicate draws. As a result, HUD had no assurance that
     nearly $172,000 in capital funds was properly spent.

         OIG recommended that HUD require the Authority to (1) provide adequate support for the nearly $91,000
     drawn for unsupported costs or repay the funds, (2) repay the more than $81,000 in ineligible draws and
     calculate and repay additional ineligible draws outside the audit period, and (3) develop and implement
     procedures for assembling and maintaining adequate documentation before submitting vouchers. (Audit
     Report: 2011-KC-1002)

     Public Housing Program Activities
        HUD OIG audited HUD’s oversight of PHAs’ energy conservation procedures through energy performance
     contracting (EPC) in the States of New York and New Jersey to determine whether HUD had adequate
     controls to ensure that (1) the costs of EPC had been properly repaid from the savings from energy
     conservation and/or add-on subsidy incentives, (2) utility cost savings on measurement and verification
     (M&V) reports had been reported in a timely manner, (3) utility cost savings were accurately calculated
     and energy service companies guaranteed that utility cost savings were achieved, and (4) its EPC inventory
     data were accurate and complete.

         HUD did not always adequately monitor the PHAs with EPC or verify reported information regarding
     energy cost savings. Specifically, HUD did not have adequate controls in place to ensure that (1) the costs of
     EPC had been properly repaid from the savings from energy conservation and/or add-on subsidy incentives,
     (2) utility cost savings had been reported on M&V reports in a timely manner, (3) utility savings had been



34                                                                   Chapter 2 - Public and Indian Housing Programs
accurately calculated and guaranteed utility cost savings were achieved, and (4) its EPC inventory data were
accurate and complete. Therefore, HUD may not have assurance that utility cost savings as guaranteed
by the energy service companies was achieved. HUD officials were aware of the control weaknesses and
had taken corrective actions including making organizational changes to provide additional training and
technical support to field office staff and participating PHAs.

    OIG recommended that HUD (1) establish and implement controls to ensure that the costs of EPC
have been properly repaid from the savings from energy conservation and/or add-on subsidy incentives,
(2) establish and implement controls to ensure that M&V reports are submitted in a timely manner and
that data are verified for accuracy, (3) establish and implement controls to verify that actual energy cost
savings achieved are equal to or greater than the energy service companies’ guaranteed energy savings and/
or the add-on subsidy incentive amount, (4) provide mandatory training to the appropriate headquarters
and field office staff and participating PHAs to ensure that they comply with the current and upcoming
regulations related to EPC, and (5) establish and implement necessary control procedures to ensure that
the EPC database is complete and accurate. (Audit Report: 2011-NY-0001)

                                                   nnn




Chapter 2 - Public and Indian Housing Programs                                                                 35
     Investigations
        Some investigations discussed in this report were generated from leads provided by HUD public
     and Indian housing program staff and conducted jointly with Federal, State, and local law enforcement
     agencies. The results of various significant investigations are described below.


                     Strategic Initiative 2: Contribute to the reduction of erroneous
                                       payments in rental assistance
         Key program             Cases                  $              Convictions/pleas/       Admin/civil
            results              closed             recovered              pretrials             actions

        Investigations             224              $13,496,929                 281                    272
              Our                Page 37        •	 Public housing agency theft/embezzlement
             focus               Page 39        •	 Rental assistance fraud
                                 Page 42        •	 FedRent Initiative
                                 Page 43        •	 Fugitive Felon Initiative
                                 Page 44        •	 Civil and administrative actions
                                 Page 45        •	 Other fraud/crimes




                     Chart 2.2: Percentage of OIG public and Indian housing closed
                            investigation cases during this reporting period


                                                                                      Region 1 - 5%
                                                                                      Region 2 - 5%
                                                                                      Region 3 - 6%
                                                                                      Region 13 - 15%
                                                                                      Region 4 - 8%
                                                                                      Region 14 - 3%
                                                                                      Region 5 - 13%
                                                                                      Region 15 - 11%
                                                                                      Region 6 - 6%
                                                                                      Regions 7/8 - 4%
                                                                                      Region 9 - 14%
                                                                                      Region 10 - 6%
                                                                                      Region 11 - 4%




36                                                                Chapter 2 - Public and Indian Housing Programs
Public Housing Agency Theft/Embezzlement
    Terri Lucero, the former assistant executive director of the Alamosa Housing Authority (Alamosa),
was sentenced in U.S. District Court, Denver, CO, to 1 year home confinement and 5 years probation and
ordered to pay the Internal Revenue Service (IRS) $45,279 in restitution for her earlier guilty plea to filing a
false Federal income tax return. In addition, former Alamosa executive director Patricia Martinez, who was
previously sentenced for her earlier guilty plea to committing theft of Federal program funds and money
laundering, was debarred from procurement and nonprocurement transactions with HUD and throughout
the Executive Branch of the Federal Government indefinitely. From April 1998 to October 2007, Lucero,
Martinez, and other individuals embezzled more than $1.3 million in Alamosa funds when they generated
or negotiated unauthorized housing authority checks.




Copyright 2010. The Pueblo Chieftain, Pueblo, CO. Reprinted with permission.


                                                          nnn




Chapter 2 - Public and Indian Housing Programs                                                                     37
         Elias Castellanos, a former contract chief financial officer for the Housing Authority of
     New Orleans (New Orleans), was sentenced in U.S. District Court, New Orleans, LA, to
     46 months incarceration and 36 months probation, ordered to pay New Orleans $225,889
     in restitution, and fined $75,000 for his earlier guilty plea to committing embezzlement.
     From September 2006 to June 2009, Castellanos submitted false billings for accounting
     services and fraudulently obtained $900,927 in New Orleans funds.

                                                nnn

         Joba Cotorreal and Damaris and Arielis Peralta, former New York City Housing
     Preservation and Development (Housing Preservation) employees, and five Housing
     Preservation housing recipients were collectively sentenced in Bronx Supreme Court,
     Bronx, NY, to 60 months incarceration and 194 months supervised release for their
     earlier guilty pleas to committing bribery or giving or receiving unlawful gratuities. From
     June 2003 to August 2006, Cotorreal, Damaris and Arielis Peralta, and other individuals
     fraudulently sold housing vouchers to unqualified housing applicants who obtained
     more than $635,185 in housing assistance they were not entitled to receive.

                                                nnn

         Anthony Bandoh, a former accountant for the Syracuse Housing Authority (Syracuse),
     was sentenced in Onondaga County Court, Syracuse, NY, to 5 years probation and
     ordered to pay Syracuse $176,000 in restitution for his earlier guilty plea to committing
     larceny. From 1986 to 2003, Bandoh stole about $176,000 in Syracuse funds.

                                                nnn
                                                                                                     Copyright 2010. The
         William Deatrick, the former director of facilities for the Brevard Family of Housing       Times-Picayune,
     (Brevard), was sentenced in U.S. District Court, Orlando, FL, to 60 months incarceration        New Orleans, LA.
                                                                                                     Reprinted with
     and 3 years supervised release and ordered to pay HUD $102,390 in restitution for his           permission.
     earlier guilty plea to committing a conspiracy to commit theft from a program receiving
     Federal funds. From August 2005 through October 2006, Deatrick solicited and accepted
     more than $100,000 in bribes from previously sentenced Brevard contractor Derrick
     O’Neal in exchange for Brevard contracts.

                                                          nnn

          Carlos Madrid, the former chairman of the board for the Bexar County Housing Authority (Bexar County),
     was sentenced in U.S. District Court, San Antonio, TX, to 18 months probation for his earlier guilty plea
     to committing mail fraud and deprivation of honest services. From July 2002 to September 2003, Madrid
     failed to disclose his involvement with or his receipt of more than $100,000 from Southwest Housing
     Development, a construction company under contract with Bexar County.

                                                          nnn

         Tonya Webber-Smith and Valerie Lewis, former Tallahassee Housing Authority employees, were each
     arrested and charged in the 11th Judicial Circuit Court, Tallahassee, FL, with allegedly committing grand
     theft, welfare management fraud, official misconduct, a scheme to defraud, or misuse of a public office.
     Between April 2008 to December 2009, Webber-Smith and Lewis allegedly provided housing vouchers
     to relatives and other unqualified housing applicants who obtained about $68,112 in housing assistance
     they were not entitled to receive.

                                                          nnn

38                                                                    Chapter 2 - Public and Indian Housing Programs
    Rosilyn Brown, the former executive director of the Narragansett Indian Wetuomuck Housing Authority
(Wetuomuck), was charged in U.S. District Court, Providence, RI, with allegedly committing theft from
a program receiving Federal funds. From October 2008 to June 2009, Brown allegedly embezzled more
than $100,000 in Wetuomuck funds for her personal use.




   Copyright 2011. The Providence Journal, Providence, RI. Reprinted with permission.


                                                           nnn

   LaToya Logan, a former DeKalb County Housing Authority (DeKalb) employee, was arrested and
charged in Rockdale County Court, Conyers, GA, with allegedly committing forgery. From April 2009 to
May 2010, Logan allegedly created and negotiated $60,161 in DeKalb checks without authorization.

                                        nnn

   Preston Carmon, a St. Bernard Parish Housing and Redevelopment
employee, and Gregory Kennedy, a Housing Authority of New Orleans
employee, were each charged in Louisiana State Court, St. Bernard, LA,
with allegedly committing theft. From January 2010 to February 2011,
Carmon and Kennedy allegedly created a fictitious landlord and tenants
and fraudulently obtained about $45,000 in housing assistance payments.

Rental Assistance Fraud
    Suzette Charles and Victorin Murat, Palm Beach County Housing
Authority (Palm Beach County) Section 8 landlords, each entered into
pretrial diversions filed in the 15th Judicial Circuit Court, West Palm
Beach, FL, and agreed to collectively perform 100 hours of community
service. In addition, 16 former Palm Beach County, West Palm Beach,
or Pahokee Housing Authority (Pahokee) housing recipients were
collectively sentenced to 396 days incarceration and 52 years supervised
release and ordered to pay Palm Beach County or Pahokee $669,206 and
other agencies $47,854 in restitution for their earlier convictions of or guilty
pleas to committing grand theft or public assistance fraud. Between 2007                Copyright 2011. The Times-Picayune,
                                                                                        New Orleans, LA . Reprinted with
                                                                                        permission.


Chapter 2 - Public and Indian Housing Programs                                                                                39
     and 2009, Charles and Murat admittedly provided false information and obtained reduced property tax rates
     on their subsidized properties, and between December 2002 and August 2010, the remaining defendants
     failed to report income, accurate household compositions, or their prior criminal histories and collectively
     obtained $669,206 in housing assistance they were not entitled to receive.

                                                        nnn

          Eleven New York City Housing Authority (New York City) housing recipients and an unauthorized tenant
     were each arrested and charged in U.S. District or Brooklyn Criminal Courts, Manhattan or Brooklyn, NY,
     with allegedly making false statements; committing theft of government funds, a conspiracy to commit theft
     of government funds, or grand and petit larceny; falsifying business records; or possession of marijuana.
     In addition, New York City housing recipients Lashanda Navarro, Chris Santos, and Reina Brown and
     Section 8 landlord Jerry Melendez were collectively sentenced to 6 months home detention and 216
     months supervised release and ordered to pay New York City $222,914 in restitution for their earlier guilty
     pleas to conducting false transactions with HUD or committing theft of government funds. Between 1999
     and February 2011, the above defendants allegedly and Navarro, Santos, Brown, and Melendez admittedly
     failed to report assets, income, unauthorized residents, familial relationships, dual housing subsidies, or
     their nonresidency in their subsidized units and collectively obtained about $606,849 in housing assistance
     they were not entitled to receive.

                                                        nnn

        Welthea Singleton, a former Metropolitan Boston Housing Partnership Section 8 tenant and landlord,
     was indicted in U.S. District Court, Boston, MA, for allegedly committing theft of public funds. From January
     2001 to September 2010, Singleton allegedly used the identity of another individual and fraudulently obtained
     more than $140,000 in housing assistance at the same time she claimed to be the Section 8 landlord.

                                                        nnn

         Pennie Puckett and Laurie Price, current or former Yamhill County Housing Authority (Yamhill) Section
     8 tenants, and home care providers Jessica Molash, Ellen Hanson, and Deanna Michael were each charged
     or indicted in U.S. District or Yamhill County Circuit Courts, Portland or McMinnville, OR, for allegedly
     making false statements or false claims for health care, committing theft, or unlawfully obtaining public
     assistance and food stamps. In addition, former Yamhill Section 8 tenants Crystal Lindsay and David Foster
     were collectively sentenced to 15 days incarceration and 5 years probation and ordered to pay Yamhill
     $50,651 and others $15,483 in restitution for their earlier guilty pleas to committing theft, attempting to
     fraudulently obtain other benefits, and aiding and abetting. Between February 2003 and February 2011,
     the above defendants allegedly and Lindsay and Foster admittedly failed to report income, assets, accurate
     household compositions, or their previous criminal histories or provided false medical information on
     housing and other certifications and collectively obtained about $135,651 in housing and $75,483 in other
     assistance they were not entitled to receive.

                                                        nnn

         Tina Orji, a former Chicago Housing Authority (Chicago) Section 8 tenant, was indicted in Cook County
     Circuit Court, Chicago, IL, for allegedly committing theft by deception and forgery. In addition, former
     Chicago Section 8 tenant Katherine Jefferson pled guilty to committing theft, and former Chicago Section 8
     tenants Calvin Early and Veronica Eason were collectively sentenced to 54 months probation and ordered
     to pay HUD $118,060 in restitution for their earlier guilty pleas to committing theft by deception. Between
     July 2002 and June 2009, Orji allegedly and the remaining defendants admittedly failed to report income,




40                                                                  Chapter 2 - Public and Indian Housing Programs
assets, or dual housing subsidies on housing and other certifications and collectively obtained $135,345 in
housing assistance and $13,500 in Social Security Administration benefits they were not entitled to receive.

                                                     nnn

    Lesandra Witherspoon, a former Michigan State Housing Development Authority (Michigan State)
Section 8 tenant, was charged in Kent County District Court, Grand Rapids, MI, with allegedly obtaining
housing assistance by false pretenses and committing welfare fraud. In addition, former Michigan State
Section 8 tenants Ebony Betts and Shakira Miles each pled guilty to committing welfare fraud or obtaining
housing assistance under false pretenses; former Michigan State housing recipients Rickelle Brown and
Aguel Gaines were collectively sentenced to 360 days incarceration and 10 years probation and ordered
to pay Michigan State $28,755 and others $19,382 in restitution for their earlier guilty pleas to committing
housing assistance and welfare fraud; and former Michigan State Section 8 landlord and tenant Ellis and
Donna Richardson each pled nolo contendere to committing false pretenses. Between 2004 and 2010,
Witherspoon and Ellis and Donna Richardson allegedly and the remaining defendants admittedly failed
to report income, assets, an accurate household composition or marital status, or their joint ownership
interest in and the subsequent sale of their subsidized housing unit on housing certifications. Collectively,
the above defendants obtained about $125,294 in housing and about $69,382 in other assistance they were
not entitled to receive.

                                                     nnn

    Jomarna Fuentes, a former Boston Housing Authority (Boston) Section 8 tenant, was charged in Boston
Municipal Court, Boston, MA, with allegedly committing larceny over $250 by a single scheme and making
a false claim to a government agency. In addition, former Boston Section 8 tenant Harvey Johnson was
sentenced to 2 years supervised probation and ordered to pay Boston $34,826 in restitution for his earlier
guilty plea to submitting a false claim to a government agency and committing larceny over $250. Between
2001 and 2009, Fuentes allegedly and Johnson admittedly failed to report income on housing certifications
and together obtained about $107,085 in housing assistance they were not entitled to receive.

                                                     nnn

    Sonny Vo and Denise Nguyen, a former Norwood Housing Authority (Norwood) Section 8 landlord and
tenant, were collectively sentenced in U.S. District Court, Boston, MA, to 1 year intermittent community
confinement, 12 months home confinement, and 6 years probation; ordered to pay HUD $104,496 in
restitution; and fined $3,000 for their earlier guilty pleas to committing mail fraud. From August 2001 to
September 2008, Vo and Nguyen failed to report their joint residency on housing certifications and together
obtained $104,496 in housing assistance they were not entitled to receive.

                                                     nnn

    Five former Georgia Department of Community Affairs (Georgia Community Affairs) Section 8 tenants
were each indicted in various Georgia Superior Courts for allegedly making false statements or committing
theft by deception, public assistance fraud, or recidivism. In addition, former Georgia Community Affairs
Section 8 tenant Andrea Travis was sentenced to 10 years probation and ordered to pay Georgia Community
Affairs a not yet determined amount of restitution for her earlier guilty plea to committing theft by deception,
and former Georgia Community Affairs Section 8 tenant Leslie Hinton was sentenced to 5 years probation
and ordered to pay Community Affairs $10,766 in restitution before her adjudication of guilt. Between
August 2005 and December 2009, the above defendants allegedly and Travis admittedly failed to report
income or an accurate marital status on housing certifications and collectively obtained about $84,860 in
housing assistance they were not entitled to receive.

                                                     nnn

Chapter 2 - Public and Indian Housing Programs                                                                     41
         Nine current or former Memphis or Shelby County Housing Authority Section 8 tenants were each
     arrested and charged in Shelby County Criminal Court, Memphis, TN, with allegedly committing forgery
     and theft. Between December 2003 and October 2010, the above defendants allegedly provided false
     information or failed to report income on housing certifications and collectively obtained about $92,251
     in housing assistance they were not entitled to receive.




       Copyright 2010. The Commercial Appeal, Memphis, TN. Reprinted with permission.



                                                             nnn

         Hadiah Mcleod-Lambu, Jung Kim, and Aishah Bashir, Oakland Housing Authority (Oakland) Section 8
     landlords and a tenant, were each charged in Alameda County Superior Court, Oakland, CA, with allegedly
     defrauding a housing authority, and Kim was arrested after she was charged. Between 2004 and November
     2010, the above defendants allegedly failed to report their familial relationship or the nonresidency of
     their Section 8 tenants on housing certifications and collectively obtained more than $82,000 in housing
     assistance they were not entitled to receive.

     Fed Rent Initiative
         HUD’s most recent study estimates the combined gross improper rental housing assistance payments to
     have been more than $1 billion in FY 2008. In an effort to combat administrative overpayments and tenant
     fraud, HUD and HUD OIG commenced “Operation FedRent,” a joint effort to address rental assistance
     fraud involving Federal employees. Operation FedRent compares HUD tenant data to current and retired
     Federal employee information maintained by the U.S. Office of Personnel Management. After the data
     comparison, an income eligibility determination is made, and the Social Security numbers for family
     members 6 years of age and older are verified. If a discrepancy exists, an investigation is opened, and
     appropriate administrative or legal actions are initiated to collect any overpaid housing assistance. Results
     of Operation FedRent during this semiannual reporting period are described below.

                                                             nnn

         Arvay Smith, a former Chicago Housing Authority public housing tenant and U.S. Postal Service (USPS)
     employee, was sentenced in U. S. District Court, Chicago, IL, to 5 years probation and ordered to pay
     HUD $41,895 in restitution for her earlier guilty plea to committing theft of government funds. From 2000
     to 2006, Smith failed to report income or assets on housing certifications and obtained $41,895 in housing
     assistance she was not entitled to receive.

                                                             nnn


42                                                                        Chapter 2 - Public and Indian Housing Programs
    Birdie Toomes, a former Housing Authority for the City of Los Angeles (Los Angeles) Section 8 tenant
and current U.S. Department of Veteran Affairs employee, was sentenced in U.S. District Court, Los Angeles,
CA, to 1 year probation and ordered to pay Los Angeles $41,022 in restitution for her earlier guilty plea to
committing theft of government funds. From 2004 to 2008, Toomes failed to report income on housing
certifications and obtained $41,022 in housing assistance she was not entitled to receive.

                                                   nnn

    Candace Morrow, a former Pilgrim Village Housing Authority Housing Choice Voucher program
participant and IRS employee, was sentenced in U.S. District Court, Buffalo, NY, to 3 months incarceration
and 2 years supervised release and ordered to pay HUD $32,358 in restitution for her earlier guilty plea
to committing theft of government funds. From 2005 to 2010, Morrow failed report income on housing
certifications and obtained $32,358 in housing assistance she was not entitled to receive.

                                                   nnn

    Sheryl Prince, a former Housing Authority of the City of Los Angeles Section 8 tenant and current U.S.
Department of Commerce employee, pled guilty in U.S. District Court, Los Angeles, CA, to making false
statements. From 2004 to 2007, Prince failed to report income on housing certifications and obtained about
$27,622 in housing assistance she was not entitled to receive.

                                                   nnn

   Lynette Harper-Green, a former Dupage Housing Authority (Dupage) Section 8 tenant and current
USPS employee, was sentenced in U.S. District Court, Chicago, IL, to 3 years probation and ordered to pay
Dupage $12,863 in restitution for her earlier guilty plea to committing mail fraud. From December 2003 to
November 2005, Harper-Green failed to report income on housing certifications and obtained $12,863 in
housing assistance she was not entitled to receive.

                                                   nnn

    Adriane Smith, a former Prince Georges County Housing Authority (Prince Georges County) Section
8 tenant and current U.S. Department of Agriculture employee, was sentenced in Prince Georges County
Circuit Court, Upper Marlboro, MD, to 2 years probation and ordered to pay Price Georges County $5,327
in restitution for her earlier guilty plea to making a false statement. From September 2006 to March 2009,
Smith failed to report income on housing certifications and obtained $5,327 in housing assistance she was
not entitled to receive.

Fugitive Felon Initiative
    OIG supports a Fugitive Felon Initiative (FFI) by matching HUD housing assistance information with
crime data from the National Crime Information Center, U.S. Marshals Service (Marshals), and other
participating law enforcement data banks. In addition, OIG special agents actively participate in the
Marshals’ “Operation FALCON,” a joint Federal, State, city, and county law enforcement effort to locate
and apprehend fugitive felons wanted for violent crimes. Conducted in most major cities throughout the
United States and its territories, Operation FALCON places a strong emphasis on apprehending fugitive
felons involved in gangs, homicides, sexual assaults, or crimes against the elderly and children. Since
the inception of OIG’s FFI, hundreds of cases have been opened and closed, resulting in more than 8,801
arrests. OIG strongly supports Operation FALCON in an effort to make HUD public and assisted housing
a safe place for families to live. Below are examples of FFI efforts.

                                                   nnn


Chapter 2 - Public and Indian Housing Programs                                                                 43
         Twenty-three Memphis and Chattanooga Housing Authority Section 8 tenants were each arrested on
     outstanding State or county warrants in Memphis and Chattanooga, TN, for allegedly committing theft,
     probation violations, possession of dangerous drugs or a prohibited weapon, or simple or domestic assaults
     or for failing to appear.

                                                        nnn

         Seven Mississippi Regional Housing Authority VIII Housing Choice Voucher program participants were
     each arrested in Gulfport, MS, on outstanding State warrants for allegedly issuing bad checks, transferring
     a controlled substance, or committing embezzlement or probation violations.

                                                        nnn

         Six Springfield, Westfield, and North Adams Housing Authorities or Massachusetts Department of Housing
     and Community Development authorized and unauthorized housing recipients were each arrested in
     Springfield, MA, on outstanding warrants issued by Massachusetts, Connecticut, and New York State Courts
     for allegedly failing to appear, committing an assault with a dangerous weapon or larceny, threatening to
     commit a crime, receiving stolen property, or making harassing communications.

                                                        nnn

        Six Mississippi Regional Housing Authority Housing Choice Voucher program participants were each
     charged in Mississippi State Court, Jackson, MS, with allegedly possessing cocaine or committing statutory
     rape, aggravated assault, forgery, embezzlement, or fraud.

                                                        nnn

        Gloria Jackson and Graylyn Russell, former Harris County Housing Authority housing recipients, were
     each arrested in New Orleans, LA, on outstanding Texas State warrants for allegedly committing felony theft.

                                                        nnn

        Marnetta Allen, an East Baton Rouge Housing Authority Housing Choice Voucher program participant,
     was arrested in Baton Rouge, LA, on an outstanding warrant issued by Weld County Court, Weld County,
     CO, for allegedly committing theft between $1,000 and $20,000.

                                                        nnn

         Kesha Thomas, a Tampa Housing Authority Housing Choice Voucher program participant, was arrested
     in Tampa, FL, for allegedly violating her probation.

     Civil and Administrative Actions
         Ronnie Faison, the former deputy director of the Englewood Housing Authority (Englewood), who
     was previously sentenced in U.S. District Court, Newark, NJ, for his earlier guilty plea to committing theft
     of government funds, was debarred from procurement and nonprocurement transactions with HUD and
     throughout the Executive Branch of the Federal Government for 36 months. From September 2006 to
     August 2007, Faison and previously sentenced Englewood bookkeeper Sergio Gonzalez fraudulently used
     about $100,000 in Englewood funds for their personal gain.

                                                        nnn



44                                                                 Chapter 2 - Public and Indian Housing Programs
    Hector Claveria, a former commissioner of the Hoboken Housing Authority (Hoboken), who previously
pled guilty in U.S. District Court, Newark, NJ, to committing official misconduct and bribery and accepting or
receiving an unlawful benefit by a public servant for official behavior, was suspended from procurement and
nonprocurement transactions with HUD and throughout the Executive Branch of the Federal Government
pending the outcome of criminal proceedings or any related debarment action. From March to August
2009, Claveria accepted cash payments from a housing applicant in exchange for his efforts to circumvent
the Hoboken housing waiting list. HUD losses have not yet been determined.

Other Fraud/Crimes
    Rodney Burrell and Brian Dodds, doing business as R&R Heavy Haulers and D&R Earth Moving, each
pled guilty in U.S. District Court, Detroit, MI, to committing a misprision of a felony. In February 2009,
during testimony before a Federal grand jury, Burrell and Dodds provided incomplete and misleading
information relating to HOPE VI contracts used in the rehabilitation of Gardenview Estates, a Detroit
Housing Commission property.

                                                    nnn

    Nicholas DeRosa, a New Castle, PA, councilman, and Castle Realty Appraisal Services, Inc. (Castle
Realty), were collectively sentenced in U.S. District Court, Pittsburgh, PA, to 41 months incarceration
and 60 months probation and ordered to pay Lawrence County Housing Authority (Lawrence County)
$88,000 and First Commonwealth Bank $224,159 in restitution for their earlier guilty pleas to committing
bank and mail fraud and a conspiracy to commit money laundering. Between October and December
2005, DeRosa directed a Lawrence County employee and board members to facilitate the purchase of
seven dilapidated properties that either DeRosa owned or were owned by his associates, and Castle Realty
inflated the values of these properties that were later purchased by a nonprofit organization created and
funded by Lawrence County.

                                                    nnn

    Dwayne Benjamin and Yves Mathieu, fabricated Nassau County (Nassau) and Hempstead Housing
Authority (Hempstead) Section 8 landlords, and 16 additional individuals were each arrested after their
indictments in Nassau County Court, Mineola, NY, for allegedly filing false instruments; falsifying business
records; and committing money laundering, grand larceny, and a corrupt business enterprise. From
October 2004 to May 2009, the above individuals allegedly participated in a conventional mortgage fraud
scheme and illegally obtained properties that Benjamin and Mathieu fraudulently placed into the Nassau
and Hempstead Section 8 programs. HUD losses have not yet been determined.

                                                    nnn

    Graeme Stinson, Darrick Jones, Yves Vaval, and Stephan Williams, Chicago Housing Authority Section
8 landlords, were each charged in U.S. District Court, Chicago, IL, with allegedly committing wire fraud.
From January 2005 to September 2006, the above defendants allegedly provided false information and
assisted unqualified borrowers who fraudulently obtained conventional mortgages for properties placed
into the Chicago Housing Authority Section 8 program.

                                                    nnn

   John O’ Shea, the president and owner of Start Elevators, Inc., a New York City Housing Authority
contractor, was arrested after his indictment in U.S. District Court, Manhattan, NY, for allegedly making




Chapter 2 - Public and Indian Housing Programs                                                                   45
     false statements and committing mail fraud. From December 2000 to November 2010, O’Shea allegedly
     submitted fraudulent certified payrolls to the New York City Housing Authority and violated the Davis-Bacon
     Wage Act.

                                                       nnn




46                                                                 Chapter 2 - Public and Indian Housing Programs
Chapter 3 - Multifamily Housing
Programs
         In addition to multifamily housing developments with U.S. Department of Housing and Urban
     Development (HUD)-held or HUD-insured mortgages, the Department owns multifamily projects acquired
     through defaulted mortgages, subsidizes rents for low-income households, finances the construction or
     rehabilitation of rental housing, and provides support services for the elderly and handicapped.



     Audit
                      Strategic Initiative 2: Contribute to the reduction of erroneous
                                        payments in rental assistance
      Key program results                                 Questioned costs                Funds put to better use
             Audit                 6 audits                    $30 million                            ---
              Our                  Page 49           •	 HUD’s multifamily accelerated processing program
             focus                 Page 49           •	 FHA-insured multifamily Section 231 project
                                   Page 49           •	 Owner and management agent operations
                                   Page 50           •	 Section 8 performance-based contract administration




                      Chart 3.1: Percentage of OIG multifamily housing audit reports
                                       during this reporting period



                                                                                              Region 1 - 0%
                                                                                              Region 2 - 17%
                                                                                              Region 3 - 17%
                                                                                              Region 4 - 0%
                                                                                              Region 5 - 0%
                                                                                              Region 6 - 0%
                                                                                              Regions 7/8/10 - 33%
                                                                                              Region 9 - 33%
                                                                                              Region 11 - (N/A)*




     * This does not include disaster relief audits. See chapter 6 for these reviews.




48                                                                               Chapter 3 - Multifamily Housing Programs
HUD’s Multifamily Accelerated Processing Program
   HUD OIG audited the underwriting of a $45.6 million mortgage loan that was acquired by Deutsche Bank
Berkshire Mortgage, Inc., Bethesda, MD (lender), to rehabilitate Wingate Towers and Garden Apartments.
The lender acquired and became responsible for the loan origination activities, personnel, books, and
records related to this loan from Berkshire Mortgage Finance Limited Partnership (underwriter) in October
2004. The Federal Housing Administration (FHA)-insured loan went into default in October 2009, and in
May 2010, HUD paid a $44.3 million insurance claim to the lender. HUD sold the property in a note sale in
September 2010 for $14.5 million, resulting in a loss of $29.8 million. The audit objective was to determine
whether the loan was underwritten in accordance with HUD requirements.

    The loan was not underwritten in accordance with HUD requirements. The underwriter failed to
properly assess the financial resources of the owner and general contractor or the construction capabilities
of the general contractor. The underwriter also significantly understated the amount of repairs needed
to bring the property up to marketable condition. Based on the underwriter’s recommendation, HUD
approved the project and the general contractor. The project failed.

      OIG recommended that HUD perform a legal review of applicable documents to determine the
responsible party that is liable for incorrectly certifying to the integrity of the data or that due diligence
was exercised in the underwriting of the loan, which could result in affirmative civil enforcement action of
more than $118 million, and to pursue remedies under the False Claims Act against the responsible party
if it is determined legally sufficient to do so. Additionally, OIG recommended that HUD take appropriate
administrative action against the responsible party for the material underwriting deficiencies cited. (Audit
Report: 2011-PH-1009)

FHA-Insured Multifamily Section 231 Project
   HUD OIG audited the Retreat at Santa Rita Springs, Green Valley, AZ, an FHA-insured multifamily property
under Section 231 of the National Housing Act, in response to a congressional request from Representative
Gabrielle Giffords of the 8th Congressional District of Arizona.

    In November 2009, the owners of the community defaulted on its $29.9 million HUD-insured loan
less than 1 month after final endorsement. The community experienced huge operating shortfalls and
eventually defaulted on the loan. As a result, the community’s loan note was sold to an outside party for
approximately $9 million, or more than a $20 million loss to HUD.

    OIG recommended that HUD update its Multifamily Accelerated Processing (MAP) Guide to include rules
and requirements for processing Section 231 loans and discontinue processing these types of loans until the
MAP Guide is updated. OIG also recommended that HUD (1) ensure that all conditions for underwriting
are met in processing Section 231 multifamily properties and that there are clear roles, responsibilities,
and communication among the HUD offices when conducting reviews to minimize potential problems
such as those identified and (2) improve the regional field office’s property management and performance
monitoring of Section 231 properties by beginning monitoring immediately upon occupancy to minimize
potential financial, operational, and managerial problems related to the properties under the program.
(Audit Report: 2011-LA-0001)

Owner and Management Agent Operations
   HUD OIG audited Westbeth Artists Houses in New York, NY, to assess the merits of a hotline complaint
and determine whether project operations generally complied with HUD regulations pertaining to financial,
procurement, and tenant certification processes.



Chapter 3 - Multifamily Housing Programs                                                                         49
        The complaint had merit because the duties of the executive director position for which project funds
     were disbursed were not adequately supported. In addition, although tenant certifications were properly
     performed, the project’s financial management and procurement processes did not always comply with
     HUD regulations. Specifically, project funds were used to pay expenses that were inadequately supported,
     deemed unnecessary and unreasonable, and ineligible. In addition, auditee officials did not always follow
     prudent procurement practices when executing contracts, resulting in a lack of assurance that services
     were obtained at the most economical price.

        OIG recommended that HUD instruct auditee officials to (1) provide justification for the more than
     $304,000 expended for the costs related to the executive director’s position so that HUD can determine
     whether it is justified and provide documentation to substantiate more than $28,000 in unsupported
     expenses, (2) reimburse more than $7,000 in expenses deemed unnecessary and unreasonable along
     with the ineligible expenses of nearly $38,000, and (3) ensure that controls over financial management
     and procurement processes are strengthened. (Audit Report: 2011-NY-1006)

                                                         nnn

        HUD OIG audited the Naomi Gardens housing project in Arcadia, CA, in response to a congressional
     request from Representative David Dreier of the 26th District of California, to determine whether the project
     was operated in accordance with HUD rules and regulations; specifically, whether HUD funds were misused.

         The project’s expenses were properly authorized and necessary for its operation; however, the project
     did not adequately support that it conducted procurement activities in accordance with HUD requirements.
     As a result, it did not ensure that it paid nearly $171,000 to contractors and suppliers at a reasonable
     cost and in accordance with HUD rules and regulations. The project also did not properly maintain and
     administer its waiting list. It skipped over eligible applicants on its waiting list to accommodate other
     applicants without proper justification, allowed applicants to remain on the waiting list longer than HUD
     rules and regulations allowed, and improperly allowed household members to transfer to additional units.
     Therefore, the project provided no assurance that tenants were properly admitted to the project in a fair
     and equitable manner.

         OIG recommended that HUD require the project to (1) implement additional procurement procedures
     and controls to ensure compliance with HUD handbook requirements, (2) follow and enforce its tenant
     selection plan and submit documentation to HUD showing that future waiting list pulls have been conducted
     according to its tenant selection plan, (3) maintain a transfer waiting list for current tenants, and (4) amend
     the tenant selection plan to clarify and address the transfer of household members into additional units.
     (Audit Report: 2011-LA-1003)

     Section 8 Performance-Based Contract Administration
        HUD OIG audited the Section 8 Performance-Based Contract Administration program of the Alaska
     Housing Finance Corporation in Anchorage, AK, to determine whether the Corporation fulfilled its
     contractual responsibilities as a performance-based contract administrator of project-based Section 8
     housing assistance payments contracts.

        The Corporation generally fulfilled its responsibilities as a contract administrator. However, its
     management and occupancy reviews were not always as comprehensive as required by its annual
     contributions contract. OIG noted deficiencies that existed at the time of the Corporation’s reviews but
     were either not identified or not reported. In addition, the Corporation did not always properly rate projects
     when deficiencies were identified.




50                                                                         Chapter 3 - Multifamily Housing Programs
   OIG recommended that the Corporation improve its management occupancy reviews to make them
more comprehensive and review the annual contributions contract to gain a greater understanding of its
responsibilities in monitoring the project owners’ compliance with their obligation to provide decent, safe,
and sanitary housing to assisted residents. (Audit Report: 2011-SE-1001)

                                                   nnn




Chapter 3 - Multifamily Housing Programs                                                                       51
     Investigations
        Some investigations discussed in this report were generated from leads provided by HUD multifamily
     housing program staff and conducted jointly with Federal, State, and local law enforcement agencies.
     The results of various significant investigations are described below.


                     Strategic Initiative 2: Contribute to the reduction of erroneous
                                       payments in rental assistance
         Key program             Cases                  $            Convictions/pleas/      Admin/civil
            results              closed             recovered            pretrials            actions

        Investigations              49              $3,382,319               37                     29
              Our                Page 53        •	 Theft/embezzlement
             focus               Page 54        •	 Rental assistance fraud
                                 Page 55        •	 Other fraud/crimes




            Chart 3.2: Percentage of OIG multifamily housing closed investigation cases
                                    during this reporting period



                                                                                   Region 1 - 4%
                                                                                   Region 2 - 16%
                                                                                   Region 3 - 25%
                                                                                   Region 13 - 19%
                                                                                   Region 4 - 8%
                                                                                   Region 14 - 4%
                                                                                   Region 5 - 4%
                                                                                   Region 15 - 8%
                                                                                   Region 6 - 6%
                                                                                   Regions 7/8 - 2%
                                                                                   Region 9 - 2%
                                                                                   Region 10 - 2%
                                                                                   Region 11 - 0%




52                                                                   Chapter 3 - Multifamily Housing Programs
Theft/Embezzlement
    Ann Edwards, a former employee of Associated Realty Services, Inc. (Associated Realty), a HUD-
subsidized multifamily management contractor, was sentenced in U.S. District Court, Memphis, TN, to 42
months incarceration and 3 years probation and ordered to pay HUD more than $1.3 million in restitution
for her earlier guilty plea to committing bank fraud. From May 2004 to May 2008, Edwards embezzled
more than $1.3 million from Associated Realty bank accounts when she issued, forged, and negotiated
about 500 unauthorized checks.




 Copyright 2011. The Commercial Appeal, Memphis, TN. Reprinted with permission.



                                                        nnn

    Patricia Goodwin, the former manager of Summerhill Cooperative (Summerhill), a HUD-subsidized
elderly housing development, was sentenced in Hennepin County Court, Eden Prairie, MN, to 9 months
incarceration and 5 years probation and ordered to pay Summerhill $93,700 in restitution for her earlier
guilty plea to committing theft by swindle. From July 2006 to February 2008, Goodwin forged authorized
signatures on 142 Summerhill checks, altered accounting records, and embezzled $93,700 in Summerhill
funds.

                                                        nnn

   Maria Matilla, a former property manager for Campbell Arms Apartments, a HUD-subsidized multifamily
housing development, was arrested and charged in the 11th Judicial Circuit Court, Miami, FL, with allegedly
committing grand theft. From September 2007 to January 2008, Matilla allegedly stole $4,794 in Campbell
Arms funds.

                                                        nnn

    Christopher Grimsley, a former construction manager for AIMCO Apartment Management, a HUD-
subsidized multifamily management contractor, was sentenced in U.S. District Court, Kansas City, MO,
to 41 months incarceration and 36 months probation and ordered to pay his former employers $538,340




Chapter 3 - Multifamily Housing Programs                                                                      53
     in restitution for his earlier guilty plea to committing mail fraud. From May 2003 to May 2009, Grimsley
     solicited and obtained $538,340 in kickbacks from a number of contractors in return for HUD-subsidized
     and other multifamily contracts. HUD losses have not yet been determined.

     Rental Assistance Fraud
         Eight former Section 8 tenants at HUD-subsidized multifamily housing developments were each
     arrested and charged in U.S. District or Manhattan Criminal Courts, Manhattan, NY, with allegedly making
     false statements; falsifying business records; or committing theft of government funds, a conspiracy to
     steal government funds, or grand larceny. In addition, former Section 8 tenant Robert Lujan pled guilty
     to making false statements to HUD and committing theft of government funds. Between October 2005
     and October 2010, Lujan used the identity of another individual to obtain housing assistance, and the
     remaining defendants allegedly failed to report income or their receipt of dual housing subsidies on housing
     certifications. Collectively, the above defendants obtained more than $337,136 in housing assistance they
     were not entitled to receive.

                                                         nnn

         Ernestina Marimon, a New York City Housing Preservation and Development Housing Choice Voucher
     program participant, a New York City Housing Authority public housing tenant, and a Section 8 tenant at
     Charles Hill Houses, a HUD-subsidized multifamily housing development, was indicted in U.S. District Court,
     Manhattan, NY, for allegedly making false statements and committing theft of government funds. From
     March 2006 to December 2010, Marimon allegedly failed to report her simultaneous receipt of housing
     assistance for three subsidized housing units and obtained about $161,183 in housing assistance she was
     not entitled to receive.

                                                         nnn

          Thirteen Section 8 tenants at Haverstock Hills Apartments, a HUD-subsidized multifamily housing
     development, were each indicted in Harris County District Court, Houston, TX, for allegedly tampering
     with governmental records. Between October 2007 and October 2010, the above defendants allegedly
     failed to report their criminal histories on housing certifications and collectively obtained about $156,644
     in housing assistance they were not entitled to receive.

                                                         nnn

        Patrice Smith, a former Section 8 tenant at Universal City and Parkways Apartments, HUD-subsidized
     multifamily housing developments, was indicted in Cook County Circuit Court, Chicago, IL, for allegedly
     committing theft by deception. From 2002 to 2010, Smith allegedly failed to report her receipt of dual
     housing subsidies on housing certifications and obtained more than $100,000 in housing assistance she
     was not entitled to receive.

                                                         nnn

        Ava Driver, a former Section 8 tenant at Central Gardens I Apartments (Central Gardens), a HUD-
     subsidized multifamily housing development, was indicted in Prince Georges County Circuit Court, Upper
     Marlboro, MD, for allegedly making false statements and committing theft. In addition, former Central
     Gardens Section 8 tenants Annette Rhue and Crystal Bailey were collectively sentenced to 20 years
     incarceration (suspended) and 10 years supervised probation and ordered to pay HUD $8,514 and others
     $34,131 in restitution for their earlier conviction of or guilty plea to committing theft, aggregate theft, or
     welfare fraud. Between January 2000 and June 2008, Driver allegedly failed to report an unauthorized



54                                                                         Chapter 3 - Multifamily Housing Programs
resident or his income, Rhue failed to report income on housing and other certifications, and Bailey was
found guilty of failing to report an unauthorized resident or his registered sex offender status. Collectively,
the above defendants obtained about $66,260 in housing and about $14,460 in other assistance they were
not entitled to receive.

                                                    nnn

    Five former Section 8 tenants at Woodlake Apartments, a HUD-subsidized multifamily housing
development, were each indicted in Gloucester County Court, Woodbury, NJ, for allegedly making false
statements or committing theft. Between March 2006 and September 2009, the above defendants allegedly
failed to report income on housing certifications and collectively obtained about $54,000 in housing
assistance they were not entitled to receive.

                                                    nnn

     Terri and Melanie Robinson, Jessica Johnson, and Ivoriet Drake, former Section 8 tenants at Isle
Parkway Apartments, a HUD-subsidized multifamily housing development, were collectively sentenced
in U.S. District Court, Mobile, AL, to 168 months probation and ordered to pay HUD $41,624 in restitution
for their earlier guilty pleas to committing theft of government funds. Between 2005 and 2009, the above
defendants failed to report income on housing certifications and collectively obtained $44,656 in housing
assistance they were not entitled to receive.

                                                    nnn

   Maria Martinez and Carmen Guzman, Section 8 tenants at HUD-subsidized multifamily housing
developments, were each arrested and charged in Bronx Criminal Court, Bronx, NY, with allegedly
committing grand larceny and offering a false instrument for filing. Between October 2006 and November
2008, Martinez and Guzman allegedly failed to report income on housing certifications and together obtained
about $43,764 in housing assistance they were not entitled to receive.

                                                    nnn

    John Martinez, a former unauthorized tenant at San Juan Del Centro Apartments, a HUD-subsidized
multifamily housing development, was convicted in Boulder District Court, Boulder, CO, of committing
theft and forgery and obtaining a signature by deception. From January 2000 to March 2010, Martinez
duped a mentally challenged individual to claim residency and provide annual housing certifications for
the subsidized housing unit, but Martinez resided in the subsidized housing unit and fraudulently obtained
more than $40,500 in housing assistance he was not entitled to receive.

Other Fraud/Crimes
    Joseph Driscoll, the maintenance director of ARCO Management, a former HUD management
contractor who previously oversaw the management and maintenance of HUD-owned multifamily housing
developments, pled guilty in U.S. District Court, Brooklyn, NY, to making false transactions with HUD. In May
and June 2000, Driscoll created false bids that enabled another contractor to receive a HUD contract, and
in return, the contractor fraudulently subcontracted work to companies owned and controlled by Driscoll.

                                                    nnn




Chapter 3 - Multifamily Housing Programs                                                                          55
Chapter 4 - Community Planning and
Development Programs
         The Office of Community Planning and Development (CPD) seeks to develop viable communities
     by promoting integrated approaches that provide decent housing, suitable living environments, and
     expanded economic opportunities for low- and moderate-income persons. The primary means toward
     this end is the development of partnerships among all levels of government and the private sector. In
     addition to the audits and investigations described in this chapter, the U.S. Department of Housing and
     Urban Development, Office of Inspector General (HUD OIG), has conducted a number of outreach efforts
     (see chapter 8, page 118).


     Audit
                Strategic Initiative 3: Contribute to the strengthening of communities
      Key program results                              Questioned costs               Funds put to better use
            Audit               28 audits*                $33.4 million                      $3.9 million
             Our                 Page 59          •	 Community Development Block Grant programs
            focus                Page 60          •	 HOME Investment Partnerships Program
                                 Page 64          •	 Neighborhood Stabilization Program
                                 Page 64          •	 Shelter Plus Care

     * The total CPD audits, questioned costs, and funds put to better use amounts include any American Recovery and
     Reinvestment Act of 2009 (10 audits) and disaster recovery (4 audits) type audits conducted in the CPD area. The
     writeups for these audits are shown separately in chapters 5 and 6 of this semiannual report.




                  Chart 4.1: Percentage of OIG community planning and development
                               audit reports during this reporting period



                                                                                          Region 1 - 3%
                                                                                          Region 2 - 11%
                                                                                          Region 3 - 21%
                                                                                          Region 4 - 11%
                                                                                          Region 5 - 11%
                                                                                          Region 6 - 4%
                                                                                          Regions 7/8/10 - 14%
                                                                                          Region 9 - 18%
                                                                                          Region 11 - 7%




58                                                       Chapter 4 - Community Planning and Development Programs
    HUD OIG audited the Community Development Block Grant (CDBG) program, the HOME Investment
Partnerships Program (HOME), the Neighborhood Stabilization Program (NSP), and the Shelter Plus Care
Program. While OIG’s objectives varied by auditee, the majority of the reviews were to determine whether
the grant funds were administered for eligible activities and that the auditee met program objectives. The
following section illustrates the audits conducted in the CPD area.

Community Development Block Grant Programs
    HUD OIG audited the City of Scranton, PA’s CDBG program and found that the City failed to adequately
administer its CDBG funds and could not demonstrate that it used more than $11.7 million in CDBG funds
in accordance with applicable HUD requirements. Specifically, it (1) failed to maintain adequate records
identifying the source and application of funds for its HUD-sponsored activities, (2) did not maintain
required documentation and budget controls demonstrating that its expenditures complied with program
requirements, (3) did not use proper subrecipient agreements, and (4) failed to adequately monitor its
subrecipients. Additionally, it did not ensure that its activities complied with program requirements and
allowed an apparent conflict-of-interest situation to exist.

     OIG recommended that HUD (1) perform additional monitoring and provide technical assistance to the
City, as needed, to ensure that the City properly administers the CDBG funding in accordance with applicable
requirements and (2) evaluate issues identified and if appropriate, initiate administrative action against
responsible officials. OIG further recommended that HUD direct the City to (1) provide documentation
to demonstrate that CDBG funds were used for eligible activities that met the intent of its HUD-approved
budget line items or repay HUD from non-Federal funds and (2) improve its financial management system
and implement improved accounting procedures to ensure that it meets the requirements of 24 CFR (Code
of Federal Regulations) 85.20 and 570.506 and Office of Management and Budget Circular A-87. OIG also
recommended that HUD direct the City to (1) develop and implement controls to ensure that it monitors
its subrecipients as required and maintains adequate documentation to support its monitoring efforts and
(2) revise its subrecipient agreement to comply with HUD requirements. (Audit Report: 2011-PH-1002)

                                                    nnn

    HUD OIG audited the operations of the City of Binghamton, NY, pertaining to its administration of its
CDBG Section 108 Loan Guarantee program, and found that the City did not ensure that its Section 108
loans and related activities were administered effectively, efficiently, and economically in accordance with
applicable rules and regulations and that loan proceeds were expended on eligible activities that met a
national objective of the program. In addition, the City did not ensure that additional expenditures of CDBG
funds for subsequent Section 108 loan repayments and other related costs were necessary, reasonable,
and in accordance with all applicable contracts, agreements, and Federal regulations. Consequently,
significant CDBG funds were disbursed for Section 108 debt repayments, and future CDBG funds will be
required until the Section 108 debts have been fully paid. Therefore, the ability to provide program benefits
to low- and moderate-income residents of the City has been diminished.

    OIG recommended that HUD instruct the City to (1) establish a Section 108 repayment account and repay
more than $1.5 million in Regency Hotel sales proceeds that were used for City expenses from non-Federal
funds; (2) transfer the nearly $82,000 in hotel sales proceeds that remain in the City’s trust account to the
established Section 108 repayment account; (3) submit documentation to justify the use of more than $2.4
million in CDBG funds to pay for hotel Section 108 debt so that HUD can make an eligibility determination;
and (4) establish controls to ensure that Section 108 loan proceeds are at all times adequately safeguarded,
collateral for Section 108 loans is continually protected until all loan funds have been repaid, the provisions




Chapter 4 - Community Planning and Development Programs                                                           59
     of all Section 108 loan contracts and agreements are followed and promptly enforced, and Section 108
     loan activities meet a national objective of the program. (Audit Report: 2011-NY-1004)

                                                        nnn

          HUD OIG audited the City of Bayonne, NJ’s CDBG economic development activities and found that
     the City did not adequately administer its economic development program. Specifically, it (1) did not
     adequately monitor its subrecipient, (2) made disbursements for ineligible items, (3) made disbursements
     for technical assistance and salary costs that were not reasonable, (4) did not maintain documentation to
     support accomplishment of the CDBG national objectives, and (5) did not reprogram unused economic
     development funds in a timely manner when its loan program ended.

         OIG recommended that HUD instruct the City to (1) strengthen procedures to monitor its subrecipients
     to ensure compliance with HUD rules and regulations; (2) repay from non-Federal funds the more than
     $5,000 in ineligible costs charged to the CDBG economic development program; (3) strengthen controls
     to ensure that costs charged to the CDBG program are eligible according to HUD regulations; (4) provide
     documentation to support the eligibility of more than $640,000 in unreasonable technical assistance costs,
     salaries, and payroll taxes charged to the economic development program so that HUD can make an
     eligibility determination; and (5) provide documentation to show that the City reprogrammed more than
     $196,000 in remaining economic development funds so that these funds can be put to better use. (Audit
     Report: 2011-NY-1002)

                                                        nnn

         HUD OIG audited the City of East St. Louis, IL’s CDBG program and found that the City awarded more
     than $1 million in CDBG funds for 124 of the 147 rehabilitation contracts reviewed without adequately
     ensuring that it complied with requirements and that the work was completed in an acceptable manner.
     Specifically, it (1) did not ensure that contractors completed all of the contracted work as required and at
     a reasonable cost, (2) created scopes of work for the rehabilitation contracts that were not detailed and
     specific in nature, and (3) did not comply with Federal procurement requirements and its own policies
     and procedures when it managed the rehabilitation contracts.

         OIG recommended that HUD withhold $400,000 in 2010 CDBG funding for the City’s housing
     rehabilitation programs until it improves its controls and require the City to (1) collect more than $127,000
     paid to contractors for rehabilitation work not performed or improperly performed, (2) develop and
     implement adequate internal controls to ensure that all work is completed according to the scope of work,
     (3) update its inspection software, and (4) provide training to ensure future compliance. (Audit Report:
     2011-KC-1001)

     HOME Investment Partnerships Program
         HUD OIG audited the District of Columbia’s administration of its HOME program and found that the
     grantee did not administer its program in accordance with Federal requirements. It (1) obligated more
     than $2.5 million in HOME funds for an activity/project that was significantly delayed and not completed,
     (2) did not properly manage funds that it drew for downpayment assistance and financing of home repairs,
     (3) committed and disbursed community housing development organization (CHDO) operating funds
     for an ineligible CHDO, and (4) did not properly account for program administrative funds. As a result, it
     charged ineligible costs to its HOME program and could not support costs charged to the program. The
     grantee also accumulated funds that it could have used to improve its administration of its HOME program
     and/or fund additional eligible HOME projects.




60                                                     Chapter 4 - Community Planning and Development Programs
     OIG recommended that HUD require the grantee to recover more than $1.6 million that it spent on
ineligible expenses and provide support for nearly $6.5 million in expenses or repay that amount to the
HOME program. In addition, the grantee should use nearly $1.6 million in accumulated funds to improve
its administration of the program and/or fund additional eligible HOME projects. Lastly, OIG recommended
that the grantee create and implement procedures to ensure that HOME funds are disbursed and used in
compliance with applicable requirements. (Audit Report: 2011-PH-1005)




       Copyright 2010. The Washington Post, Washington, DC. Reprinted with permission.

                                                        nnn

    HUD OIG audited the City of Flint, MI’s HOME program and found that the City did not comply with
Federal requirements in its use of HOME funds for CHDOs’ home-buyer projects. It (1) did not ensure
that CHDOs entered into lease-purchase agreements or appropriate lease-purchase agreements with
households, (2) failed to ensure that a CHDO transferred homes to home buyers within 42 months of project
completion and did not convert the home-buyer projects to rental projects, (3) did not reimburse its HOME
trust fund treasury account for terminated projects, (4) inappropriately used HOME funds for home-buyer
project costs that were administrative expenses, (5) did not prevent a CHDO from entering into a land
contract with a home buyer, (6) inappropriately used HOME CHDO reserve funds for an owner-occupied
single-family rehabilitation project, (7) used HOME funds for unreasonable acquisition costs, and (8) did
not decommit and reprogram HOME funds for a terminated project. As a result, the City drew down and
disbursed nearly $1.7 million in HOME funds for CHDOs’ home-buyer projects that did not meet Federal
requirements and inappropriately drew down and disbursed more than $143,000 in additional HOME funds.

    The City also did not comply with Federal requirements in its use of HOME funds for subrecipients’
activities and inappropriately drew down and disbursed nearly $427,000 in HOME funds and lacked sufficient
documentation to support nearly $65,000 in HOME funds. Further, the City did not accurately report program
accomplishments in HUD’s Integrated Disbursement and Information System (IDIS).

   OIG recommended, among other things, that HUD require the City to revise lease agreements, convert
home-buyer projects to rental projects, reimburse its program or treasury account or reprogram or decommit




Chapter 4 - Community Planning and Development Programs                                                      61
     various amounts identified in the audit, revise program accomplishments in IDIS as appropriate, and
     implement adequate procedures and controls to address the findings cited. (Audit Report: 2011-CH-1001)

                                                          nnn

          HUD OIG audited the State of Indiana’s HOME program, administered by the Indiana Housing and
     Community Development Authority, and found that the Authority did not comply with HUD’s requirements
     in its use of HOME and American Dream Downpayment Initiative funds to provide interest-free second
     mortgage loans to home buyers through the State’s First Home/PLUS program and its use of recapture
     provisions for activities. It (1) lacked sufficient documentation to support that homes purchased under the
     First Home/PLUS program met HUD’s property standards requirements, (2) did not implement appropriate
     recapture provisions for all of the activities reviewed, (3) did not ensure that the State’s HOME program
     was reimbursed for HOME or Initiative funds used for activities in which the ownership of homes was later
     transferred through foreclosure, and (4) did not reimburse the State’s HOME trust fund treasury account
     for HOME funds used for activities that were later terminated. As a result, (1) it was unable to support its
     use of more than $803,000 in HOME or Initiative funds, (2) its HOME program was not reimbursed more
     than $130,000 in HOME or Initiative funds used for 32 activities in which the ownership of the homes was
     later transferred through foreclosure, and (3) its treasury account was not reimbursed more than $8,000 in
     HOME funds used for activities that were terminated. Further, the Authority is at risk of being required to
     reimburse the State’s HOME program additional non-Federal funds if the ownership of additional homes
     acquired under the First Home/PLUS program is transferred through foreclosure.

         OIG recommended that HUD require the State to (1) provide sufficient supporting documentation or
     reimburse its Program from non-Federal funds, (2) reimburse its HOME program from non-Federal funds for
     activities in which ownership of the homes was transferred through foreclosure, (3) reimburse its treasury
     account from non-Federal funds for the activities that were terminated, (4) revise its consolidated plan
     and action plan to include the recapture provisions the Authority uses for the First Home/PLUS program
     or require the Authority to revise the recapture provisions it uses for the First Home/PLUS program to
     comply with the recapture provisions in the State’s consolidated plan and action plan, and (5) implement
     adequate procedures and controls to address the findings cited. These procedures and controls should
     help to ensure that over the next year, the State appropriately recaptures HOME and/or Initiative funds and/
     or reimburses its HOME program from non-Federal funds for nearly $124,000 in HOME and/or Initiative funds
     used for homes acquired under its First Home/PLUS program of which ownership would be transferred
     due to foreclosure. (Audit Report: 2011-CH-1004)

                                                          nnn

          HUD OIG audited the City of Cleveland’s HOME program and found that the City did not comply with
     HUD’s requirements in its use of HOME and American Dream Downpayment Initiative funds to provide
     interest-free second mortgage loans to home buyers through its Afford-A-Home program and its use of
     recapture provisions for activities. It (1) provided assistance for ineligible activities; (2) lacked sufficient
     documentation to support that activities were eligible; (3) included inappropriate recapture provisions
     in its action plans for program years 2007 to 2008, 2008 to 2009, and 2009 to 2010; (4) did not implement
     appropriate recapture provisions for all of the activities reviewed; and (5) did not ensure that its HOME
     program was reimbursed for HOME funds used to assist home buyers in purchasing homes that were later
     sold through a sheriff ’s sale and ownership of the homes had been transferred. As a result, it inappropriately
     provided HOME funds to assist two households that were not income eligible and was unable to support
     its use of HOME and/or Initiative funds. Further, its HOME program was not reimbursed for HOME funds
     used for three homes that were sold through a sheriff ’s sale and ownership of the homes had been
     transferred. In addition, the City is at risk of being required to reimburse its HOME program additional




62                                                       Chapter 4 - Community Planning and Development Programs
non-Federal funds if the ownership of additional homes acquired under its Afford-A-Home program is
transferred through foreclosure.

     OIG recommended that HUD require the City to
(1) reimburse its HOME program from non-Federal
funds for the $20,000 in HOME funds inappropriately
used to assist two activities, (2) provide supporting
documentation or reimburse its HOME program
$760,000 from non-Federal funds, (3) reimburse its
HOME program $30,000 from non-Federal funds for
the three homes that had been sold through a sheriff ’s
sale and ownership of the homes had been transferred,
and (4) implement adequate procedures and controls
to address the findings identified. These procedures
and controls should help to ensure that over the next
year, the City appropriately recaptures HOME and/or
Initiative funds and/or reimburses its HOME program
from non-Federal funds for at least $90,000 in HOME
and/or Initiative funds used for homes acquired under
its Afford-A-Home program of which ownership would
be transferred due to foreclosure. (Audit Report:
2011-CH-1003)

                          nnn

    HUD OIG audited the Municipality of Arecibo,
                                                           Copyright 2011. The Plain Dealer, Cleveland, OH. Reprinted
PR’s HOME program and found that the Municipality          with permission.
committed and disbursed more than $115,000 in HOME
funds for the purchase of land that could not be used to
provide housing for low- and very low-income families.
The commitment and disbursement of HOME funds to acquire land not intended to provide affordable
housing was not consistent with program requirements and was an ineligible use of program funds.
In addition, the Municipality disbursed more than $483,000 for the Bello Monte housing project, which
reflected slow progress without assurance that the project was feasible. It executed an agreement in July
2006 with a CHDO for site acquisition and construction of the Bello Monte housing project. According to
the agreement, the construction of the housing units should have started in July 2007, with a completion
date of July 2011. However, as of November 2010, the construction had not started. According to HUD,
the project had encountered problems in complying with environmental requirements of a local agency.
The Municipality failed to ensure the timely completion of the activity. As a result, HUD had no assurance
that this activity provided the intended benefits and met HOME objectives.

    Further, HUD’s system contained inaccurate information concerning the Bello Monte project. This
information included incorrect funding amounts. The awarded amount shown in HUD’s system was
incorrect, resulting in an overstatement of HOME commitments of more than $45,000. As a result, these
funds were not available for use and to meet program objectives.

    OIG recommended that HUD require the Municipality to repay more than $52,000 in ineligible
expenditures and reprogram and put to better use more than $108,000 in unexpended funds obligated for
ineligible purposes or that were overstated. HUD should also determine the eligibility of the more than
$431,000 disbursed for the Bello Monte housing project with signs of slow progress and reevaluate the
feasibility of this activity. (Audit Report: 2011-AT-1802)



Chapter 4 - Community Planning and Development Programs                                                                 63
     Neighborhood Stabilization Program
         We audited the City of Mesa, AZ’s NSP1 grant and found that the City’s procedures for administering
     its NSP1 grant were not adequate to ensure that HUD’s program requirements were met. The City (1)
     did not maintain adequate controls over construction contractor draw requests, (2) failed to ensure the
     eligibility of labor costs claimed by its subrecipient, (3) did not require payment and performance bonds
     for construction contracts as required, (4) charged unsupported employee salary costs to the NSP1 grant,
     and (5) failed to properly enforce the program’s continued affordability requirements.

        OIG recommended that HUD require the City to (1) implement procedures to ensure that NSP1
     requirements are met and so that more than $328,000 in grant funds can be put to better use and (2) repay
     more than $22,000 in ineligible costs charged to the grant. (Audit Report: 2011-LA-1006)

                                                         nnn

         HUD OIG audited the Community Development Programs Center of Nevada’s NSP1 program and found
     that the Center did not always efficiently and effectively administer grant funds in compliance with Housing
     and Economic Recovery Act of 2008 and other applicable program requirements. Specifically, it violated
     HUD requirements and its developer agreement with the City of North Las Vegas when it entered into a
     conflict-of-interest contract with a company that is 50 percent owned by the Center’s executive director.
     In addition, the Center was unable to support rehabilitation costs for two projects and did not check the
     debarred status of subcontractors.

         OIG recommended that HUD require the grantee to ensure that the Center (1) stops awarding contracts
     to the general contractor that is 50 percent owned by its executive director unless granted a conflict-of-
     interest waiver as permitted in 24 CFR (Code of Federal Regulations) 570.611, (2) provides documentation
     to support nearly $11,000 in rehabilitation costs billed to the City of North Las Vegas or submits a new
     request for payment that reflects only the supported costs, (3) updates its policies and procedures to
     ensure that future rehabilitation costs are properly supported and procured in a cost-effective manner, and
     (4) follows its recently developed procedures to check the debarred status of all subcontractors. (Audit
     Report: 2011-LA-1004)

                                                         nnn

          HUD OIG audited the City of Columbus, GA’s NSP1 program and found that the City demonstrated the
     capacity to properly obligate its entire $3.1 million NSP1 grant by the September 5, 2010, statutory deadline.
     However, it (1) obligated nearly $220,000 in acquisition, rehabilitation, and downpayment assistance costs
     for two properties that were improperly classified as locality set-asides; (2) could not locate the procurement
     records for the lead-based paint contract it awarded and obligated and paid nearly $30,000 for lead-based
     paint abatement services provided by a contractor that was under contract with the City; and (3) did not
     maintain up-to-date NSP1 quarterly performance reports on its Web site.

        Overall, the City’s actions taken or planned regarding the issues indicated its willingness to make
     necessary improvements. Therefore, OIG made no recommendations, and no further action is required.
     (Audit Report: 2011-AT-1801)

     Shelter Plus Care
         HUD OIG audited Mecklenburg County, NC’s administration of its Shelter Plus Care program to
     determine whether the County only paid for eligible program administrative expenses; housed its
     participants in decent, safe, and sanitary units; and properly documented its program participant files.



64                                                      Chapter 4 - Community Planning and Development Programs
     The County mismanaged its program. It paid program administration expenses without adequate
supporting documentation; housed participants in units that were not decent, safe, and sanitary; and
failed to ensure that participant files were properly documented in compliance with HUD’s requirements.
As a result, the County spent more than $441,000 for unsupported program costs, more than $11,000 for
ineligible costs, and more than $14,000 in housing assistance payments for units that were in material
noncompliance with housing quality standards.

    OIG recommended that HUD require the County to develop and implement an adequate system of
internal controls to ensure that it complies with all program requirements. The County must also repay
more than $25,000 in ineligible expenses from non-Federal funds and provide documentation showing
that the unsupported expenses were eligible or repay that amount from non-Federal funds. (Audit Report:
2011-AT-1004)

                                                nnn




Chapter 4 - Community Planning and Development Programs                                                   65
                                                                                                                  66

     Investigations
         Some investigations discussed in this report were generated from leads provided by HUD CPD program
     staff or conducted jointly with Federal, State, and local law enforcement agencies. The results of various
     significant investigations are described below.


                         Strategic Initiative 3: Contribute to the strengthening
                                             of communities
         Key program               Cases                  $             Convictions/pleas/      Admin/civil
            results                closed             recovered             pretrials            actions

        Investigations               66                $7,912,335               22                     22
              Our                 Page 67         •	 Theft/embezzlement
             focus                Page 70         •	 Civil and administrative actions
                                  Page 71         •	 Other fraud/crimes




                 Chart 4.2: Percentage of OIG community planning and development
                       closed investigation cases during this reporting period


                                                                                      Region 1 - 3%
                                                                                      Region 2 - 6%
                                                                                      Region 3 - 9%
                                                                                      Region 13 - 4%
                                                                                      Region 4 - 5%
                                                                                      Region 14 - 1%
                                                                                      Region 5 - 2%
                                                                                      Region 15 - 6%
                                                                                      Region 6 - 6%
                                                                                      Regions 7/8 - 0%
                                                                                      Region 9 - 3%
                                                                                      Region 10 - 0%
                                                                                      Region 11 - 55%




66                                                    Chapter 4 - Community Planning and Development Programs
6
    Theft/Embezzlement
        Kwame Kilpatrick, the former mayor of the City of Detroit, MI; Bobby
    Ferguson, doing business as Ferguson Enterprises; and other individuals were
    each charged in U.S. District Court, Detroit, MI, with allegedly obstructing justice
    and committing bribery, extortion, Federal income tax evasion, an organized
    scheme to defraud, and mail and wire fraud. From 2003 to 2004, Kilpatrick,
    Ferguson, and other individuals allegedly planned fraudulent activities and
    attempted to obtain $18 million in HUD CDBG loan guarantees for demolition
    work at the Book Cadillac Hotel.

                                              nnn

        Henry Humphrey, the chief executive officer of the Shiloh Baptist Church
    Community Renewal Center, an organization that received HUD Economic
    Development Initiative grants, was sentenced in U.S. District Court, Louisville,
    KY, to 24 months incarceration and ordered to pay HUD $831,745 in restitution for
    his earlier guilty plea to making false statements and committing a conspiracy,
    wire fraud, embezzlement, and money laundering. From February 1998 to
    November 2005, Humphrey and other individuals applied for and received more
    than $1.2 million in HUD funding to convert an existing building into low-income
    elderly housing but failed to complete the project and fraudulently used HUD
    funds for other purposes or their personal gain.

                                              nnn

        Eugene Telfair, the former president of the Florida Agriculture and
    Mechanical University Federal Credit Union (A&M Credit Union), and former
    A&M Credit Union grant administrator Robert Nixon were collectively sentenced
    in U.S. District Court, Tallahassee, FL, to 57 months incarceration and 10
    years supervised release and ordered to pay A&M Credit Union $134,253 in
    restitution for their earlier convictions of committing theft of government funds,      Copyright 2010. Detroit Free
    a conspiracy to steal or misapply Federal funds and commit wire fraud, and              Press, Detroit, MI. Reprinted
    aiding and abetting. Between January 2002 and August 2009, Telfair and Nixon            with permission.
    provided false consulting and administrative billings and embezzled $134,253
    in HUD Historically Black College grant funds through the A&M Credit Union.




        Copyright 2011. Tallahassee Democrat, Tallahassee, FL. Reprinted with permission.


                                                              nnn

    Chapter 4 - Community Planning and Development Programs                                                                 67
         Seth Butterfield, the former CDBG grant administrator for the City of Layton, UT, a municipality that
     receives HUD CDBG funds, was indicted in U.S. District Court, Salt Lake City, UT, for allegedly committing
     theft from a program receiving Federal funds, money laundering, and wire fraud. Between October 2002
     and July 2006, Butterfield, while employed as the Layton CDBG grant administrator, allegedly created a
     community development based organization (CDBO) and became the CDBO’s executive director, awarded
     Layton CDBG contracts to fund the CDBO, and fraudulently obtained more than $116,000 in salary payments
     as the CDBO’s executive director at the same time he received salary payments from the City of Layton.




           Copyright 2010. Standard Examiner, Ogden, UT. Reprinted with permission.


                                                                nnn

         Cheryl and Gregory Gray, doing business as Gray and Gray Productions, an organization that receives
     HUD CDBG funds through the Detroit Neighborhood Improvement Project (Neighborhood Improvement)
     and other nonprofit agencies, were each arrested after they were charged in Wayne County District Court,
     Detroit, MI, with allegedly committing embezzlement and larceny by conversion and failing to file State
     income tax returns. From 2005 to 2006, Cheryl and Gregory Gray allegedly provided $26,341 in fraudulent
     invoices to Neighborhood Improvement and embezzled about $100,276 in HUD CDBG funds from the
     Detroit Theatre for the Dramatic Arts project. HUD realized losses of about $126,617.




       Copyright 2011. Pine Bluff Commercial, Pine Bluff, MI. Reprinted with permission.



                                                                nnn




68                                                             Chapter 4 - Community Planning and Development Programs
     Sion Robert was charged in U.S. District Court, New Orleans, LA, with allegedly committing a conspiracy
to steal Federal program funds. From July 2006 to July 2008, Robert and other individuals allegedly conspired
and stole about $109,702 from the House of Ruth, an organization that receives HUD Supportive Housing
Program (SHP) funds.

                                                   nnn

    Arthur Johnson, the director of East St. Louis Community Development (Community Development), an
organization that receives HOME and other funds, and Harold Rosen, the owner of Kully Construction, Inc.
(Kully), were each indicted in U.S. District Court, East St. Louis, IL, for allegedly committing bribery and
wire fraud, corruptly accepting something of value in connection with a program receiving Federal funds,
or aiding and abetting in the commission of wire fraud. From April 2009 to March 2010, Rosen allegedly
submitted false information and fraudulent documents associated with the construction of Bowman
Estates, a low-income housing development partially funded with Community Development funds, and
Johnson allegedly approved the fraudulent Bowman Estate expenses submitted by Kully and accepted
cash payments from Kully representatives in exchange for his future employment. HUD realized losses
of about $100,000.

                                                   nnn

     Joseph Vas, a former New Jersey assemblyman and mayor of the City of Perth Amboy, NJ, pled guilty in
New Jersey Superior Court, Trenton, NJ, to committing a pattern of misconduct, theft by unlawful taking,
and financial facilitation of criminal activity. Vas conspired with a former City of Perth Amboy employee
to rig a Perth Amboy lottery drawing that awarded the employee $90,000 in HOME funds.

                                                   nnn

    Kimberly Schultz, a former director of Habitat for Humanity, an organization that receives HUD Self-Help
Homeownership Opportunity and other program funds, pled guilty in Louisiana State Court, Covington,
LA, to committing theft. From June to November 2010, Schultz stole about $75,000 in cash from the Habitat
for Humanity Re-Store.

                                                   nnn

    Brian Jeremiah, the former executive director of Shamokin Redevelopment Authority and city clerk
of Shamokin, PA, was sentenced in U.S. District Court, Williamsport, PA, to 2 years probation, ordered to
pay HUD $8,100 in restitution, and fined $1,000 for his earlier guilty plea to making fraudulent transactions
with HUD. From 2006 to 2007, Jeremiah misapplied or fraudulently used City of Shamokin HOME funds
without authorization. HUD realized losses of $8,100.

                                                   nnn

    Lori Macakanja, a former foreclosure prevention housing counselor for HomeFront, Inc., a HUD-funded
housing counseling agency, was arrested and charged in U.S. District Court, Buffalo, NY, with allegedly
making false statements to HUD and committing mail fraud. From October 2008 to October 2010, Macakanja
allegedly solicited and accepted more than $200,000 from more than 100 distressed homeowners and used
about $2,000 in HUD Owners Avoiding Homelessness program funds for her personal benefit.

                                                   nnn




Chapter 4 - Community Planning and Development Programs                                                         69
         Steven Davis, a former employee of the Greater Rochester Housing Partnership (Rochester Housing),
     an organization that receives HUD CDBG funds, was sentenced in U.S. District Court, Rochester, NY, and
     fined $100 for his earlier guilty plea to committing fraud against HUD. From January 2005 to December
     2009, Davis manipulated the Rochester Housing bid process and submitted fraudulent bids in an effort to
     award Rochester Housing contracts to specific contractors.

     Civil and Administrative Actions
         Joseph McNulty and Sam John, owners of Friendly Maintenance Group; George Thomas, the owner
     of TAJ Maintenance (TAJ); and Prakash Karot, a manager for TAJ and a housing inspector for the City of
     Perth Amboy, NJ, were each debarred from procurement and nonprocurement transactions with HUD and
     throughout the Executive Branch of the Federal Government for 36 months. From January 2004 to September
     2006, the above defendants, who were previously sentenced in U.S. District Court, Newark, NJ, for their
     earlier guilty pleas to committing bribery, provided payments to a number of New Brunswick Community
     Planning and Economic Development employees in exchange for monthly rehabilitation contracts,
     expedited and lenient inspections, and accelerated contract payments. In addition, William Walker, the
     former director of New Brunswick Neighborhood Preservation and Housing Rehabilitation, organizations
     that receive HUD CDBG and HOME funds, was debarred from procurement and nonprocurement
     transactions with HUD and throughout the Executive Branch of the Federal Government for 11 months.
     From January 2004 to October 2006, Walker, who was previously sentenced for his earlier guilty plea to
     committing a conspiracy to extort under color of law, soliciting and accepting corrupt payments, and filing
     a false Federal income tax return, accepted $112,500 in bribes in exchange for New Brunswick contracts
     and failed to report these kickbacks on his 2004 Federal income tax return.

                                                        nnn

         Janei Walker, a Healthy Homes and Lead Hazard Control grant recipient through the Buffalo
     Urban Renewal Agency, an organization that receives HUD CDBG and other funds, was debarred from
     procurement and nonprocurement transactions with HUD and throughout the Executive Branch of the
     Federal Government for 36 months. Walker, who was previously sentenced in U.S. District Court, Buffalo,
     NY, for her earlier guilty plea to committing embezzlement and bank fraud and filing false Federal income
     tax returns, provided false information and fraudulently obtained $16,960 in HUD funds.

                                                        nnn

        Ricky Cherry, a former housing manager for Housing First Homeless Coalition, an organization that
     receives HUD SHP funds, was debarred from procurement and nonprocurement transactions with HUD
     and throughout the Executive Branch of the Federal Government for 3 years. From August 2006 to August
     2008, Cherry, who was previously sentenced in U.S. District Court, Mobile, AL, for his earlier guilty plea to
     committing embezzlement, stole $14,179 in tenant rents.

                                                        nnn

          Stacie Billings, the former executive director of Adirondack Veterans House (Adirondack), an
     organization that receives HUD CDBG and SHP funds, was debarred from procurement and nonprocurement
     transactions with HUD and throughout the Executive Branch of the Federal Government for 36 months.
     Billings, who was previously sentenced in Warren County Court, Saratoga, NY, for her earlier guilty plea
     to committing grand larceny, diverted and personally used $11,600 in Adirondack funds.

                                                        nnn




70                                                     Chapter 4 - Community Planning and Development Programs
    Anthony Saccomanno, the former director of the Cherry Hill Department of Code Enforcement and
Inspections (Cherry Hill), an organization that receives HUD CDBG funds, was debarred from procurement
and nonprocurement transactions with HUD and throughout the Executive Branch of the Federal
Government for 36 months. Saccomanno, who was previously sentenced in U.S. District Court, Newark,
NJ, for his earlier guilty plea to committing mail fraud, caused a letter to be mailed after he accepted money
from Building Inspections Underwriters, Inc., a Cherry Hill contractor.

Other Fraud/Crimes
    Josephine Moore, a HUD Community Block Lead Abatement grant recipient through the City of
Rochester, a municipality that receives HUD CDBG funds, was sentenced in U.S. District Court, Rochester,
NY, to 5 years probation and ordered to pay HUD $24,000 in restitution for her earlier guilty plea to committing
theft of government funds. Between March and October 2008, Moore provided false information when
she applied for and fraudulently obtained $24,000 in HUD program funds.

                                                     nnn

    Malcolm Crawford, also known as Calvin Gamble, a former West Valley City Housing Authority Housing
Opportunities for Persons with Aids program recipient, pled guilty in U.S. District Court, Salt Lake City, UT,
to committing mail fraud. From August 1993 to July 2010, Crawford used a number of names and Social
Security numbers belonging to other individuals, failed to report income on housing and other certifications,
and fraudulently obtained about $21,844 in housing assistance and $161,156 in Social Security Administration
and other benefits he was not entitled to receive.

                                                     nnn

    Talbert Davis, a former realtor for Houston Associates Realty, was indicted in Harris County District
Court, Houston, TX, for allegedly tampering with a governmental record. In October 2010, Davis allegedly
provided a forged City of Houston proof of funds letter in an attempt to purchase two HUD real estate-
owned properties for Guiding Light Community Development, a nonprofit organization and Houston NSP
participant. HUD losses have not yet been determined.

                                                     nnn

    Joseph Cardwell, a political consultant for Jersey City, NJ, pled guilty in U.S. District Court, Newark,
NJ, to agreeing to give things of value to a public official with the intent to influence and reward. From
July 2008 to April 2009, Cardwell agreed to accept $30,000 from a government informant posing as a real
estate developer in return for his influence with a public official from Jersey City, NJ, a municipality that
receives HUD CDBG funds.

                                                     nnn

    Vincent Tabbachino, the owner of Tabbachino Associates, was convicted in U.S. District Court,
Newark, NJ, of attempting to commit extortion under color of an official right and giving and offering
a corrupt payment and found not guilty of committing a conspiracy to obstruct commerce by extortion
under color of official right. In addition, Anthony Suarez, the mayor of the Borough of Ridgefield, NJ, was
found not guilty of committing a conspiracy to obstruct commerce by extortion under color of an official
right, attempted extortion under color of an official right, and giving and offering a corrupt payment. From
April to July 2009, Tabbachino agreed to accept $10,000 from a government informant in exchange for his
influence involving commercial and residential real estate projects with the Borough of Ridgefield, NJ, a
HUD-funded municipality.

                                                     nnn

Chapter 4 - Community Planning and Development Programs                                                            71
         Anthony Sharpe, a former HUD Real Estate Assessment Center inspector, current building inspector
     for the City of Detroit, MI, and the owner of Sharpe Environmental, and Moreno Taylor, a former Detroit
     building inspector and the owner of Taylor Environmental Sampling & Testing (Taylor Environmental),
     each pled guilty in U.S. District Court, Detroit, MI, to making false statements to HUD or committing
     mail fraud. Between 2004 and 2007, Sharpe and Sharpe Environmental provided false residential lead
     inspection reports for Wayne Metropolitan Community Action Agency, an organization that receives HUD
     CDBG funding. In addition, Sharpe, Sharpe Environmental, Taylor, and Taylor Environmental created and
     provided false lead inspection reports for HUD-subsidized multifamily housing developments located in
     Cincinnati, OH, or Detroit, MI.

                                                     nnn




72                                                  Chapter 4 - Community Planning and Development Programs
Inspections and Evaluations
    The HUD OIG Office of Investigation’s Inspections and Evaluations activities are designed to promote
economy, efficiency, and effectiveness in the administration of HUD programs; detect and deter fraud and
abuse in HUD programs and operations; and ensure compliance with applicable laws and regulations.
The office conducts inspections and evaluations using various study methods and evaluative techniques
to provide timely information to improve policies, programs, and procedures.

HUD’s Supportive Housing Program - Survey of Grantee Monitoring of
Project Sponsors
    HUD OIG conducted a survey of HUD SHP; specifically, the monitoring of nonprofit subgrantees
(project sponsors) that deliver supportive housing and/or supportive services. The objective was to
assess whether SHP grantees followed Federal regulations and HUD guidance on monitoring project
sponsor activities and program expenditures and to examine HUD’s role in the grantees’ monitoring of
project sponsors. Questionnaires were sent to all 44 HUD CPD regional and field offices and to a sample
of 11 SHP grantees and 12 project sponsors.

    Survey responses indicated that overall HUD was actively providing monitoring guidance to SHP
grantees and that most grantees reported compliance with Federal regulations related to their monitoring
of project sponsors. However, responses to the survey indicated that improvement is warranted in certain
aspects of HUD’s guidance and grantee monitoring.

    Effective oversight and monitoring are crucial to ensuring that SHP funds are properly spent to assist in
the transition of persons out of homelessness. Therefore, HUD should reinforce compliance with Federal
regulations and monitoring guidance and ensure that its monitoring reviews include assessment of SHP
grantee project sponsor management.

                                                   nnn




Chapter 4 - Community Planning and Development Programs                                                         73
Chapter 5 - American Recovery and
Reinvestment Act of 2009
     Introduction and Background
        The U.S. Department of Housing and Urban Development (HUD) has received $13.61 billion in funding
     under the American Recovery and Reinvestment Act of 2009 (ARRA) in several housing program areas.
     Table 1 shows the HUD program areas receiving funding and the amounts appropriated to each program.



                           Table 1: HUD programs receiving ARRA funding
                 Program                                   Area                          Funding amount
      Office of Public and Indian       •	 Public Housing Capital Fund                 $4,000,000,000
      Housing                           •	 Native American Housing Block                $510,000,000
      				                                 Grant                                      			
      	
      Office of Community               •	 Community Development Block                 $1,000,000,000
      Planning and Development             Grant                                      			
                                        •	 Neighborhood Stabilization Program          $2,000,000,000
                                        •	 HOME Investment Partnerships                $2,250,000,000
      					                                Program-Tax Credit Assistance
      				                                 Program
                                        •	 Homelessness Prevention Fund                   $1,500,000,000

      Office of Multifamily Housing     •	 Assisted Housing Stability grant               $2,000,000,000
                                        •	 Green Retrofit grant                            $250,000,000
      				
      Office of Healthy Homes and       •	 Lead Hazard Reduction                           $100,000,000
      Lead Hazard Control                  Demonstration program

                                                                              Total      $ 13,610,000,000



        ARRA also provided $15 million to the HUD Office of Inspector General (OIG). This funding will remain
     available until September 2012. The purpose of the funding is for “oversight and audit of programs,
     grants, and activities funded by this Act and administered by the Department of Housing and Urban
     Development.”

        Through its audit and investigative programs, HUD OIG will constantly tailor and adjust its short- and
     long-term activities for timely and effective oversight of the ARRA funds expended by HUD programs.
     OIG’s plan will be adjusted as the HUD programs develop plans and distribute their ARRA funds. OIG will
     continue outreach and training efforts for the prevention of fraud, waste, and abuse to the Department
     and recipients of ARRA funds.

                                                      nnn




76                                                   Chapter 5 - American Recovery and Reinvestment Act of 2009
Audit
    The Office of Audit has initiated a three-phased approach to conducting related audit work. The
actions it has taken and plans to take will help position it to meet the increased workload under ARRA and
protect the Federal investment over the long term.

  The Office of Audit’s overall oversight objectives for HUD funding under ARRA are to determine
whether

   •	 Funds are awarded and distributed in a prompt, fair, and reasonable manner;
   •	 The recipients and uses of all funds are transparent to the public, and the public benefits of these
      funds are reported clearly, accurately, and in a timely manner;
   •	 Funds are used for authorized purposes, and instances of fraud, waste, error, and abuse are
      mitigated;
   •	 Projects funded under ARRA avoid unnecessary delays and cost overruns; and
   •	 Program goals are achieved, including specific program outcomes and improved results on
      broader economic indicators.

    In the prior semiannual reporting periods, HUD OIG reviewed HUD’s front-end risk assessments,
audited HUD’s formula allocation dictated in ARRA programs, and assessed the administrative capacity
of selected grantees to effectively administer ARRA funds. During this semiannual reporting period, OIG’s
focus has shifted from the capacity assessments to audits of the grantee expenditures. OIG has also
started to focus on HUD’s oversight activities.

    The following section demonstrates the audit work that has been completed during this reporting
period.


           Strategic Initiative 3: Contribute to the strengthening of communities
 Key program results                             Questioned costs              Funds put to better use
       Audit              19 audits*                $4.7 million                           ---
        Our                 Page 78         •	 Public Housing Capital Fund audits and reviews
       focus                Page 81         •	 Community Development Block Grant audits and reviews
                            Page 81         •	 Tax Credit Assistance Program
                            Page 83         •	 Homelessness Prevention and Rapid Re-housing Program

* The total ARRA-related audits consist of community planning and development and public and Indian housing
audits. The questioned costs and funds put to better use amounts relate only to ARRA-related costs.




Chapter 5 - American Recovery and Reinvestment Act of 2009                                                    77
         In addition to the audits described in this chapter, HUD OIG, has conducted a number of outreach
     efforts (see chapter 8, page 119).

     Office of Public and Indian Housing Audits and Reviews

     Public Housing Capital Fund Audits and Reviews

         HUD OIG audited the Housing Authority of the City of New Haven, CT, to determine whether the
     Authority (1) obligated its Public Housing Capital Fund Stimulus Recovery Act Funded formula grant funds
     for eligible projects/activities, (2) properly supported obligations and expenditures, (3) had adequate
     controls over obligations and expenditures, and (4) procured contracts in accordance with ARRA
     requirements and HUD rules and regulations.

         Overall, the Authority obligated its formula grant funds for eligible activities, supported its obligations,
     and had adequate controls over the obligation and expenditure process. However, it did not always
     procure contracts in accordance with ARRA and Federal requirements that involved more than $1.4
     million of its $6 million in ARRA funds. Specifically, the Authority could not show cost reasonableness for
     vacancy reduction contracts and did not obtain competitive bids for the renovations. As a result, ARRA
     funds may not have been used efficiently, and the maximum number of vacant housing units may not
     have been returned to service.

         The Authority also did not properly obligate and execute its ARRA physical needs assessment contract.
     The contract was not properly obligated because it included a $60,000 contingency for additional work
     that may have required expenditure; thus, the Authority was not obligated to spend ARRA funds. The
     contract was not properly executed because the Authority used the contingency for a study that was not
     included in the contract scope of work and, thus, was not an eligible contract cost.

         OIG recommended that HUD require the Authority to support the cost reasonableness or repay any
     amounts it cannot support from the ARRA capital funds spent for vacancy reduction contracts. OIG
     also recommended that the Authority improve its procurement controls to include obtaining appropriate
     procurement training and fully implementing procurement requirements regarding cost estimates,
     cost analysis, and competitive bids. OIG further recommended that HUD require the Authority to pay
     for the Section 8 conversion study from non-ARRA funds and ensure that the contingency is expended
     according to the contract; however, if eligible costs cannot be identified, the funds should be recaptured
     in accordance with ARRA. (Audit Report: 2011-BO-1003)

                                                          nnn

        HUD OIG audited the Housing Authority of the City of Shreveport, LA’s ARRA funds to determine
     whether fund obligations the Authority made between January 30 and March 17, 2010, were appropriate,
     prudent, eligible, and supported and whether procurements were made in accordance with requirements.

          The Authority mismanaged its ARRA funds by entering into imprudent contracts to meet the March
     17, 2010, obligation deadline. In addition, it could not provide assurance that the contracts were properly
     awarded or managed. By selecting an activity for expediency purposes instead of prioritizing capital work
     in its best interest, the Authority inefficiently and ineffectively managed more than $1.5 million in ARRA
     funding.




78                                                      Chapter 5 - American Recovery and Reinvestment Act of 2009
    OIG recommended that HUD (1) require the Authority to deobligate more than $1.1 million in ARRA
funds and (2) recapture and rescind the deobligated funds and deposit those funds with the U. S. Treasury
in accordance with ARRA as amended. (Audit Report: 2011-FW-1001)

                                                     nnn

    HUD OIG audited the Housing Authority of the City of Port Arthur, TX’s Public Housing Capital Fund
Stimulus Recovery Act Funded activities to determine whether (1) Public Housing Capital Fund formula
grant obligations made between January 30 and March 17, 2010, were appropriate, prudent, eligible,
and supported and (2) related procurements were made in accordance with 24 CFR (Code of Federal
Regulations) Part 85 and ARRA requirements. Additionally, OIG assessed the Authority’s compliance with
ARRA reporting and environmental review requirements.

     The Authority’s ARRA obligation was not appropriate, prudent, eligible, and supported because
its related procurement was not made in accordance with 24 CFR Part 85 and ARRA requirements.
The Authority violated procurement requirements designed to ensure full and open competition and
reasonable cost and did not practice sound financial controls over the grant. As a result, the Authority’s
obligation of its nearly $726,000 ARRA grant and its resulting expenditures were ineligible. In addition, the
Authority did not comply with ARRA environmental review reporting requirements, and it commenced
site work for its project before receiving environmental clearance to proceed.

    OIG recommended that HUD rescind the Authority’s ARRA grant, including the nearly $68,000
expended, and return the entire allocation to the U. S. Treasury for the sole purpose of deficit reduction.
HUD should also ensure that the Authority complies with procurement requirements, adopts adequate
financial controls, and complies with environmental review requirements. OIG further recommended
that HUD prohibit the Authority from conducting further site work until it receives environmental clearance
to do so, regardless of the funding source. (Audit Report: 2011-FW-1005)

                                                     nnn

    HUD OIG audited the Housing Authority of the City of Los Angeles, CA’s Public Housing Capital Fund
grant awarded under ARRA to evaluate the Authority’s capacity in the areas of internal controls, eligibility,
financial controls, procurement, and output/outcomes in administering its ARRA funds.

    The Authority generally had adequate capacity to manage and administer its ARRA funding. However,
OIG identified various weaknesses that could impact the Authority’s ability to effectively manage and
administer its ARRA funding in the most economical and efficient manner. Specifically, the Authority
(1) did not properly procure two of its contracts or evaluate compliance with requirements for a third
contract, (2) failed to include all provisions required by 24 CFR 85.36(i) for five of its contracts, (3) did not
record its employees’ time accurately and consistently in its manual and Oracle time cards, (4) did not
develop sufficient written policies and procedures to monitor for Davis-Bacon compliance, and (5) did
not maintain documentation to show that Davis-Bacon certified payrolls were received and reviewed for
compliance.

    OIG recommended that HUD (1) require the Authority to provide support showing the eligibility and
reasonableness of more than $369,000 disbursed for the repair of 12 fire-damaged units at Nickerson
Gardens or reimburse this amount to its ARRA program, as appropriate, from non-Federal funds; (2)
closely monitor the intergovernmental purchasing agreement transactions of the Authority for the quarters
ending December 31, 2010, March 31, 2011, and June 30, 2011, to ensure that it follows HUD’s and its own
procurement requirements; (3) implement procedures to ensure that it includes all mandatory contract




Chapter 5 - American Recovery and Reinvestment Act of 2009                                                          79
     provisions as required by 24 CFR 85.36(i); (4) rescind the Authority’s HA-2006-047 Home Depot contract
     and require the Authority to rebid it in compliance with 24 CFR 85.36(c) and its own internal procurement
     policy; and (5) monitor the Authority to ensure that it implements the procedures it has in place to establish
     project numbers before beginning work at each development. OIG also recommended that HUD require
     the Authority to (1) reallocate the payroll of force account employees in the Oracle system to the correct
     project numbers between September 12, 2009, and February 12, 2010, and (2) develop and implement
     formal written policies and procedures to assist staff in monitoring for Davis-Bacon compliance. (Audit
     Report: 2011-LA-1002)

                                                         nnn

         HUD OIG audited the West Memphis Housing Authority in West Memphis, AR, to determine whether
     ARRA obligations the Authority made between January 30 and March 17, 2010, were appropriate, prudent,
     eligible, and supported and whether procurements and disbursements were made in accordance with
     requirements.

         Generally, the Authority complied with ARRA requirements regarding the obligation of capital funds,
     including complying with procurement requirements. However, it did not comply with all requirements
     and could strengthen its controls. OIG recommended actions to correct overobligations and strengthen
     controls. (Audit Report: 2011-FW-1004)

                                                         nnn

        HUD OIG audited the Jersey City, NJ, Housing Authority’s administration of its Public Housing Capital
     Fund program funded under ARRA to determine whether the Authority obligated and expended its ARRA
     capital funds in accordance with HUD regulations.

        Authority officials generally complied with HUD regulations; however, weaknesses existed in the
     Authority’s financial management system. Specifically, (1) it was difficult to trace the drawdowns to the
     source documentation, (2) Authority officials charged their ARRA Public Housing Capital Fund program
     with more expenses than were incurred, and (3) costs were miscategorized. Consequently, HUD was
     precluded from effectively and efficiently monitoring and evaluating the Authority’s administration of its
     ARRA capital funds.

         OIG recommended that HUD instruct Authority officials to (1) improve their financial controls and
     accounting procedures to ensure that drawdowns can be traced to source documentation as required by
     HUD regulations; (2) develop procedures to ensure that drawdowns are made only on a reimbursement
     basis so that the specific costs paid are identified for each drawdown; (3) reimburse more than $5,000
     from non-Federal funds to the ARRA Public Housing Capital Fund program; (4) reimburse more than
     $13,000 to the dwelling structure line item from the administrative costs line item and correct the financial
     records in HUD’s Line of Credit Control System to ensure that the proper categories were charged; and
     (5) develop procedures to improve the accounting system and internal controls to ensure that funds are
     drawn down and used as budgeted and financial reports are accurate, current, and complete. (Audit
     Report: 2011-NY-1007)

                                                         nnn

         HUD OIG audited the ARRA Public Housing Capital Fund program obligations of the Housing Authority
     of East Baton Rouge Parish in Baton Rouge, LA, to determine whether the Authority met HUD and ARRA
     requirements when obligating and expending funds it received under ARRA.




80                                                     Chapter 5 - American Recovery and Reinvestment Act of 2009
    Overall, the Authority generally ensured that it met HUD and ARRA requirements. Specifically, it
obligated ARRA capital funds for eligible projects, maintained proper support for its obligations, and
ensured that it had adequate management controls over its obligation process. In addition, the Authority’s
ARRA projects were in progress, and it appeared that the Authority would spend its ARRA funds within
the required timeframes. However, it did not always ensure that ARRA expenditures were eligible. As a
result, the Authority spent nearly $14,000 for ineligible costs. It corrected the transaction that generated
the ineligible costs and charged the costs to the appropriate funding source.

   OIG recommended that HUD require the Authority to develop and implement adequate written
accounting policies, which include procedures for processing and paying invoices, to ensure that ARRA
funds are properly spent and accounted for. (Audit Report: 2011-AO-1003)

Office of Community Planning and Development Audits and
Reviews

Community Development Block Grant Audits and Reviews

    HUD OIG audited the City of Pittsburgh, PA’s administration of its Community Development Block
Grant funds that it received under ARRA to determine whether the City administered its street resurfacing
and neighborhood business and economic development activities funded with ARRA funds according to
the requirements of ARRA and applicable HUD rules and regulations.

    Although the City generally administered its street resurfacing and neighborhood business and
economic development activities funded with ARRA funds according to ARRA requirements and
applicable HUD rules and regulations, it can improve its administration of the funds. The City (1) did
not comply with HUD guidance for implementing the “buy American” provision of ARRA, (2) could not
demonstrate that jobs created in part by $400,000 in loaned funds benefitted or would benefit low- and
moderate-income persons, (3) did not include a statement of work in its subrecipient agreement with the
Urban Redevelopment Authority, and (4) did not accurately post the number of jobs created or retained
to the Federal reporting Web site.

    OIG recommended that HUD require the City to (1) develop and implement controls to ensure that a
“buy American” provision is included in requests for applications or proposals, subrecipient agreements,
bidding documents, and contracts funded with ARRA funds; (2) provide documentation to demonstrate
that funds loaned to two companies will comply with national objective criteria and benefit low- and
moderate-income persons; (3) amend its subrecipient agreement with the Urban Redevelopment
Authority to include a specific description of the work to be performed, a schedule for completing the
work, and a detailed budget; and (4) develop and implement controls to ensure that ARRA job creation
data it posts to the Federal reporting Web site are accurate. (Audit Report: 2011-PH-1006)

Tax Credit Assistance Program
   HUD OIG audited the Pennsylvania Housing Finance Agency because it received $95.1 million in Tax
Credit Assistance Program (TCAP) funds under ARRA. The objective was to determine whether the
Agency administered its program in accordance with ARRA and applicable HUD requirements.

  The Agency generally administered its program in accordance with ARRA and HUD requirements.
However, it incurred ineligible costs totaling nearly $136,000 and could not support costs totaling nearly




Chapter 5 - American Recovery and Reinvestment Act of 2009                                                     81
     $152,000. In addition, it did not obtain required lobbying certifications from contractors and subcontractors,
     and it understated the job creation information that it posted to the Federal reporting Web site.

         OIG recommended that HUD require the Agency to reimburse its program for the ineligible costs and
     provide documentation to support the unsupported costs identified by the audit or reimburse its program
     from non-Federal funds for any costs that it cannot support. In addition, the Agency should obtain the
     required lobbying certifications from contractors and subcontractors and develop and implement controls
     to ensure that accurate job information is posted to the Federal reporting Web site. (Audit Report: 2011-
     PH-1003)

                                                         nnn

        HUD OIG audited the Washington State Housing Finance Commission in Seattle, WA, to determine
     whether the Commission established eligible grant projects, entered TCAP information into Recovery.gov
     accurately and completely, and paid eligible TCAP expenditures in accordance with ARRA requirements.

         The Commission complied with the applicable ARRA and HUD rules and regulations in establishing
     eligible grant projects and in entering TCAP information into the Federal reporting Web site. However,
     it did not always disburse TCAP funds in accordance with program requirements. The Commission
     reimbursed two project owners for ineligible permanent loan fees, appraisal fees, and unsupported legal
     costs.

         OIG recommended that HUD require the Commission to (1) reimburse more than $170,000 to its
     U.S. Treasury line of credit from non-Federal funds for the ineligible expenditures, (2) provide supporting
     documentation for more than $17,000 in unsupported costs or reimburse its U.S. Treasury line of credit
     from non-Federal funds, and (3) establish and implement written policies and procedures for the review
     and approval of budgets and draw requests. (Audit Report: 2011-SE-1002)

                                                         nnn

         HUD OIG audited the Virginia Housing Development Authority in Richmond, VA, to determine whether
     the Authority administered its TCAP in accordance with ARRA and applicable HUD requirements.

       The Authority generally administered TCAP in accordance with ARRA and HUD requirements.
     However, it did not obtain lobbying certifications as required by ARRA.

        OIG recommended that the Authority obtain lobbying certifications from its TCAP contractors and
     subcontractors. It took immediate corrective action during the audit to obtain the required certifications.
     (Audit Report: 2011-PH-1001)

                                                         nnn

        HUD OIG audited the TCAP funds awarded to the West Virginia Housing Development Fund in
     Charleston, WV, under ARRA to determine whether the Fund administered its program in accordance
     with ARRA and applicable HUD requirements. The Fund generally administered TCAP in accordance
     with ARRA and HUD requirements. However, it did not report 38 full-time equivalents (FTE) created
     during the first three quarters of 2010.

         OIG recommended that HUD require the Fund to maintain the FTE data that were not reported until
     the Federal Government requests the information. (Audit Report: 2011-PH-1008)




82                                                     Chapter 5 - American Recovery and Reinvestment Act of 2009
Homelessness Prevention and Rapid Re-Housing Program
     HUD OIG audited the City and County of San Francisco, CA, to determine whether the City disbursed
its Homelessness Prevention and Rapid Re-Housing Program (HPRP) funding in accordance with program
requirements.

    The City paid for HPRP services for ineligible participants and participants whose eligibility was not
supported. It also paid for ineligible activities. Of 31 case files reviewed, 4 participants were ineligible,
and 10 did not have adequate documentation to support eligibility. OIG also identified 17 additional
participants that the City had reviewed during monitoring whose eligibility was not adequately supported.

    OIG recommended that HUD require the City to (1) reimburse the program nearly $9,000 from non-
Federal funds for the ineligible participants and activities and determine and reimburse any amounts
that have been spent since the audit for these participants; (2) provide supporting documentation for
participants’ eligibility or reimburse its program accounts more than $31,000 for participants reviewed
who lacked adequate documentation and determine and reimburse any amounts that have been spent
since the audit for these participants; (3) provide supporting documentation for participants’ eligibility or
reimburse its program accounts more than $23,000 based on the City’s monitoring review and determine
and reimburse any amounts that have been spent since the audit for these participants; (4) develop
and implement procedures to ensure that its subgrantees verify and document participant eligibility in
accordance with HPRP requirements; and (5) develop and implement effective monitoring procedures
to ensure, at a minimum, that reviews are timely, deficiencies and corrections are clearly documented,
and reimbursements for ineligible participants or participants whose eligibility cannot be determined are
repaid to the program. (Audit Report: 2011-LA-1005)

                                                   nnn

    HUD OIG audited the HPRP at the City of Los Angeles, CA, Housing Department to determine whether
the Department was efficiently and effectively administering its HPRP grant funds in compliance with
ARRA and other applicable requirements. Specifically, OIG wanted to determine whether the Department
had adequate policies and procedures in place to ensure that program expenditures were supported with
adequate documentation and subrecipients were monitored to ensure compliance with all applicable
regulations.

     The Department did not always efficiently and effectively administer its grant funds in compliance
with ARRA and other applicable requirements. It did not ensure that expenditures were supported with
adequate source documentation. Further, its policies and procedures were not adequate to ensure that
its subrecipients complied with contractual requirements, maintained source documents for program
expenditures, and received adequate monitoring for compliance with Federal requirements.

     OIG recommended that HUD require the Department to (1) revise its policies and procedures to
ensure that adequate source documentation is reviewed before disbursing HPRP funds and (2) enforce
the Homeless Program services contract between itself and the Los Angeles Homeless Services Authority
to ensure that the Authority collects, reviews, and maintains adequate source documentation from all
of its subrecipients, thereby reducing the risk of fraud, waste, and abuse. Further, OIG recommended
that the Department revise its policies and procedures to ensure that the day-to-day activities of all
subrecipients are monitored during the grant term to ensure compliance with HPRP and other applicable
Federal requirements. (Audit Report: 2011-LA-1001)

                                                   nnn




Chapter 5 - American Recovery and Reinvestment Act of 2009                                                      83
     Investigations
        The investigations shown below were conducted jointly with Federal, State, or local law enforcement
     agencies.

         George and Elias Saad, Kristijan Kajtna, and Harlene Grullon were each indicted in U.S. District Court,
     Boston, MA, for allegedly making false statements in Federal Housing Administration (FHA) transactions,
     submitting false claims, and committing wire fraud and a conspiracy to defraud the United States. From
     2008 to 2011, George Saad and Harlene Grullon allegedly provided false information used by Elias Saad,
     Kristijan Kajtna, and other straw borrowers who fraudulently obtained FHA-insured mortgages and “First
     Time Homebuyer Tax Credits” funded by ARRA. HUD losses have not yet been determined.

                                                       nnn

         Jerry Janvier and Theresa Finocchio, a current Boston Housing Authority public housing tenant and
     former unauthorized resident; Junior Lopez; Christopher Proe; and five additional individuals were each
     indicted in U.S. District Court, Boston, MA, for allegedly committing a conspiracy to defraud the United
     States or making false claims. From 2009 to 2011, Lopez and Proe allegedly misused identification
     information belonging to other individuals, including a number of HUD-subsidized housing recipients,
     and submitted more than $600,000 in fraudulent ARRA-funded First Time Homebuyer Tax Credit claims.
     In addition, Janvier, Finocchio, and the remaining defendants allegedly submitted false information and
     documents, fraudulently claimed property ownership, and unlawfully obtained First Time Homebuyer
     Tax Credits.

                                                       nnn

         Ashley King, a HUD HPRP applicant through the Fair Housing Resource Center, and Curtis White each
     pled guilty in U.S. District Court, Cleveland, OH, to making false statements. In March 2010, King and
     White provided false information and fraudulent documents when they applied for $1,300 in housing
     assistance.

                                                       nnn




84                                                    Chapter 5 - American Recovery and Reinvestment Act of 2009
Inspections and Evaluations
    The HUD OIG Office of Investigation’s Inspections and Evaluations activities are designed to promote
economy, efficiency, and effectiveness in the administration of HUD programs; detect and deter fraud and
abuse in HUD programs and operations; and ensure compliance with applicable laws and regulations.
The office conducts inspections and evaluations using various study methods and evaluative techniques
to provide timely information to improve policies, programs, and procedures.

Use of American Recovery and Reinvestment Act of 2009 Funds by the
Housing Authority of the City of Fort Myers, FL
    HUD OIG conducted an inspection to address concerns of OIG senior management regarding the
Housing Authority of the City of Fort Myers’ (HACFM) use of ARRA funds to construct a new administration
building. Specifically, OIG wanted to determine (1) whether HACFM could use ARRA funds to construct
a new administration building and (2) whether HACFM used ARRA funds to purchase furniture and
equipment for the new administration building and if so, whether this was an eligible activity.

    OIG determined that HACFM could use ARRA funds and its fiscal year public housing capital funds
for the construction of a new administration building. Also, HACFM did not use ARRA funds to purchase
furniture and equipment for the new administration building. These purchases were made from other
eligible funding sources.

   OIG made no recommendations for corrective action.

                                                   nnn




Chapter 5 - American Recovery and Reinvestment Act of 2009                                                 85
Chapter 6 - Disaster Grant Programs
     Introduction and Background
          As the U.S. Department of Housing and Urban Development (HUD) provides recovery assistance
     through Community Development Block Grant (CDBG) funds, which are made available from supplemental
     appropriations for major disasters declared by the President, the Office of Inspector General (OIG) continues
     its oversight role. Over the past several years, HUD has allocated more than $29.4 billion to various States
     through its CDBG program. These active disaster grants nationwide have $24.5 billion in obligations
     and $19.2 billion in disbursements. Regarding the $19.6 billion in funds provided to Gulf Coast States for
     Hurricane Katrina, $15.6 billion, or 79.6 percent, of the funds has been disbursed for the period ending
     March 31, 2011. These Disaster Recovery grants are used to rebuild the affected areas and provide crucial
     seed money to start the recovery process. A significant management challenge for HUD is to ensure that
     States have the accountability controls in place to ensure that limited resources are used appropriately.

        HUD OIG continues to take steps to ensure that the Department remains diligent in assisting communities
     with their recovery efforts. During the current semiannual period, Office of Audit completed two Hurricane
     Katrina audits and two audits of other disasters. For the four audits, OIG questioned costs of $2.8 million
     and provided recommendations for management improvements.

                                                        nnn




88                                                                             Chapter 6 - Disaster Grant Programs
Audit
    During this period, OIG’s Office of Audit issued four audit reports on various HUD disaster programs.
The reviews covered the CDBG disaster programs. HUD provides disaster assistance through the CDBG
program, which is made available from supplemental appropriations for recovery from major disasters
declared by the President. These reviews were performed by HUD OIG Office of Audit regional offices:
(1) two by the Gulf Coast office (Region XI), (2) one by the Fort Worth, TX, office (Region VI), and (3) one
by the New York, NY, office (Region II).


 Key program results                               Questioned costs                Funds put to better use
       Audit                4 audits*                  $2.8 million                             ---

* The total disaster audits, questioned costs, and funds put to better use amounts include four audits conducted in
the community planning and development area.



    HUD OIG audited the HUD CDBG Supplemental Disaster Recovery program funds administered by
the State of Louisiana, Office of Community Development, in Baton Rouge, LA, to determine whether
the State ensured that disbursements to participants were eligible and supported under its Small Rental
Property Program.

    In general, the State ensured that disbursements to program participants were eligible and supported
by following the program policies and procedures and adequately documenting the program participants’
eligibility.

   Since the State generally ensured that disbursements to program participants were eligible and
supported, OIG did not recommend corrective action. (Audit Report: 2011-AO-1001)

                                                       nnn

    HUD OIG audited the HUD CDBG Supplemental Disaster Recovery program funds administered by the
State of Louisiana, Office of Community Development, in Baton Rouge, LA, to determine whether the
State ensured that disbursements made under its First Time Homebuyer Program complied with Federal
regulations and the cooperative endeavor agreement with its subrecipient, the Finance Authority of New
Orleans.

   The State did not always ensure that disbursements made under its program complied with Federal
regulations and the agreement. Specifically, disbursements to program participants were not always eligible
and supported. As a result, the State disbursed $268,415 for ineligible program costs and was unable to
support more than $1.2 million in program costs.

    In addition, the State disbursed funds to the Finance Authority on a fee-per-loan basis, which was
unallowable. It also did not ensure that the findings in its monitoring reviews were resolved before
continuing disbursements to the Finance Authority. As a result, it disbursed more than $1.3 million for
unallowable costs and did not have assurance that costs were reasonable or necessary. Further, the State
did not have reasonable assurance that the Finance Authority used every opportunity to (1) maximize the
disaster funds and (2) increase the number of individual families that were served by the program.




Chapter 6 - Disaster Grant Programs                                                                                   89
         OIG recommended that HUD require the State to (1) repay its program for the ineligible costs, (2)
     support or repay its program for the unsupported costs, and (3) support or repay its program for the funds
     disbursed to the Finance Authority on a fee-per-loan basis and cease payment of the fee per loan to the
     Finance Authority. (Audit Report: 2011-AO-1002)

                                                       nnn

          HUD OIG audited the HUD CDBG Supplemental II Disaster Recovery program funds administered by the
     Texas Department of Housing and Community Affairs (TDHCA) to determine whether TDHCA monitored
     its program management firm to ensure compliance with Federal and State regulations and to ensure
     that costs reimbursed for the Housing Assistance Program and the Sabine Pass Restoration Program were
     adequately supported.

         TDHCA’s monitoring activities provided assurance that its program management firm generally complied
     with Federal and State regulations. Further, TDHCA’s reviews and monitoring generally ensured that program
     costs submitted for reimbursement by the firm were adequately supported. However, in a minor instance
     of noncompliance, TDHCA allowed the firm to budget and receive reimbursement for a $71,691 markup
     for “admin fees on subcontractors,” calculated using a “cost plus a percentage of cost method” that is not
     allowed under CDBG rules. TDHCA had originally questioned the costs but later allowed them because
     contractor staff provided support that made the expenditures seem plausible.

         OIG recommended that HUD require TDHCA to recover from its program management firm all “admin
     fees on subcontractors” costs, reimburse its HUD Disaster Recovery program accounts for those costs,
     and continue to monitor and review program disbursements for the ineligible cost plus a percentage of
     cost payments. (Audit Report: 2011-FW-1006)

                                                       nnn

          HUD OIG audited the Lower Manhattan Development Corporation’s (LMDC) administration of the $2.783
     billion in CDBG Disaster Recovery Assistance funds provided to the State of New York in the aftermath of
     the September 11, 2001, terrorist attacks on the World Trade Center in New York City, NY, to determine
     whether LMDC disbursed CDBG Disaster Recovery Assistance funds for the Economic Development and
     East River Waterfront programs in accordance with the guidelines established under its action plans.

         LMDC officials generally disbursed the funds reviewed in accordance with applicable action plans.
     However, documentation for the award of Small Firm Assistance Program grants, administered under
     the Economic Development Program, was not always adequate to ensure that grants were awarded
     in accordance with LMDC guidelines. Further, additional program requirements could provide greater
     assurance that program objectives will be achieved.

        OIG recommended that HUD direct LMDC officials to (1) strengthen Small Firm Assistance Program
     processing controls to ensure that adequate documentation is maintained for the basis of awarding
     grants, thus providing greater assurance that any grants awarded from the $3.1 million authorized under a
     subrecipient agreement but not yet expended will be adequately supported, and (2) consider administrative
     changes that might better ensure that program objectives will be met. (Audit Report: 2011-NY-1005)

                                                       nnn




90                                                                           Chapter 6 - Disaster Grant Programs
Investigation
    The HUD OIG Office of Investigation continues to pursue HUD disaster assistance crimes with other
law enforcement agencies, including the Federal Bureau of Investigation and other Federal, State, and
local partners. While the majority of prosecutions during this reporting period involved individuals who
obtained disaster assistance through fraud, OIG is vigorously pursuing public corruption, infrastructure,
and procurement crimes. Working with the Louisiana Recovery and Mississippi Development Authorities,
OIG is taking a proactive role to prevent fraudulent disaster-related claim payments and to assist with the
recovery of deceptive or fraudulent grants. In addition, HUD OIG continues to be a dedicated partner in
the National Center for Disaster Fraud Task Force (previously known as the Hurricane Katrina Fraud Task
Force). HUD OIG provides personnel to support the joint command center in Baton Rouge, LA, continues
to support disaster-related investigative efforts throughout the country, and actively participates in the
sharing of information and the receipt and referral of complaints with other law enforcement agencies.

Homeowner Grant Fraud
    Judy Carter was charged in U.S. District Court, Gulfport, MS, with allegedly making false statements
and committing theft of government funds and mail and wire fraud. Carter applied for and received
$300,000 in CDBG Disaster Recovery Assistance funds through the Mississippi Development Authority
(MDA) and $49,517 in Federal Emergency Management Agency (FEMA) disaster assistance on behalf of
another individual for hurricane-damaged residential property, but allegedly the damaged property was
not their primary residence during Hurricane Katrina.

                                                  nnn

    Robert and Chressye Wallace were collectively sentenced in U.S. District Court, New Orleans, LA,
to 18 months incarceration and 72 months supervised release and ordered to pay the Louisiana Road
Home (Road Home) program $233,015 in restitution for their earlier guilty pleas to committing theft of
government funds. Robert and Chressye Wallace applied for and received $150,000 in CDBG Disaster
Recovery Assistance funds through the Road Home program for hurricane-damaged residential property,
but the damaged property was not their primary residence during Hurricane Katrina.

                                                  nnn

    Former HUD attorney Diane Walder and her husband James Groomes were collectively sentenced
in U.S. District Court, Gulfport, MS, to 8 years probation and ordered to perform 80 hours of community
service and pay the Small Business Administration (SBA) $25,000 in restitution for their earlier guilty
pleas to committing theft of government funds. Walder and Groomes applied for and received $150,000
in CDBG Disaster Recovery Assistance funds through MDA and $50,000 in SBA disaster assistance for
hurricane-damaged residential property, but the damaged property was not their primary residence
during Hurricane Katrina.

                                                  nnn

    Lionel Perkins was sentenced in U.S. District Court, New Orleans, LA, to 78 months incarceration and
3 years supervised release and ordered to pay the Road Home program $115,000, SBA $48,138, FEMA
$5,514, and others $57,317 in restitution for his earlier guilty plea to obstructing justice and committing
theft of government funds; identity theft; and wire, health care, Social Security Administration (SSA),
and Medicaid fraud. Perkins applied for and received $150,000 in CDBG Disaster Recovery Assistance




Chapter 6 - Disaster Grant Programs                                                                           91
     funds through the Road Home program and caused the Road Home administrator to remit $58,500 in
     CDBG funds to repay his SBA disaster assistance loan for hurricane-damaged residential property, but the
     damaged property was not his primary residence during Hurricane Katrina. In addition, Perkins applied
     for and fraudulently obtained SSA, food stamps, Medicaid, and other health care benefits.

                                                             nnn

        Ellaine Mullone pled guilty in U.S. District Court, New Orleans, LA, to committing theft of government
     funds. Mullone applied for and received $150,000 in CDBG Disaster Recovery Assistance funds through the
     Road Home program, $219,000 in SBA disaster assistance, and $26,676 in FEMA assistance for hurricane-
     damaged residential property, but the damaged property was not her primary residence during Hurricane
     Katrina.




             Copyright 2011. The Times-Picayune, New Orleans, LA Reprinted with permission.


                                                             nnn

         Ruth Goodman was sentenced in U.S. District Court, New Orleans, LA, to 37 months incarceration
     and 36 months probation and ordered to pay the Road Home program and others $476,904 in restitution
     for her earlier guilty plea to making false statements, committing theft of government funds and mail
     fraud, and possessing a false passport. Goodman applied for and received $132,146 in CDBG Disaster
     Recovery Assistance funds through the Road Home program and $342,000 in SBA disaster assistance
     for hurricane-damaged residential property, but the damaged property was not her primary residence
     during Hurricane Katrina. In addition, Goodman submitted false documents to FEMA and possessed a
     fraudulent passport.

                                                             nnn

         Casey Adams entered into a pretrial diversion filed in U.S. District Court, New Orleans, LA, and agreed
     to repay the Road Home program $10,000. Adams admitted that he applied for and received $130,000



92                                                                                     Chapter 6 - Disaster Grant Programs
in CDBG Disaster Recovery Assistance funds through the Road Home program for hurricane-damaged
residential property that was not his primary residence during Hurricane Katrina.

                                                  nnn

   Gerald and Michael Haydel were each charged in U.S. District Court, Jackson, MS, with allegedly
making false statements and committing theft of government funds and mail fraud. Gerald and Michael
Haydel applied for and received $92,856 in CDBG Disaster Recovery Assistance funds through MDA
and $22,373 in FEMA disaster assistance for hurricane-damaged residential property, but allegedly the
damaged property was not their primary residence during Hurricane Katrina.

                                                  nnn

    LaTanicia McMillan-Rogers and Wayne Rogers were collectively sentenced in U.S. District Court,
Jackson, MS, to 27 months incarceration and 6 years supervised release and ordered to pay HUD, FEMA,
and SBA $247,379 in restitution for their earlier guilty pleas to committing theft of government funds.
LaTanicia McMillan-Rogers and Wayne Rogers applied for and received $91,021 in CDBG Disaster Recovery
Assistance funds through MDA and $156,358 in SBA and FEMA disaster assistance for hurricane-damaged
residential property, but the damaged property was not their primary residence during Hurricane Katrina.

                                                  nnn

    William Turnage, Jr., paid the Louisiana Office of Community Development $76,355 in restitution and
a $5,000 fine and was sentenced in U.S. District Court, New Orleans, LA, to 18 months probation for his
earlier guilty plea to making a false statement. Turnage applied for and received $89,355 in CDBG Disaster
Recovery Assistance funds through the Road Home program and $12,500 in FEMA disaster assistance for
hurricane-damaged residential property, but the damaged property was not his primary residence during
Hurricane Katrina.

                                                  nnn

    Gordon Guidry was sentenced in U.S. District Court, Gulfport, MS, to 12 months incarceration and 2
years supervised release, ordered to perform 100 hours of community service and pay MDA $69,742 and
FEMA $10,688 in restitution, and fined $5,000 for his earlier guilty plea to making false statements and
committing theft of government funds. Gordon and previously sentenced Mary Guidry applied for and
received $69,742 in CDBG Disaster Recovery Assistance funds through MDA and $10,688 in FEMA disaster
assistance for hurricane-damaged residential property, but the damaged property was not their primary
residence during Hurricane Katrina.

                                                  nnn

    Rosalyn Kelsey was charged in U.S. District Court, Jackson, MS, with allegedly making false statements
and committing theft of government funds and mail fraud. Kelsey applied for and received $64,875 in
CDBG Disaster Recovery Assistance funds through MDA for hurricane-damaged residential property, but
allegedly the damaged property was not her primary residence during Hurricane Katrina.

                                                  nnn

   Michelle Carroll and Steven Gardner were collectively sentenced in U.S. District Court, Gulfport,
MS, to 45 months incarceration and 48 months supervised release and ordered to perform 160 hours of
community service and jointly pay MDA $63,105 in restitution for their earlier guilty pleas to committing




Chapter 6 - Disaster Grant Programs                                                                          93
     mail fraud or aggravated identity theft. Carroll and Gardner applied for and received $63,105 in CDBG
     Disaster Recovery Assistance funds through MDA for hurricane-damaged residential property as husband
     and wife, but Carroll and Gardner were not married, and Carroll provided fraudulent identity and other
     documents to obtain the funds.

                                                       nnn

         Hubert Sentino was sentenced in U.S. District Court, New Orleans, LA, to 6 months home confinement
     and 5 years probation, ordered to pay the Road Home program $60,000 in restitution, and fined $5,000 for
     his earlier guilty plea to committing theft of government funds. Sentino applied for and received $60,000
     in CDBG Disaster Recovery Assistance funds through the Road Home program for hurricane-damaged
     residential property, but the damaged property was not his primary residence during Hurricane Katrina.

                                                       nnn

         Annette Stallworth was charged in U.S. District Court, Gulfport, MS, with allegedly making false
     statements and committing theft of government funds. Stallworth applied for and received $53,790
     in CDBG Disaster Recovery Assistance funds through MDA and $38,800 in SBA disaster assistance for
     hurricane-damaged residential property, but allegedly the damaged property was not her primary
     residence during Hurricane Katrina.

                                                       nnn

        Carlas Williams pled guilty in U.S. District Court, Baton Rouge, LA, to making false statements.
     Williams provided false income information when she applied for and received $51,449 in CDBG Disaster
     Recovery Assistance funds through the Road Home program and $98,000 in SBA disaster assistance for
     hurricane-damaged residential property.

                                                       nnn

         David and Cindy Cole were collectively sentenced in U.S. District Court, Gulfport, MS, to 39 months
     incarceration and 6 years supervised release and ordered to pay MDA and FEMA $70,025 in restitution
     for their earlier guilty pleas to committing theft of government funds and mail fraud. David and Cindy
     Cole applied for and received $46,695 in CDBG Disaster Recovery Assistance funds through MDA for
     hurricane-damaged residential property, but the damaged property was not their primary residence
     during Hurricane Katrina.

                                                       nnn

         Anthony Spears, Sr., was charged in U.S. District Court, Gulfport, MS, with allegedly committing theft
     of government funds and mail fraud. Spears applied for and received $23,452 in CDBG Disaster Recovery
     Assistance funds through MDA and $128,858 in SBA and FEMA disaster assistance for hurricane-damaged
     residential property, but allegedly the damaged property was not his primary residence during Hurricane
     Katrina.

                                                       nnn

         Barbara Dennis was sentenced in U.S. District Court, Gulfport, MS, to 3 years probation and ordered
     to perform 70 hours of community service and pay FEMA $23,883 in restitution for her earlier guilty plea
     to committing theft of government funds. Dennis applied for and received $23,883 in FEMA disaster
     assistance and attempted to obtain $48,452 in CDBG Disaster Recovery Assistance funds through MDA for
     hurricane-damaged residential property, but the damaged property was not her primary residence during
     Hurricane Katrina.

94                                                                           Chapter 6 - Disaster Grant Programs
HUD and FEMA Disaster Housing Assistance Fraud
    Alicia Watt, a former Dupage Housing Authority (Dupage) Section 8 tenant and FEMA Disaster
Housing Assistance program participant, was sentenced in U.S. District Court, Chicago, IL, to 21 months
incarceration and 5 years probation and ordered to pay HUD $34,359, FEMA $29,751, and SSA $50,482 in
restitution for her earlier guilty plea to committing mail fraud. From 2005 to 2009, Watt failed to report
her receipt of FEMA disaster housing assistance on Dupage housing and other certifications and obtained
$34,359 in housing and $80,233 in other assistance she was not entitled to receive.

                                                   nnn

    Zaimah Muhammad, a former Kansas City Housing Authority Disaster Housing Assistance program
participant and FEMA disaster assistance recipient, pled guilty in U.S. District Court, Kansas City, MO, to
committing theft of government funds. From December 2005 to July 2007, Muhammad submitted false
information and documents and fraudulently obtained $10,243 in housing and $17,977 in FEMA disaster
assistance.

                                                   nnn

    Alicia Williams, a Houston Housing Authority Disaster Housing Assistance program participant, was
sentenced in Harris County District Court, Houston, TX, to 3 years supervised release and ordered to
perform 120 hours of community service and pay HUD $5,336 in restitution for her earlier guilty plea
to committing theft. From April to November 2006, Williams failed to report her nonresidency in her
subsidized unit and obtained $5,336 in housing assistance she was not entitled to receive.

                                                   nnn

    Johnny Watson, a former Minnesota Housing Finance Agency (Minnesota) Section 8 tenant and FEMA
disaster housing recipient, was indicted in U.S. District Court, Minneapolis, MN, for allegedly making false
claims and committing mail fraud. In addition, former Minnesota Section 8 tenant Jovanta Schaffer pled
guilty to making a false claim and committing mail fraud. From September 2006 to April 2008, Watson
and Schaffer applied for and received more than $65,000 in FEMA disaster housing assistance after they
claimed Hurricane Katrina evacuee status, but Watson allegedly and Schaffer admittedly resided in a
Minnesota subsidized housing unit during the storm.

                                                   nnn

    Lee and Gayland Ridley, Montgomery County Housing Authority (Montgomery County) Section 8
landlords, were each indicted in U.S. District Court, Norristown, PA, for allegedly making false statements
to HUD and FEMA. From March to November 2007, Lee and Gayland Ridley allegedly received dual
housing subsidies on behalf of Hurricane Katrina housing recipients and failed to report their receipt of
$8,100 in FEMA assistance on Montgomery County certifications.

Other Fraud
   Tynisa Cobb, a former employee of First American Title Insurance Corporation, a HUD contractor
responsible for Louisiana Road Home grant disbursements, was charged in Louisiana State Court, New
Orleans, LA, with allegedly committing theft. In December 2007, Cobb allegedly embezzled $50,000 in
Road Home program funds awarded to another individual.

                                                   nnn


Chapter 6 - Disaster Grant Programs                                                                            95
Chapter 7 - Other Significant Audits
and Investigations/OIG Hotline
         In addition to the audits and investigations described in this chapter, the U.S. Department of Housing
     and Urban Development (HUD), Office of Inspector General (OIG), has conducted a number of outreach
     efforts (see chapter 8, page 121).



     Audit
                    Strategic Initiative 4: Contribute to improving HUD’s execution
                        and accountability of fiscal responsibilities as a relevant
                      and problem-solving advisor to the Department’s execution
      Key program results                            Questioned costs               Funds put to better use
            Audit              12 audits                $3.2 million                       $754 million
             Our                Page 98         •	 Audit of HUD’s financial statements
            focus              Page 100         •	 FHA financial statements
                               Page 100         •	 Audit of the Government National Mortgage Association’s
                         			                       financial statements
                          Page 100              •	 Evaluation of Federal Information Security Management
                         			                       Act of 2002
                          Page 101              •	 Evaluation of HUD’s information technology services
                         			                       contracts
                          Page 101              •	 Evaluation of ACORN Associates, Inc.
                               Page 102         •	 Review of reducing improper payments
                               Page 102         •	 Review of HUD’s hiring process
                               Page 102         •	 Review of HUD’s efforts to rehost financial applications
                               Page 103         •	 Review of HUD’s controls over selected configuration
                                                   management activities




        HUD OIG’s more significant audits are discussed below.

     Audit of HUD’s Financial Statements
         HUD OIG provided additional details to supplement the Report on HUD’s Fiscal Years 2010 and 2009
     Financial Statements, which is included in HUD’s Fiscal Year 2010 Agency Financial Report. Based on
     the audit and the reports of other auditors, the financial statements were presented fairly, in all material
     respects, in conformity with accounting principles generally accepted in the United States of America.

        OIG identified the following significant deficiencies in internal controls related to the need to

         •	 Have financial management systems comply with the Federal Financial Management
            Improvement Act of 1996 (FFMIA);
         •	 Improve the processes for reviewing obligation balances;




98                                                Chapter 7 - Other Significant Audits and Investigations/OIG Hotline
     •	 Continue improvements in the oversight and monitoring of subsidy calculations, intermediaries’
        program performance, and use of Housing Choice Voucher program funds;
     •	 Establish internal controls over Office of Community Planning and Development grantees’
        compliance with program requirements;
     •	 Improve administrative control of funds;
     •	 Further strengthen controls over HUD’s computing environment;
     •	 Improve personnel security practices for access to the Department’s critical financial systems;
     •	 Effectively monitor modernization efforts and existing systems to mitigate near-term financial
        reporting risks; and
     •	 Mitigate increased risks to management estimates caused by economic conditions and
        inherent model design.

   OIG’s findings included the following four instances of noncompliance with applicable laws and
regulations:

     •	 HUD did not substantially comply with FFMIA regarding system requirements;
     •	 HUD did not substantially comply with the Antideficiency Act;
     •	 HUD did not substantially comply with laws and regulations governing claims of the United
        States Government; and
     •	 The Federal Housing Administrations’s (FHA) Mutual Mortgage Insurance Fund capitalization
        was not maintained at a minimum capital ratio of 2 percent, which is required under the
        Cranston-Gonzalez National Affordable Housing Act of 1990.

    The audit also identified $341 million in excess obligations recorded in HUD’s records.

    OIG recommended that $27.5 million not be expended as originally intended and reprogrammed by
the grantee and that HUD seek legislative authority to implement $385 million in offsets against public
housing agencies’ (PHA) excess unusable funding held in net restricted assets accounts at the PHAs. These
amounts represent funds that HUD could put to better use. (Audit Report: 2011-FO-0003)

                                                       nnn

    HUD OIG reviewed general and application controls for selected information systems to assess
management controls over HUD’s computing environments as part of the OIG audit of HUD’s financial
statements for fiscal year (FY) 2010 under the Chief Financial Officer’s Act of 1990. The review was based
on the Government Accountability Office’s “Federal Information Systems Controls Audit Manual” and
information technology (IT) guidelines established by the Office of Management and Budget (OMB) and
the National Institute of Standards and Technology. (Audit Report: 2011-DP-0004)

                                                       nnn

    HUD OIG audited HUD’s ability to comply with the requirements of OMB Circular A-127. OIG conducted
the audit as a component of the audit of HUD’s consolidated financial statements for FY 2010 under the
Chief Financial Officer’s Act of 1990.

    HUD did not fully comply with the requirements of OMB Circular A-127. Specifically, HUD had not
(1) initiated plans to review financial management systems for compliance with computer security and




Chapter 7 - Other Significant Audits and Investigations/OIG Hotline                                          99
      internal control guidelines and (2) accurately identified its financial management systems within its financial
      system inventory listing. Additionally, although progress had been made, OIG continued to have concerns
      regarding HUD’s integrated core financial system.

          OIG recommended that HUD take appropriate steps to move into compliance with the requirements
      of OMB Circular A-127. (Audit Report: 2011-DP-0003)

      FHA Financial Statements
         Clifton Gunderson (CG) audited the FY 2010 and 2009 financial statements of FHA.

          CG provided an unqualified opinion on FHA’s financial statements and reported two significant
      deficiencies in FHA’s internal controls and one reportable instance of noncompliance with laws and
      regulations. It made eight new recommendations and discussed the issues/conditions in detail, provided
      an assessment of management’s responses to the report, and recommended corrective actions. CG
      also noted other matters involving internal control and operations that were not material to the financial
      statements and were communicated separately to FHA’s management. (Audit Report: 2011-FO-0002)

      Audit of the Government National Mortgage Association’s Financial
      Statements
          Carmichael, Brasher, Tuvell, and Company (CBTC) audited the Government National Mortgage
      Association’s (Ginnie Mae) financial statements for the fiscal years ending September 30, 2010, and 2009.
      In CBTC’s opinion, the financial statements presented fairly, in all material respects, Ginnie Mae’s financial
      position as of September 30, 2010, and September 30, 2009, and the results of its operations and its cash
      flows for the years then ended in conformity with accounting principles generally accepted in the United
      States of America.

          CBTC did not identify any deficiencies in internal control over financial reporting that might be considered
      significant deficiencies or material weaknesses. CBTC issued a separate letter to management regarding
      other less significant matters that came to its attention during the audit. (Audit Report: 2011-FO-0001)

      Evaluation of Federal Information Security Management Act of 2002
          HUD OIG audited HUD’s information security program because it is a required component of OIG’s FY
      2010 consolidated financial statements audit and its annual evaluation of HUD’s information system security
      program in accordance with the Federal Information Security Management Act of 2002. OIG evaluated
      whether HUD had developed security policies, implemented procedures, and continuously monitored its
      entitywide information system security program.

         HUD had continued its progress in implementing a comprehensive, entitywide information system
      security program. Specifically, HUD’s Office of Chief Information Officer (OCIO) had successfully certified
      and accredited its major application and general support systems; responded to and resolved reported
      computer incidents in a timely manner; conducted contingency plan testing; and tracked, prioritized, and
      remediated weaknesses identified in the plan of actions and milestones reports.

         OIG also found several matters that require management’s attention and recommended that OCIO
      improve overall policies and procedures with regard to entitywide security measures. (Audit Report:
      2011-DP-0005)




100                                                  Chapter 7 - Other Significant Audits and Investigations/OIG Hotline
Evaluation of HUD’s Information Technology Services Contracts
    HUD OIG audited HUD’s management and contractors’ performance of the HUD information technology
services (HITS) contracts. OIG reviewed (1) the services provided by the contractors based on HUD’s
core functional business needs, (2) the levels of contractor performance as outlined in the contracts, (3)
HUD’s management of the HITS contracts, and (4) compliance with applicable Federal requirements.
(Audit Report: 2011-DP-0001)

Evaluation of ACORN Associates, Inc.
   HUD OIG audited ACORN Associates, Inc., in New Orleans, LA, regarding its use of its FY 2004 and
2005 Lead Elimination Action Program grant funds to determine whether Associates expended program
funds in accordance with HUD’s requirements.

     Associates inappropriately expended more than $3.2 million from its FY 2004 and 2005 grants for the
elimination of lead poisoning in its housing program. It paid program funds of more than $3 million to
affiliate and nonaffiliate organizations without properly procuring their services and did not include the funds
in a HUD-approved grant budget. For its 2004 and 2005 grants, Associates failed to (1) properly procure
the services of 19 affiliate and 20 nonaffiliate organizations through free and open competition, (2) retain
records and files documenting the basis for contractor selection, (3) justify the lack of competition and
basis for the award cost, (4) ensure that it obtained the lowest, most reasonable cost, and (5) enter into a
contract with each organization that performed an activity to accomplish grant goals. Additionally, it did not
have adequate supporting documentation for disbursements to 11 affiliate and 4 nonaffiliate organizations.

    Also, program funds were not used for approved purposes. Associates used program funds for purposes
not identified in its grant applications’ detailed budgets. The unapproved uses included campaign services,
grant fundraising activities, lead-based paint remediation work, payroll taxes and workmen’s compensation
insurance, communication services, and financial- and audit-related expenditures for services performed
by affiliate and nonaffiliate organizations. Further, improper expenses for bank service fees were disbursed
from program funds. The repayment of total questioned costs will not exceed the amount of the funds
drawn from Associates’ 2004 and 2005 grants.

    OIG recommended that HUD require Associates to (1) provide procurement documentation or
reimburse HUD from non-Federal funds more than $3.2 million in program funds, (2) provide documentation
or reimburse HUD from non-Federal funds for nearly $218,000 in unsupported disbursements, and (3)
reimburse HUD from non-Federal funds nearly $1.2 million for the unapproved and improper use of
program funds. OIG also recommended that HUD withdraw Associates’ ability to draw down the more
than $750,000 in program funds remaining in its grants.

    Further, OIG recommended that HUD pursue appropriate administrative sanctions against Associates’
officers for their failure to adequately manage the program grants. (Audit Report: 2011-CH-1002)

Review of Reducing Improper Payments
   HUD OIG conducted an annual limited scope review of HUD’s compliance with Presidential Executive
Order (EO) 13520, Reducing Improper Payments.

    HUD was in general compliance with EO 13520 annual reporting requirements. Its ongoing efforts in
mitigating the risks of improper payments in the rental housing assistance programs were progressing
in a positive direction. However, some areas were identified, in which HUD could make enhancements
related to disclosure and procedural issues and strengthen its improper payment reduction strategies.



Chapter 7 - Other Significant Audits and Investigations/OIG Hotline                                                101
          OIG recommended that HUD (1) consider full disclosure of the error estimates related to public housing
      through a footnote disclosure in the performance accountability report and accountable official report to
      comply with the EO and OMB Memorandum M-10-13 requirements, (2) test the operating effectiveness
      of monitoring controls related to Office of Public and Indian Housing and Office of Housing supplemental
      measures as part of HUD’s annual OMB Circular A-123 assessment reviews, (3) establish and implement
      supplemental measures to address the ongoing issue of tenant overdue recertifications in the public
      housing and public housing voucher programs, (4) perform the required analysis to document its basis for
      arriving at annual and quarterly improper payment reduction goals and to establish 3-year supplemental
      targets to fully comply with EO 13520 and OMB Memorandum M-10-13 requirements, and (5)strengthen
      the transparency of the estimation methodology by incorporating additional information or analysis into
      the HUD contractor quality control study’s final report. (Audit Report: 2011-FO-0004)

      Review of HUD’s Hiring Process
         HUD OIG audited HUD’s process for hiring employees in accordance with Office of Personnel
      Management (OPM) guidelines to determine whether HUD effectively hired employees in accordance
      with OPM guidelines for streamlining the Federal hiring process.

          HUD generally hired employees in accordance with OPM’s 80-day timeframe goal for the Federal
      hiring cycle. HUD had made improvements that reduced its average cycle time for hiring employees
      by approximately 37 percent between FY 2008 and 2010 and met the staffing needs of HUD’s four
      Homeownership Centers within the confines of authorized staffing levels.

         OIG made no recommendations. (Audit Report: 2011-PH-0001)

      Review of HUD’s Efforts to Rehost Financial Applications
          HUD OIG audited HUD’s efforts to rehost important financial applications from the Unisys mainframe
      computing platform to the UNIX open system platform. This audit was initiated based upon work
      performed during the FY 2009 review of information system security controls in support of the annual
      financial statements audit.

         OIG identified weaknesses in the planning and execution of the rehost project. Although HUD had
      processes and procedures in place for managing and monitoring IT system development projects,
      improvements were needed. Specifically, better upfront planning was needed for the Unisys rehost project.

         OIG recommended that HUD ensure that its system development methodology is used in all IT
      development projects and verify contractor capabilities before the initiation of IT development projects.
      (Audit Report: 2011-DP-0002)

      Review of HUD’s Controls Over Selected Configuration Management
      Activities
         HUD OIG audited HUD’s controls over selected configuration management (CM) activities. This audit
      was based on work performed during OIG’s FY 2009 and 2010 reviews of information system security
      controls in support of the annual financial statement audits, during which weaknesses in security controls
      over selected CM activities were identified.

         HUD had processes and procedures for managing the configurations of systems in its computing
      environment. However, those procedures were not always followed. Specifically, (1) CM documentation




102                                               Chapter 7 - Other Significant Audits and Investigations/OIG Hotline
for the eTravel and Integrated Disbursement and Information System Online systems was outdated, and
(2) HUD did not consistently follow its own Configuration Change Management Board (CCMB) review
and approval process.

    OIG recommended that HUD (1) update its CM plans and ensure that contractor support staff reviews
application CM documentation at least annually and updates the documentation when changes occur and
(2) ensure that all products running on the HUD IT infrastructure are CCMB approved and that products
selected for pilot testing are CCMB approved before conducting the tests. (Audit Report: 2011-DP-0006)

                                                       nnn




Chapter 7 - Other Significant Audits and Investigations/OIG Hotline                                      103
                                                                                                                          10

      Investigations
                     Strategic Initiative 4: Contribute to improving HUD’s execution
                         and accountability of fiscal responsibilities as a relevant
                       and problem-solving advisor to the Department’s execution
          Key program                Cases                   $              Convictions/pleas/        Admin/civil
             results                 closed              recovered              pretrials              actions

          Investigations               30                  $95,787                    8                     4


         The investigation shown below was conducted jointly with Federal, State, and local law enforcement
      agencies.

          James Dunn, the president of Lamp Stand Institute (Lamp Stand), was sentenced in U.S. District Court,
      Houston, TX, to 27 months incarceration and 3 years supervised release and ordered to pay an unnamed
      victim $46,519 in restitution for his earlier guilty plea to misuse of a government seal. Between November
      2008 and May 2009, Dunn created a fake HUD “notice of grant award” letter with a HUD seal and fraudulently
      used the bogus letter to swindle money and property from a number of victims.

      Correction to Previous Report
          HUD OIG’s Semiannual Report to Congress, No. 55, HUD-2006-03-OIG, which covered the period
      October 1, 2005, to March 31, 2006, incorrectly indicated that Toulu Thao, a HUD housing specialist, was
      indicted in U.S. District Court, Eastern District of California, Fresno, CA, for allegedly receiving $125,000
      from organizations doing business with HUD and failing to disclose the income and business arrangements
      and/or business agreements on his OGE (Office of Government Ethics) Form 450. The indictment, in
      actuality, charged Thao with failing to report the receipt of a total of $12,700 in outside income and failing
      to report his outside position, employment, and/or business arrangement with an entity doing business
      with HUD. The charges relating to Thao’s alleged failure to disclose outside employment and/or business
      arrangements with an entity doing business with HUD were ultimately dropped because the entity at issue
      did not receive money from or do business with HUD.

                                                          nnn




104                                                 Chapter 7 - Other Significant Audits and Investigations/OIG Hotline
05
     Inspections and Evaluations
         The HUD OIG Office of Investigation’s Inspections and Evaluations activities are designed to promote
     economy, efficiency, and effectiveness in the administration of HUD programs; detect and deter fraud and
     abuse in HUD programs and operations; and ensure compliance with applicable laws and regulations.
     The office conducts inspections and evaluations using various study methods and evaluative techniques
     to provide timely information to improve policies, programs, and procedures.

     HUD’s Departmental Enforcement Center’s Compliance Division,
     Evaluation of Suspension and Debarment Referrals
         HUD OIG conducted an evaluation of HUD’s Departmental Enforcement Center (DEC), specifically
     the Compliance Division, to (1) determine whether DEC processed suspension and debarment referrals
     in a timely manner and (2) identify ways to improve case management for suspensions and debarments.
     Between October 1, 2006, and December 9, 2009, the Compliance Division received a total of 978 suspension
     and/or debarment referrals (cases) from HUD OIG, various HUD program offices, and the U.S. Department
     of Justice.

         A review of 62 cases disclosed that suspension and debarment referrals were not processed in a
     timely manner and Federal requirements for entry of suspended or debarred individuals or entities were
     not met. Delays in the processing of suspension and debarment actions and late entry of information on
     excluded individuals or entities into the Excluded Parties List System ultimately place HUD and other Federal
     agencies at an increased risk of awarding contracts, grants, and other subsidies to unethical, dishonest,
     and irresponsible parties. Further, DEC’s record-keeping system for suspensions and debarments needed
     improvement.

         To improve the effectiveness of HUD’s administrative sanctions program, steps must be taken by DEC
     to ensure that suspension and debarment actions are processed consistently and in a timely manner.

         OIG recommended that DEC develop formalized written policies and procedures for the Compliance
     Division and departmentwide guidance. Also, a uniform record-keeping system that provides for a complete
     historical record of the suspension and debarment process should be established.

                                                           nnn




     Chapter 7 - Other Significant Audits and Investigations/OIG Hotline                                             105
      OIG Hotline
          The HUD OIG hotline is operational 5 days a week, Monday through Friday, from 10:00 a.m. to 4:30
      p.m. The hotline is staffed by seven full-time OIG employees, who take allegations of waste, fraud, abuse,
      or serious mismanagement in HUD or HUD-funded programs from HUD employees, contractors, and
      the public. The hotline also coordinates reviews with internal audit and investigative units or with HUD
      program offices.

          During this reporting period, the hotline received and processed 8,177 complaints – 59 percent
      (4,856) received by telephone, 5 percent (464) by mail, and 35 percent (2,857) by e-mail. Every allegation
      determined to be related to the OIG mission is logged into a database and tracked.

         Of the complaints received, 489 were related to the mission of OIG and were addressed as hotline cases.
      Hotline cases are referred to OIG’s Offices of Audit and Investigation or to HUD program offices for action
      and response. The following illustration shows the distribution of hotline case referrals by percentage.



                              Chart 7.1: Hotline cases opened by program area




                                                                                  Public and Indian housing, 62%
                                                                                  Multifamily housing, 12%
                                                                                  Community planning and
                                                                                  development, 3%
                                                                                  OIG audit and investigation, 15%
                                                                                  Single-family housing, 4%
                                                                                  Other, 4%




           The hotline closed 209 cases this reporting period. The closed hotline cases included 42 substantiated
      allegations. The substantiated allegations resulted in 19 administrative sanctions, including action
      taken against a tenant for failing to report all income and allowing unauthorized live-ins to reside in her
      HUD-subsidized residence. The Department also took 30 corrective actions that resulted in $48,202 in
      recoveries of losses and $799,973 in HUD funding that could be put to better use. The recoveries included
      repayments of overpaid rental subsidies. Some of the funds that could be put to better use were the
      result of cases in which tenants were terminated from public housing or multifamily housing programs
      for improperly reporting their incomes or family composition to qualify for rental assistance.




106                                                Chapter 7 - Other Significant Audits and Investigations/OIG Hotline
                       Chart 7.2: Hotline dollar impact from program offices



                                $758,501
     $800,000

     $700,000

     $600,000

     $500,000

     $400,000

     $300,000

     $200,000                                $45,832                      $41,472
                                                                                       $2,370
     $100,000

           $0
                          Public and Indian housing                    Multifamily housing

                                Funds put to better use           Recoveries




                                                       nnn




Chapter 7 - Other Significant Audits and Investigations/OIG Hotline                             107
Chapter 8 - Outreach Efforts
          To foster cooperative, informative, and mutually beneficial relationships with agencies and organizations
      assisting the U.S. Department of Housing and Urban Development (HUD) in accomplishing its mission, the
      Office of Inspector General (OIG) participates in special outreach efforts. The outreach efforts described
      below complement routine coordination with Federal, State, and local law enforcement agencies; various
      congressional committees or subcommittees; and other OIGs. During outreach efforts, OIG personnel
      present information about HUD OIG’s role and function, provide audit and investigative results, and discuss
      desired goals and objectives.

      Single-Family Housing Programs
           Deputy Assistant Inspector General for Audit (DAIGA) for Special Operations Joan Hobbs, Civil Fraud
      Division Director Kim Randall, Regional Inspector General for Audit (RIGA) Heath Wolfe, and Supervisory
      Forensic Auditor (SFA) Muhammad Akhtar met with the Chief of the Civil Division of the Northern District
      of Illinois, Eastern Division, in Chicago, IL. DAIGA Hobbs described HUD OIG’s new Civil Fraud Division
      and its pursuit of civil actions, particularly with regard to mortgage fraud. The group discussed current and
      potential cases and the recent focus on foreclosure fraud. The HUD OIG staff members expressed their
      plan to look for civil action potential with each criminal case and to continually look for opportunities to
      work cases as parallel proceedings.

                                                         nnn

         Special Agent in Charge (SAC) Barry McLaughlin and RIGA Heath Wolfe provided an overview of HUD
      OIG’s Civil Fraud Division and described audit expectations, mortgage fraud and prevention methods, and
      current mortgage fraud trends at a Mainstreet Organization of Realtors meeting in Downers Grove, IL.
      Approximately 60 realtors attended or participated through a simulcast broadcast.

                                                         nnn

          SAC Breck Nowlin and RIGA Heath Wolfe provided an overview of HUD OIG’s investigative role and
      responsibilities and described the Office of Audit civil enforcement initiative, mortgage fraud, and OIG’s
      actions to address the foreclosure crisis at a meeting held in Columbus, OH, with personnel from the
      Ohio Attorney General’s Office.

                                                         nnn

          RIGA John Dvorak, SAC Cortez Richardson, Assistant Regional Inspector General for Audit (ARIGA)
      Mike Motulski, and Assistant Special Agents in Charge (ASAC) Gene Westland and Michael Wixted met
      in Concord, NH, with Attorney General Michael Delaney, his deputy Mike Finch, and Karen Gorham,
      an attorney for the Consumer Protection Bureau, to explain the role of HUD OIG, develop lines of
      communication, and provide information on the organizational structure and the functions of the Offices
      of Audit and Investigation. The discussion also included exchanging information regarding mortgage fraud
      efforts and the State’s role in the national investigation into “robo-signing.” The challenges faced were
      discussed, including the significant influx of HUD Federal Housing Administration (FHA) mortgages and
      identification of fraud. Other items discussed included HUD’s Neighborhood Watch, recent relevant State
      legislation regarding licensing of mortgage companies within the State, and the State’s willingness to share
      information on FHA mortgage fraud when identified. Additionally, HUD OIG audit and investigation results
      and experience in pursuing fraud were shared. The presentation provided the opportunity to explore the
      possibility of leveraging resources and sharing information between organizations.

                                                         nnn




110                                                                                     Chapter 8 - Outreach Efforts
    SAC Barry McLaughlin and ARIGA Kelly Anderson provided an overview of HUD OIG’s Office of Audit
and Civil Fraud Division and described mortgage fraud trends, enforcement efforts, and investor protection
tips at a Chicago Area Real Estate Investors Association meeting in Glendale Heights, IL. Approximately
50 association members attended.

                                                   nnn

    RIGA John Dvorak, SAC Cortez Richardson, and ASACs Gene Westland and Michael Wixted met with
attorneys Scott Schaefer and Jean Hillary from the Attorney General’s Office’s Consumer Protection
Division in Boston, MA, to explain the role of HUD OIG, develop lines of communication, and provide
information on OIG’s organizational structure and the functions of the Offices of Audit and Investigation.
The discussion included exchanging information regarding mortgage fraud efforts and the State’s role in
the national investigation into robo-signing. Other information was exchanged, including how to identify
FHA mortgages, relevant State legislation regarding a restriction on the sharing of mortgage information
received though the State’s civil investigative disclosure process, the State’s willingness to identify areas
in which OIG could assist in pursuing foreclosure fraud, and the possibility of establishing an agreement
to work together and share information including potential foreclosure fraud involving FHA mortgages.
The presentation provided the opportunity to explore the possibility of leveraging resources and sharing
information between organizations.

                                                   nnn

    SAC Barry McLaughlin provided an overview of HUD programs and HUD OIG and described mortgage
fraud and current fraud schemes at a meeting in Chicago, IL, sponsored by the Federal Reserve Bank.
Approximately 25 Federal law enforcement and regulatory personnel attended.

                                                   nnn

    RIGA John Dvorak, SAC Cortez Richardson, ASAC Gene Westland, and ARIGA Kristen Ekmalian met
in Montpelier, VT, with Deputy Attorney General Janet Murane and Assistant Attorneys General Wendy
Morgan and Elliot Burg to explain the role of HUD OIG, develop lines of communication, and provide
information on OIG’s organizational structure and the functions of the Offices of Audit and Investigation.
The meeting included an exchange of information regarding mortgage fraud efforts and the State’s role in
the national investigation into robo-signing. Other information exchanged included the State’s interest in
pursuing servicers’ misconduct in unfair foreclosure practices. The meeting provided the opportunity to
explore the possibility of leveraging resources and sharing information between organizations.

                                                   nnn

    SAC Kenneth Taylor provided an overview of foreclosure scams and prevention options and described
the HUD OIG hotline and the reporting of fraud, waste, and abuse as a panelist at a foreclosure prevention
event in Riverdale, MD, sponsored by the Coalition for Homeowner Preservation. Approximately 25
homeowners facing foreclosure attended.

                                                   nnn

    RIGA Heath Wolfe, SAC Nowlin, and ARIGA Ronald Farrell met with the U.S. Attorney for the Southern
District of Ohio, the Chiefs of the Civil and Criminal Divisions, and the First Assistant U.S. Attorney in
Columbus, OH. RIGA Wolfe described HUD OIG’s new Civil Fraud Division and its pursuit of civil actions,
particularly with regard to mortgage fraud. The group discussed current and potential cases and the recent
focus on foreclosure fraud. RIGA Wolfe, SAC Nowlin, and ARIGA Farrell discussed their plan to look for




Chapter 8 - Outreach Efforts                                                                                    111
      civil action potential with each criminal case and to continually look for opportunities to work cases as
      parallel proceedings.

                                                           nnn

          SAC Wayne North, ASAC Jim Siwek, and Special Agent (SA) Dana Papesh provided an overview of
      HUD OIG and described mortgage fraud trends, “red flag” indicators, and OIG’s role in mortgage fraud
      investigations at an Eastside Regional Escrow Association meeting in Bellevue, WA. Approximately 100
      escrow agents attended.

                                                           nnn

          RIGA John Dvorak, SAC Cortez Richardson, ASAC Gene Westland, and ARIGA Mike Motulski met in
      Augusta, ME, with Assistant Attorney General Linda Conti, head of the Consumer Protection Division,
      to explain the role of HUD OIG, develop lines of communication, and provide information on OIG’s
      organizational structure and the functions of the Offices of Audit and Investigation. Discussion included
      the State’s mortgage fraud efforts and role in the national investigation into robo-signing. Other information
      exchanged included OIG’s interest in pursuing servicers’ misconduct in unfair foreclosure practices and
      the possibility of the State’s providing OIG information on any FHA loans that are being foreclosed. The
      meeting provided the opportunity to explore the possibility of leveraging resources for both criminal and
      civil actions.

                                                           nnn

           Civil Fraud Division Director Kim Randall met with two assistant United States attorneys (AUSA) from
      the Western District of Missouri, Civil Division, in Kansas City, MO. The attorneys specialize in affirmative
      civil enforcement actions (primarily using the False Claims Act), civil mortgage fraud, and financial litigation
      cases. Director Randall described HUD OIG’s new Civil Fraud Division and its pursuit of civil actions against
      those that commit fraud against HUD programs, particularly with regard to mortgage fraud. The attorneys
      offered their services and expressed their desire to work with HUD OIG on mortgage fraud cases.

                                                           nnn

          Civil Fraud Division Director Kim Randall and SFA Fran Ranzie met in New York City, NY, with the Civil
      Division of the U.S. Attorney’s Office for the Southern District of New York. Director Randall described
      HUD OIG’s new Civil Fraud Division and how HUD OIG expects to work civil actions with HUD and the
      U.S. Department of Justice. The U.S. Attorney’s Office described its new unit that will handle HUD civil
      fraud cases and expressed its desire to focus on mortgage fraud cases. The group also discussed several
      ongoing civil cases and the best protocols to employ to bring about effective coordination and outcomes.

                                                           nnn

          ARIGA Ed Schmidt, SAC Wayne North, and ASAC Jim Siwek met with several officials from the State
      of Washington Attorney General’s offices located in Seattle, WA. The parties explained their respective
      interests and positions relating to the current foreclosure crisis. SAC North and ARIGA Schmidt offered to
      work with the Washington Attorney General’s office on FHA foreclosure issues.

                                                           nnn

         ASACs Brad Geary and Ray Espinosa provided presentations, entitled “Introduction to Mortgage Fraud,”
      “The Mortgage Process,” and “Mortgage Fraud Schemes,” during a mortgage fraud training seminar in




112                                                                                       Chapter 8 - Outreach Efforts
Milwaukee, WI, sponsored by the U.S. Attorney’s Office. Approximately 80 Federal, State, and local law
enforcement personnel and banking institution representatives attended.

                                                   nnn

   ASAC James Luu provided an overview of HUD OIG and the FHA program at a mortgage fraud conference
sponsored by the American Conference Institute in San Francisco, CA. Approximately 50 financial institution
representatives, attorneys, and law enforcement personnel attended.

                                                   nnn

    ASAC Brad Geary and Federal Bureau of Investigation (FBI) intelligence analyst Christa Greco provided
an overview of FHA and HUD Home Equity Conversion Mortgage (HECM) programs and described property
flipping, deed thefts, and current trends in short sales at a CoreLogic meeting in Chicago, IL. Approximately
50 financial institution representatives attended.

                                                   nnn

    ASAC Lisa Gore and SA James Fincher provided an overview of HUD and HUD OIG’s mission and
goals, described the functions of the Offices of Investigation and Audit, and discussed HUD program and
mortgage fraud and the Real Estate Settlement Procedures Act (RESPA) at an ethics seminar sponsored
by the Tennessee Land Title Association in Nashville, TN. Approximately 40 title attorneys and closing
agents attended.

                                                   nnn

   ASACs Brad Geary and Ray Espinosa provided an overview of HUD OIG and described various home
buying and rental assistance strategies for about 100 individuals attending a National Consumer Protection
event in Hammond, IN.

                                                   nnn

   ASAC Edwin Bonano and SA Scott Tanchak provided an overview of HUD OIG’s mission and goals and
described FHA and HECM programs and fraud schemes at a Collateral Risk Network convention in Fort
Lauderdale, FL. Approximately 40 appraisers and mortgage professionals attended.

                                                   nnn

    ASAC Brad Geary provided a presentation, entitled “The Role of Bankruptcy in Single Family Fraud
Prosecutions,” and described bankruptcy fraud schemes, Federal statutes, and “red flag” fraud indicators at
a meeting held in Chicago, IL, for members of the Association of Government Accountants. Approximately
25 individuals attended.

                                                   nnn

    ARIGA Tracey Vargas and ASAC Jim Siwek met in Boise, ID, with staff from the Idaho Attorney General’s
Office. The discussion focused on the recent foreclosure crisis and specifically addressed the issue of robo-
signing. It was agreed that the offices would keep each other informed with respect to work performed
in Idaho dealing with FHA foreclosures.

                                                   nnn



Chapter 8 - Outreach Efforts                                                                                    113
         ASAC Brad Geary and HUD Quality Assurance Division Field Supervisor Charles Martinez provided an
      overview of FHA mortgage fraud, “red flag” indicators, and mortgage fraud schemes and described the
      HUD Quality Assurance Division and quality assurance review expectations for Harris Bank employees
      meeting in Rolling Meadows, IL. Twelve employees responsible for the management, servicing, and
      quality control of the bank’s FHA-insured mortgage portfolio attended.

                                                          nnn

          Senior Auditor Chad Gagon and Auditor Stacey Streeter gave a presentation to approximately 300
      realtors at the 2010 Las Vegas Realtor Summit in Las Vegas, NV. Auditor Streeter discussed the new HUD
      OIG office in the Las Vegas area and HUD OIG’s mission, roles, and responsibilities. Senior Auditor Gagon
      discussed the results of recent single-family audits and recent HUD OIG mortgage fraud initiatives. The
      event panel consisted of Freddie Mac’s chief economist, a certified appraiser, loan officers, a legal analyst,
      HUD officials, and HUD OIG.

                                                          nnn

          SA Steve Tsourkas provided an overview of HUD OIG’s mission, goals, and priorities and described the
      functions of the Office of Investigation and current mortgage fraud trends at meetings held in Cleveland,
      Columbus, and Cincinnati, OH, for members of the Ohio Land Title Association. Collectively, about 400
      individuals attended.

                                                          nnn

          SAs Christina Scaringi and Elizabeth Peralta provided an overview of the FHA program and mortgage
      fraud, described mortgage fraud schemes, and illustrated the process for detecting and preventing fraud
      and selecting and conducting investigations at a New York Association of Mortgage Brokers conference
      in Melville, NY. Approximately 120 mortgage industry representatives attended.

                                                          nnn

         SAs Carissa Barnes and David Smith provided an overview of HUD OIG’s mission and role in FHA
      mortgage fraud and described mortgage fraud detection and prevention strategies at an “Instructor
      Development” workshop during a Utah Real Estate Mortgage and Appraiser Education seminar in Salt
      Lake City, UT. Approximately 90 individuals attended.

                                                          nnn

          SA Heather Yannello and AUSA Kathleen Lynch provided an overview of mortgage and foreclosure
      fraud and described the Federal Government’s response to recent mortgage and foreclosure scams at a
      Western New York Mortgage Bankers and Credit Association training conference in Amherst, NY. More than
      60 appraisers, attorneys, bank compliance personnel, and financial institution security officers attended.

                                                          nnn

          SA Gregory Williams provided an overview of HUD OIG’s role and responsibilities involving mortgage
      fraud investigations and described “red flag” fraud indicators at a meeting in Holyoke, MA, for Western
      Massachusetts Banking and Credit Union Compliance Association members. Approximately 60 financial
      institution representatives and Federal and State law enforcement personnel attended.

                                                          nnn



114                                                                                      Chapter 8 - Outreach Efforts
    SA Heather Yannello, AUSA Kathleen Lynch, and U.S. Postal Inspector Shelly Carosella provided an
overview of the Federal response to mortgage and foreclosure scams at a consumer protection “Financial
Literacy” seminar in Buffalo, NY, sponsored by the United Way. Approximately 65 individuals attended.

                                                  nnn

    SA José Laureano provided an overview of HUD OIG’s mission; provided a presentation describing
FHA mortgage fraud and criminal, civil, and administrative consequences; and illustrated mortgage
fraud detection and prevention techniques at a Mortgage Bankers Association seminar in San Juan, PR.
Approximately 60 banking industry personnel attended.

                                                 nnn

    SAs Patrick Fox and Matt Nutt provided an overview of HUD OIG’s mission, goals, and priorities and
described the functions of the Office of Investigation and current mortgage fraud trends for members
of the International Association of Special Investigative Units meeting in Livonia, MI. Approximately 60
individuals attended.

                                                 nnn

     SA Stacie Wilson, AUSA Kathleen Lynch, and other members of the Western New York Mortgage Fraud
Task Force provided an overview of the FHA program, mortgage fraud, and mortgage fraud schemes and
illustrated the process of detecting and preventing fraud and selecting and conducting investigations for
HSBC Mortgage Bank employees meeting in Buffalo, NY. Approximately 50 employees attended.

                                                 nnn

    SA Heather Yannello and AUSA Kathleen Lynch provided an overview of mortgage and foreclosure
fraud and described the Federal Government’s response to recent mortgage and foreclosure scams at
an Appraisal Institute of America training conference in Ellicottville, NY. More than 45 residential and
commercial real estate appraisers and property assessors attended.

                                                 nnn

   SAs James Fincher and Harvey Martin provided an overview of HUD and HUD OIG’s mission and
goals, described the functions of the Offices of Investigation and Audit, and discussed HUD program and
mortgage fraud and RESPA at an ethics seminar in Nashville, TN, sponsored by the Tennessee Land Title
Association. Approximately 30 title attorneys and closing agents attended.

                                                 nnn

    SA Ronnyne Bannister provided an overview of HUD OIG’s mission and role in FHA-insured mortgage
fraud investigations at a mortgage fraud training seminar in Upper Marlboro, MD. At the conclusion, a
question and answer forum was held for 20 Federal, State, and local prosecutors and regulatory personnel
in attendance.

                                                 nnn

    SA Heather Yannello and AUSA Kathleen Lynch provided an overview of bankruptcy fraud and described
the HUD HECM program and recent scams involving mortgages and foreclosures at a U.S. Bankruptcy
Trustee meeting in Buffalo, NY. Approximately 18 bankruptcy trustees attended.

                                                 nnn

Chapter 8 - Outreach Efforts                                                                                115
          SAs Amy Durso and Eric Kolb provided an overview of HUD OIG’s mission and role in FHA mortgage
      fraud and described mortgage fraud detection and prevention strategies for Missouri Secretary of State
      Securities Division personnel meeting in Kansas City, MO. Approximately 10 individuals attended.

      Public Housing and Rental Assistance Programs
          SAC Herschell Harvell, Jr., provided an overview of HUD OIG’s mission and described the Federal
      oversight of public housing funds and the role and responsibilities of housing authority commissioners
      relating to funding, contracts, and procurement procedures at a meeting in Milledgeville, GA. Approximately
      18 Milledgeville public housing commissioners, local law enforcement personnel, and others attended.

                                                         nnn

          RIGA Tanya Schulze and SAC James Todak spoke at the 2010 National Association of Housing and
      Redevelopment Officials (NAHRO) conference in Reno, NV. RIGA Schulze and SAC Todak were part of
      a panel session entitled “Accountability in Administering the Housing Choice Voucher Program.” RIGA
      Schulze spoke about the OIG organization and mission, recent Section 8 audits, the American Recovery and
      Reinvestment Act of 2009 (ARRA), and civil fraud priorities. SAC Todak gave an overview of the investigative
      priorities and prevention and detection of fraud in administering Section 8 program funds. The session
      had about 75 participants from various housing authorities across the country. After the panelists spoke,
      the session was opened up to a question and answer period.

                                                         nnn

         ASAC Wyatt Achord, ARIGA Tracey Carney, and SA Aimee Peralta provided an overview of HUD OIG’s
      mission and role at a Louisiana Housing Council meeting in New Orleans, LA. Approximately 80 public
      housing executive directors, board members, and others attended.

                                                         nnn

          ARIGA Kelly Anderson provided a presentation to approximately 40 employees of the Housing Authority
      of Cook County in Chicago, IL. ARIGA Anderson explained the makeup of HUD OIG, its authority in
      conducting audits, and the audit process.

                                                         nnn

         ASAC Gene Westerlind, HUD Office of Public and Indian Housing Deputy Director Robert Cweika, and
      HUD Associate Regional Counsel Jack Brandwein provided an ethics presentation at a Massachusetts
      NAHRO meeting in Norwood, MA. At the conclusion, a question and answer forum was held for
      approximately 20 housing officials in attendance.

                                                         nnn

          ASACs Brad Geary and Ray Espinosa described current trends and the interwoven aspects of rental
      assistance and mortgage fraud for about 40 landlords attending a Chicago Alternative Policing Strategy
      meeting in Chicago, IL.

                                                         nnn

          SA Anthony Troeger provided a presentation, entitled “Fighting Fraud, Waste, Abuse, and Mismanagement
      in Housing Authority Procurement,” at two procurement training seminars in Raleigh and Asheville, NC. At



116                                                                                    Chapter 8 - Outreach Efforts
the conclusion, OIG hotline posters and tenant fraud leaflets were given to 120 housing authority executive
directors who attended these HUD-sponsored events.

                                                    nnn

   SA Jeffrey Lowery provided an overview of public housing authority fraud and conflicts of interest at
a Council of Housing Redevelopment and Codes Officials Commissioner’s conference in Myrtle Beach,
SC. Approximately 100 executive directors and board members from North and South Carolina housing
authorities attended.

                                                    nnn

    SA Rafael Galindo described multifamily rental assistance fraud relating to tenant criminal histories
at a community meeting held at the Haverstock Hills Apartments, a HUD-subsidized multifamily housing
development in Houston, TX. More than 30 county government leaders, faith-based religious organization
representatives, and nonprofit and school officials attended.

                                                    nnn

    SAs Robert Petrole and Lisa Carling provided an overview of HUD OIG’s mission and role in HUD rental
assistance programs, described current trends in rental assistance fraud investigations, and illustrated fraud
detection methods at a fraud awareness training seminar in Cambridge, MD, sponsored by the Maryland
Association of Housing and Redevelopment Agencies. Approximately 30 executive directors and housing
specialists attended.

                                                    nnn

   SAs Trevor Wood and Timothy Lishner provided an overview of HUD OIG’s mission and role and
described methods to prevent, detect, and report rental assistance fraud at a multifamily housing manager’s
meeting in Aurora, CO, sponsored by the Aurora Housing Authority. Approximately 20 multifamily housing
managers and others attended.

                                                    nnn

     SA Gregory Williams provided an overview of HUD OIG’s mission, role, and priorities and described
methods to prevent, detect, and report fraud at a Worcester Housing Authority public safety meeting
in Worcester, MA. Approximately 20 housing authority officials, law enforcement personnel, and local
citizens attended.

                                                    nnn

    SAs Michael Weinstein and Robert Petrole provided an overview of HUD OIG’s mission and role in HUD
housing programs, described current trends in rental assistance fraud investigations, and illustrated fraud
detection methods at a Baltimore County Sex Offenders Containment meeting in Towson, MD. Twelve
State and local government officials attended.

                                                    nnn

    SAs Neil McMullen and Jennifer Landon provided an overview of HUD OIG, described current rental
assistance fraud schemes, and provided avenues for detecting rental assistance fraud for personnel from




Chapter 8 - Outreach Efforts                                                                                     117
      Irvine Company, a HUD multifamily management contractor in Irvine, CA. Approximately 10 managers
      attended.

                                                          nnn

          SAs Vicky Vazquez and Michael Granatstein provided an overview of HUD OIG’s mission, goals, and
      priorities; explained the function of the Office of Investigation; and described a number of OIG investigations
      at a meeting in Manhattan, NY, held for staff members from Reliant Realty, a HUD multifamily management
      contractor. At the conclusion, a question and answer forum was held for 10 employees in attendance.

      Community Planning and Development
          SAC Breck Nowlin and RIGA Heath Wolfe provided an overview of the Offices of Investigation and Audit;
      described investigative priorities and the audit process and functions; described the HUD Neighborhood
      Stabilization Program (NSP), HOME Investment Partnerships Program (HOME), and Homelessness
      Prevention and Rapid Re-Housing Program (HPRP); presented information relating to the False Claims and
      Program Fraud Civil Remedies Acts; and illustrated OIG’s zero tolerance stance, oversight of HUD funding
      in ARRA, and grantee and contractor fraud within State and local community development programs at a
      National Association for County Community and Economic Development conference in Ann Arbor, MI.
      More than 25 individuals attended.

                                                          nnn

         SAC Phyllis Robinson and ASAC Michael White provided an overview of HUD OIG initiatives and
      accomplishments and described OIG’s role and responsibilities involving Office of Community Planning
      and Development (CPD) investigations during a meeting for area CPD administrators in Fort Worth, TX.
      Approximately 30 CPD administrators and HUD personnel attended.

                                                          nnn

          ASAC Wyatt Achord and ARIGA Tracey Carney provided an overview of HUD OIG’s mission and role
      at a “Grant Writing and Capacity Building” training seminar in New Orleans, LA, sponsored by HUD.
      Approximately 150 potential grant recipients and Federal, State, and local government representatives
      attended.

                                                          nnn

         ASAC Brad Geary and ARIGA Brent Bowen provided an overview of HUD OIG’s Offices of Investigation
      and Audit; described the False Claims and Program Fraud Civil Remedies Acts; and explained documentation
      requirements, file maintenance, and the OIG referral process for grantees and subgrantees attending a Cook
      County Bureau of Community Development’s Community Development Block Grant (CDBG) agreement
      workshop in Chicago, IL. More than 75 individuals attended.

                                                          nnn

         ASAC Edwin Bonano provided an overview of HUD OIG’s mission and goals and described previous
      HUD OIG investigations at a meeting in Pompano Beach, FL. Approximately 35 Pompano Beach City
      commissioners and other community leaders attended.

                                                          nnn




118                                                                                       Chapter 8 - Outreach Efforts
   ASAC Robert Jones provided an overview of HUD OIG’s mission, goals, and priorities; explained the
functions of the Offices of Audit and Investigation; and described OIG initiatives relating to HUD programs,
HUD funding in ARRA, and the Disaster Housing Assistance and NSP programs at a Coalition for the Homeless
meeting in Houston, TX. Approximately 12 representatives attended.

                                                   nnn

   SAs Michael Weinstein and Lori DiCriscio provided an overview of HUD OIG’s mission, presented a
CPD fraud awareness briefing, and described the resources available for grantees and subgrantees at a
CDBG application workshop in Baltimore, MD, sponsored by the Maryland Department of Housing and
Community Development. Approximately 85 individuals attended.

                                                   nnn

    SAs Jessica Thompson and Alexander Rosania provided an overview of HUD’s HPRP and described
program fraud vulnerabilities at a meeting held at the Rhode Island Office of Housing and Community
Development in Warwick, RI. At the conclusion, a question and answer forum was held for approximately
30 State and city employees in attendance.

                                                   nnn

   Auditors Roleen Milton and Dana Young gave a presentation to the New Mexico Coalition to End
Homelessness meeting hosted by HUD CPD at the Albuquerque, NM, field office. Attendees included
representatives from the Coalition and nine different providers. The presentation covered OIG’s mission
and goals, the new Albuquerque Office of Audit, and typical audit issues and problems in this program area.

                                                   nnn

  SA Victoria Marquez provided an overview of HUD OIG’s mission and priorities at a HUD-sponsored
HPRP seminar in San Antonio, TX. Approximately 85 grantees and subgrantees attended.

American Recovery and Reinvestment Act
    RIGA Heath Wolfe and SAC Breck Nowlin made presentations at the National Association for County
& Community Economic Development annual conference in Ypsilanti, MI. RIGA Wolfe presented
information on the functions of the Office of Audit; the audit process; NSP, HOME, and HPRP; the False
Claims and Program Fraud Civil Remedies Acts; and OIG’s oversight of HUD’s ARRA funding. SAC Nowlin’s
presentation provided an overview of the Office of Investigation; investigative priorities with a focus on
corruption within the administration of State and local community development programs; and fraud by
grantees, subgrantees, and contractors. SAC Nowlin and RIGA Wolfe also emphasized the zero tolerance
approach that is being taken by HUD OIG concerning fraud related to HUD’s ARRA programs. There were
more than 25 individuals in attendance.

                                                   nnn

    RIGA Heath Wolfe and ASAC Ray Espinosa provided an overview of the functions of the Offices of Audit
and Investigation; described the audit process, investigative priorities, the HUD HOME and NSP programs,
and the False Claims and Program Fraud Civil Remedies Acts; and illustrated OIG’s oversight in relation
to HUD ARRA funding, corruption within State and local community development programs, and grantee
and contractor fraud at a Community Development conference in Indianapolis, IN, sponsored by HUD.
Approximately 45 State and local grantees attended.

                                                   nnn

Chapter 8 - Outreach Efforts                                                                                   119
         RIGA Heath Wolfe made presentations to more than 50 individuals at the Michigan Housing Directors
      Association’s fall conference on Mackinac Island, MI. He discussed the Public Housing Capital Fund
      program being funded by ARRA plus ARRA accountability and reporting requirements. His presentation
      covered the audit process, common findings in public housing agency nonprofit development activities
      and HUD’s Section 8 Housing Choice Voucher and Project-Based Voucher programs, and the Office of
      Audit’s affirmative civil enforcement initiative.

                                                        nnn

          ARIGA Brent Bowen and SAC Breck Nowlin provided an overview of the roles and responsibilities of the
      HUD OIG Offices of Investigation and Audit and ARRA programs and described “red flag” fraud indicators,
      the audit process, common audit findings in community planning and development programs, and the
      False Claims and Program Fraud Civil Remedies Acts at the Michigan Community Development Association
      technical assistance conference in Lansing, MI. More than 100 individuals attended.

                                                        nnn

         ARIGA Vince Mussetter and SA Vicky Lawson made a presentation in the Los Angeles, CA, HUD office
      with the assistance of ARIGA James Brady as part of HUD’s NSP 3 training to about 20 Southern California
      grantees. They informed the participants of OIG’s mission and structure, recent ARRA review efforts, and
      continuing focus on the area.

      Law Enforcement Outreach
          SAC Rene Febles and ASAC Steven Perez provided an overview of HUD OIG’s jurisdiction and investigative
      scope and described potential victims impacted by HUD program and mortgage fraud at a financial crimes
      and money laundering symposium in New York City, NY, sponsored by the Manhattan District Attorney’s
      Office and the NY/NJ High Intensity Financial Crimes task force. Approximately 250 financial and law
      enforcement personnel attended.

                                                        nnn

         SAC Phyllis Robinson provided an overview of HUD OIG’s mission, goals, and priorities and described
      OIG initiatives relating to HUD programs and HUD funding in ARRA at a regional public corruption working
      group meeting in Albuquerque, NM, sponsored by the FBI. Approximately 40 Federal, State, and local
      law enforcement personnel and others attended.

                                                        nnn

          SAC Breck Nowlin provided an overview of OIG’s Office of Investigation and described investigative
      priorities relating to FHA and HECM program fraud, public corruption, and the planned oversight of
      HUD ARRA funding for members of the Michigan Chapter of the International Association of Financial
      Crimes Investigators meeting in Livonia, MI. Approximately 150 financial institution representatives and
      investigators and law enforcement personnel attended.

                                                        nnn

          SAC Wayne North provided an overview of HUD OIG’s mission and described recent financial fraud
      prosecutions at a meeting sponsored by the U.S. Attorney’s Office in Portland, OR. Approximately 60
      financial institution representatives and law enforcement personnel attended.

                                                        nnn


120                                                                                   Chapter 8 - Outreach Efforts
    ASAC Brad Geary provided a presentation, entitled “How to Get Your Case Prosecuted,” described
prosecutor presentations and trial preparations, and illustrated current mortgage fraud schemes and the
changes to the FHA and single-family mortgage industry at an Association of Certified Fraud Examiners
meeting in Chicago, IL. Approximately 50 law enforcement, State regulatory, and bank security personnel
attended.

                                                   nnn

   ASAC Michael Catinella provided a presentation, entitled “Bankruptcy Fraud – An Agents Perspective,” at a
bankruptcy fraud meeting held at the U.S. Attorney’s Office in Detroit, MI. Approximately 60 representatives
from the U.S. Trustee office, the U.S. Attorney’s office, and Federal law enforcement agencies attended.

                                                   nnn

    ASACs Brad Geary and Manny Colin provided a presentation, entitled “The Latest Trends in Mortgage
Fraud,” and described the FHA program and mortgage fraud schemes and trends at a meeting in Chicago,
IL, sponsored by the Chicago Police Department. Approximately 25 State and local law enforcement
personnel and financial institution investigators attended.

                                                   nnn

   SA Julien Kubesh provided an overview of the HUD HECM program and described fraudulent patterns
and schemes at an International Association of Financial Crimes Investigators meeting in Minneapolis,
MN. Approximately 75 financial institution investigators and law enforcement personnel attended.

                                                   nnn

    SAs Audra Carrington and Ira Long provided an overview of the FHA, HECM, and HUD real estate-owned
programs and described the FHA-insured mortgage loan process at a Mortgage Fraud Investigations seminar
in San Diego, CA. Approximately 35 Federal and State law enforcement personnel and real estate and
mortgage professionals attended.

Other Outreach
    Michael Beard, Director, Technical Oversight and Planning Division, presented the HUD OIG view of
suspensions and debarments at the Council of Inspectors General Suspension and Debarments Seminar
in Washington, DC. More than 350 participants from various Inspector General and program enforcement
offices were present at the seminar. Director Beard spoke on OIG’s Operation Watchdog results and new
Civil Fraud Division and the debarments resulting from Region 9’s First Source financial audit.

                                                   nnn

    RIGA John Buck, Auditor James Carrington, and Administrative Officer Deborah Laforet participated in
the Pennsylvania Attorney General’s Consumer Fair in Philadelphia, PA, along with officials from HUD’s
Philadelphia office. The Consumer Fair is part of National Consumer Protection Week, designated by the
Federal Trade Commission. The Consumer Fair provided an opportunity for citizens to obtain valuable
information regarding HUD’s and OIG’s services and promoted awareness and prevention of fraudulent
schemes.

                                                   nnn




Chapter 8 - Outreach Efforts                                                                                   121
          Field Technical Support Division Director Cliff Cole participated as a guest speaker at the joint Association
      of Government Accountants Peninsula Chapter and American Society of Military Comptrollers Spring 2011
      Professional Development Conference in Chesapeake, VA. The conference was attended by more than
      180 financial managers and auditing and accounting professionals from a number of Federal and local
      government entities and military organizations in and around the eastern Virginia area. Director Cole
      provided an overview of HUD OIG’s organizational structure and described how OIG’s progressive use
      of computer-assisted analytics played a critical role in the history of OIG’s data-mining and organization-
      changing journey that ultimately brought it to the forefront of the inspector general community as one of
      the leading Federal agencies in innovative audit and investigative data analyses.

                                                           nnn

          ASAC Robert Jones provided an overview of HUD OIG’s mission, goals, and priorities; discussed the
      Office of Audit robo-signing project; and described investigative initiatives relating to HUD programs, HUD
      funding in ARRA, and the Disaster Housing Assistance and NSP programs at a meeting held with the Better
      Business Bureau Consumer Protection Group in Houston, TX. Approximately 15 individuals attended.

                                                           nnn

          ASAC Wyatt Achord and SAs Jonathan Harrison, Kevin Leonhardt, and Jerry Rogers served as group
      leaders at a “Badges for Baseball” camp in New Orleans, LA. Approximately 200 students and volunteers
      attended.

                                                           nnn

         The Seattle, WA, Office of Audit gave a presentation to a group of recently hired HUD Region X staff.
      The presentation was made in conjunction with the Region X HUD’s World training program in which new
      HUD employees are taken to each of the Region’s HUD program offices for an overview of the programs’
      organization and functions. ARIGA Ed Schmidt and Auditor James Byers gave a presentation on the
      mission and organization of HUD OIG, along with a description of the work performed by the Office of
      Audit. Attending the presentation were 13 new Region X employees.

                                                           nnn

          ARIGA Tracey Vargas participated in a teleconference with the Idaho State Auditor’s Office. The parties
      discussed HUD funding and the types of audits each agency performed. They agreed that if anything
      came to either party’s attention with respect to the State of Idaho’s HUD funds, they would coordinate
      with each other.

                                                           nnn

         Senior Auditor Christy Thomas gave a presentation to a business class at the University of Kansas in
      Lawrence, KS. She discussed her career path with HUD OIG and described a day in the life of a government
      auditor to about 150 college freshman.

                                                           nnn




122                                                                                        Chapter 8 - Outreach Efforts
Chapter 9 - Legislation, Regulation,
and Other Directives
          Reviewing and making recommendations on legislation, regulations, and policy issues is a critical part
      of the Office of Inspector General’s (OIG) responsibilities under the Inspector General Act. During this
      6-month reporting period, OIG has committed approximately 485 hours to reviewing 139 issuances. The
      draft directives consisted of 11 notices of funding availability, 71 mortgagee letters or notices, and 62 other
      directives. OIG provided comments on 45 percent of these draft directives. This chapter highlights some
      of OIG’s comments for this reporting period.

      Enacted Legislation
         Due to the collapse of the subprime mortgage market and resulting increase in foreclosures, Congress
      and the President approved the Housing and Economic Recovery Act of 2008 (HERA) and the American
      Recovery and Reinvestment Act of 2009 (ARRA). These legislations contained significant new funding
      and programs for the U.S. Department of Housing and Urban Development (HUD). Specifically, the
      Neighborhood Stabilization Program (NSP) was created under HERA and provided an initial $3.92 billion in
      funding to State and local governments for the redevelopment of abandoned and foreclosed-upon homes
      and residential properties. ARRA provided an additional $13.61 billion to existing programs, including an
      additional $2 billion for NSP. The Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010
      provided the third NSP funding totaling $1 billion.

          On May 20, 2009, the President signed the Helping Families Save Their Homes Act of 2009. This new
      law (1) provided the Federal Housing Administration (FHA) with additional loss mitigation authority to
      assist FHA borrowers under the Making Home Affordable program (MHA) and (2) expanded the authority
      to use FHA loss mitigation to assist defaulted home buyers in avoiding foreclosure to include those facing
      imminent default. The President also signed the Dodd-Frank Wall Street Reform and Consumer Protection
      Act, which established an office of housing counseling within HUD to boost home ownership and rental
      housing counseling and provided for foreclosure legal assistance. Specifically, the Act authorized a HUD-
      administered program for making grants to provide foreclosure legal assistance to low- and moderate-
      income homeowners and tenants related to home ownership preservation, home foreclosure prevention,
      and tenancy associated with home foreclosure. In addition, the Act provided $1 billion to HUD to implement
      the Emergency Homeowners’ Loan Program, which is currently under development and will be managed
      by HUD’s Office of Housing Counseling.

          On September 21, 2010, FHA introduced a new modified version of its home equity conversion mortgage
      (HECM) product through Mortgagee Letter 2010-34. Specifically, FHA designed HECM Saver as a second
      reverse mortgage option for the purpose of lowering upfront loan closing costs for homeowners who want
      to borrow a smaller amount than would be available with a HECM standard loan. This option is available
      for all HECM case numbers assigned on or after October 4, 2010.

          OIG is performing audits of recipients of HERA and ARRA funding. Based on risks identified in HUD’s
      front-end risk assessments, OIG has targeted program areas and will propose regulatory changes, as
      necessary, to control risks in these new program areas. In addition, OIG is conducting foreclosure reviews
      of FHA-insured properties.

          OIG has also participated in a number of meetings with HUD officials regarding these additional funds
      and the programmatic risks of the activities. OIG continues to express concerns about the capacity of
      many of the grantees and has expressed its concerns in review comments to clearance items and directly
      to HUD officials.

          The Federal Housing Commissioner continued to propose a number of risk management initiatives
      related to HUD’s single-family programs and has started the process of updating its multifamily program
      requirements. As part of the issuances reviewed, OIG provided comments on the preliminary rules. Many of



124                                                           Chapter 9 - Legislation, Regulation, and Other Directives
the proposed changes required rule making. On April 20, 2010, HUD issued the final rule on Federal Housing
Administration: Continuation of FHA Reform; Strengthening Risk Management Through Responsible FHA-
Approved Lenders [Docket No. FR 5356–F–02]. This final rule increases the net worth requirements for
FHA-approved lenders, provides for the elimination of FHA approval of loan correspondents, and updates
FHA regulations to incorporate criteria specified in the Helping Families Save Their Homes Act of 2009
designed to ensure that only entities of integrity are involved in the origination of FHA-insured loans.

Notices and Policy Issuances
    On December 22, 2010, HUD issued a notice of information collection for its multifamily rental project
closing documents. This is the final step before issuing the closing documents in final. This has been a
process that began with industry talks in 1996. It brings added protection to all parties as well as consistency
with modern real estate practice and mortgage lending laws and procedures.

                                                       nnn




Chapter 9 - Legislation, Regulation, and Other Directives                                                          125
Chapter 10 - Audit Resolution
           In the audit resolution process, Office of Inspector General (OIG) and U.S. Department of Housing and
      Urban Development (HUD) management agree upon the needed actions and timeframes for resolving
      audit recommendations. Through this process, OIG hopes to achieve measurable improvements in
      HUD programs and operations. The overall responsibility for ensuring that the agreed-upon changes are
      implemented rests with HUD managers. This chapter describes significant management decisions with
      which OIG disagrees. It also contains a status report on HUD’s implementation of the Federal Financial
      Management Improvement Act of 1996 (FFMIA). In addition to this chapter on audit resolution, see appendix
      3, table B, “Significant Audit Reports Described in Previous Semiannual Reports in Which Final Action Had
      Not Been Completed as of March 31, 2011.”

      Audit Reports Issued Before Start of Period With No Management
      Decision as of March 31, 2011
      HUD Lacked Adequate Controls To Ensure The Timely Commitment and Expenditure of
      HOME Funds, Issue Date: September 28, 2009.

          HUD OIG audited HUD’s HOME Investment Partnerships Program (HOME). OIG recommended that the
      HUD Office of Community Planning and Development (CPD) establish and implement controls to ensure
      that field offices require participating jurisdictions to close out future HOME activities within a timeframe
      that will permit reallocation and use of the funds for eligible activities in time to avoid losing them to
      recapture by the United States Treasury under provisions of Public Law 101-510. OIG also recommended
      that CPD obtain a formal legal opinion from HUD’s Office of General Counsel regarding whether

         •	 HUD’s cumulative technique for assessing compliance with commitment deadlines is consistent
            with and an allowable alternative to the 24-month commitment required by 42 U.S.C. (United States
            Code) § 12748 and

         •	 HUD’s first-in, first-out (FIFO) method for assessing compliance with HOME expenditure requirements
            is consistent with and an allowable alternative to the 8-year recapture deadline pursuant to Public
            Law 101-510, codified at 31 U.S.C. § 1552.

          During the reporting period, OIG rejected two management decisions proposed by CPD to address
      the recommendation. The proposed management decisions did not provide for the establishment and
      implementation of all of the controls that are needed to address the recommendation.

          CPD obtained a legal opinion from the Assistant General Counsel for Community Development on
      March 5, 2010. The legal opinion supports the Department’s use of the cumulative approach and FIFO
      accounting method. Based on this legal opinion, CPD does not plan to implement OIG’s recommendation
      to discontinue use of the FIFO method to account for the commitment and expenditure of HOME funds
      or the cumulative technique for assessing deadline compliance.

         OIG requested reconsideration of the opinion. On June 10, 2010, HUD’s General Counsel and Chief
      Financial Officer provided additional information regarding HUD’s recapture requirements of the HOME
      program statute and CPD’s use of cumulative accounting and the FIFO method for financial management.

          HUD explained that CPD’s use of cumulative accounting in its financial management represents a
      reasonable interpretation of the statutory duties imposed on the HUD Secretary and addresses the complex
      administrative challenges inherent in managing the HOME Investment Trust. HUD also explained that
      obligations and expenditures under the HOME program are accounted for on a FIFO basis by fund type
      instead of by fiscal year and that CPD, in enforcing the obligation and expenditure requirements, looks to
      total cumulative obligations and expenditures instead of accounting for them by fiscal year. Based on the



128                                                                                    Chapter 10 - Audit Resolution
Chief Financial Officer’s financial analysis, given the origin of these requirements and the fundamental
nature of this block grant program, HUD believed that the FIFO accounting method for obligations and
expenditures by fund type was consistent with Federal accounting requirements and had no objection
to the total cumulative obligations and expenditures methods used for assessing compliance with the
24-month commitment and 5-year expenditure requirements.

    OIG continues to disagree that CPD’s use of the FIFO method for recognizing commitments and
expenditures that participating jurisdictions make against their HOME appropriations or CPD’s cumulative
accounting is consistent with the legislation under 42 U.S.C. § 12748, requiring recapture of funds not
committed by statutory deadline dates. These methods of accounting also potentially violate the closure
of accounts under 31 U.S.C. § 1552.

    Another issue raised by CPD’s accounting methods is whether HUD’s FIFO accounting method
complies with Federal accounting requirements for maintaining the U.S. Standard General Ledger and
general appropriations law. The accounting issues require review for compliance with Federal accounting
standards and appropriation law. Since OIG’s last semiannual report date, in conjunction with its annual
audit of HUD’s financial statements, OIG has discussed the FIFO accounting method with the Government
Accountability Office (GAO). OIG will make a formal request for GAO to determine whether the FIFO
accounting method violates Federal standards for appropriation accounting. (Audit Report: 2009-AT-0001)

The Federal Housing Administration Delayed Sending Violation Notices to Lenders That
Did Not Meet Recertification Requirements, Issue Date: August 6, 2010.

    OIG audited the Federal Housing Administration (FHA) Title II single-family lender renewal process.
The objective of the audit was to determine whether FHA ensured that lenders submitted recertification
requirements in a timely manner. OIG found that FHA did not ensure that lenders submitted recertification
forms, annual fees, and/or audited financial statements in a timely manner. The Lender Approval and
Recertification Division (Division) did not promptly issue notices of violation to lenders that did not submit
required annual recertification documentation and/or fees when due. The notices of violation give the
lenders 30 days to cure the violation before referring them to the Mortgagee Review Board (MRB) for
sanctions. Instead, the Division sent notices of deficiency to the noncompliant lenders and did not send
out notices of violation until 7 months after the March 31, 2009, recertification due date. The Division’s
delay in issuing notices of violation on behalf of the MRB allowed the noncompliant lenders to originate
FHA loans for an additional 7 months. During this period, these noncompliant lenders originated 7,107
FHA-insured loans worth nearly $1.4 billion and had an average default rate that was almost twice as high
as the national rate.

    OIG recommended that the Office of Lender Activities and Program Compliance require the Division to
revise the recertification process to discontinue issuing notices of deficiency and issue notices of violation
promptly for all lenders that do not submit or attempt to submit one or more of the required items by the
due date (recommendation 1A).

    The Office of Single Family Housing (Housing) agreed that the delay in issuing the notices of violation
was unacceptable but disagreed with OIG’s recommendation. Housing explained that delays in the issuance
of notices of violation were the result of exponential growth in the number of FHA-approved lenders and
significant staffing shortages, combined with insufficient recertification processing procedures. Housing
stated that it viewed the delays as a separate matter to the use of notices of deficiency and that a number
of operational and policy changes had been made to avert backlogs in the future.

    OIG disagrees. Although FHA has taken measures to streamline the process, these measures have
not significantly affected the time to issue the notices of violation. As of the August 6, 2010, audit report




Chapter 10 - Audit Resolution                                                                                    129
      date, the Division had not sent out notices of violation for December 2009 lenders that did not submit
      timely recertification items. Instead, the Division sent out notices of deficiency for these lenders in June
      of 2010 even though these notices are not legally required for due process. Timely enforcement of the
      recertification requirements is absolutely necessary to protect the interests of the insurance fund. Mortgagee
      Letter 2009-01 stresses this point. It states, “The Department considers the timely annual renewal of FHA
      approval requirements to be critical to its ability to adequately monitor and assess the condition of the
      mortgagee and determine if the mortgagee poses a risk to the Department, its programs or the public.”
      Notices of deficiency serve only to delay completion of this process and, therefore, should be discontinued
      for mortgagees that do not comply with the timeliness requirement.

        On March 9, 2011, OIG referred this matter to the Assistant Secretary for Housing – Federal Housing
      Commissioner. (Audit Report: 2010-KC-0002)

      Significantly Revised Management Decisions
          Section 5(a)(11) of the Inspector General Act, as amended, requires that OIG report information
      concerning the reasons for any significant revised management decisions made during the reporting
      period. During the current reporting period, there were significant revised management decisions on
      two audits.

      Somerset Investors Corporation – Melville, NY, Issue Date: March 26, 2010

          As part of the OIG goal to improve the integrity of the single-family insurance programs, HUD OIG audited
      the underwriting by Somerset Investors Corporation of FHA-insured refinanced loans. The objective was
      to determine whether Somerset originated FHA-insured refinanced loans in accordance with HUD/FHA
      requirements and conducted quality control reviews that complied with HUD/FHA requirements.

          Somerset did not always originate refinanced loans in accordance with HUD/FHA requirements.
      Specifically, 8 of 11 loans reviewed exhibited underwriting deficiencies significant enough to warrant
      indemnification, such as inadequate evaluation of previous mortgage payment history, excessive qualifying
      ratios without significant compensating factors to justify loan approval, and improper calculation of
      income. The remaining three loans disclosed other underwriting deficiencies that were not significant
      enough to request indemnification. In addition, six loans subject to Somerset’s quality control review
      evidenced underwriting deficiencies that warrant indemnification. Consequently, 14 mortgage loans
      with an outstanding principal balance of more than $4.6 million were approved, which presented an
      unnecessary risk to the FHA insurance fund. In addition, while Somerset’s written quality control plan
      complied with HUD/FHA requirements, the quality control reviews conducted did not comply with
      HUD’s and its own quality control requirements regarding sample size and reporting. Specifically, the
      completed quality control reviews did not include home equity conversion mortgages; did not always
      identify corrective actions, a timetable for completion, or planned follow-up activities; and did not report
      serious violations to HUD. Consequently, assurance was lessened that Somerset’s quality control process
      would identify and address underwriting problems in a timely manner and thus protect Somerset and
      FHA from unacceptable risk.

         OIG recommended that HUD require Somerset to (1) indemnify HUD for potential estimated losses of
      nearly $2.8 million for 14 loans with significant underwriting deficiencies, (2) strengthen controls over its
      underwriting procedures to provide assurance that HUD/FHA requirements are met, and (3) implement
      procedures to ensure that quality control reviews comply with HUD/FHA requirements.

         HUD agreed with the recommendations on June 24, 2010, and subsequently sought Somerset’s
      cooperation in implementing OIG’s recommendations. However, Somerset failed to respond to the



130                                                                                    Chapter 10 - Audit Resolution
requested planned actions and closed its home office. As a result, the MRB on October 28, 2010, issued a
notice of permanent withdrawal of Somerset’s HUD/FHA lender approval status. Since Somerset did not
appeal the decision, the action became final after a 30-day period. Consequently, HUD has exhausted all
options to satisfy the recommendations. Therefore, HUD revised its management decision on January
16, 2011, to reflect that the recommendations were not implemented and to not realize funds to be put to
better use, and the audit was closed on January 16, 2011. (Audit Report: 2010-NY-1009)

The Owner of Ebony Lake Healthcare Center, Brownsville, Texas, Violated Its Regulatory
Agreement with HUD - Brownsville, TX, Issue Date: November 25, 2008

    OIG issued an audit report entitled “The Owner of Ebony Lake Healthcare Center, Brownsville, Texas,
Violated Its Regulatory Agreement with HUD.” Among the issues reported was that although the regulatory
agreements require project receipts to be deposited into an account in the project’s name, the former
owner failed to do so. Instead, the former owner took funds that belonged to the project, resulting in
unauthorized distributions. When the deposits were made, the project’s manager was also a principal of
the former owner. Although the project became HUD insured in November 2000, in March and October
of 2001, Medicaid and Medicare receipts of more than $140,000 were deposited into the former owner’s
bank account rather than the project’s account. The current owner learned about the unauthorized
distributions on or before September 20, 2004, but had not taken appropriate actions to recover the funds.
OIG’s recommendation 2A of the report was that HUD require the owner to reimburse from non-Federal
funds more than $140,000 to the project’s residual receipts account for the ineligible distribution. HUD
agreed to endeavor to incorporate into a management improvement and operating plan, developed with
the owner, a requirement that the owner deposit more than $140,000 from non-Federal funds into the
project’s residual receipts account for the ineligible distribution.

    At the time of the original management decision, the Office of Housing, Office of Insured Health Care
Facilities, stated that the project was a single-asset entity with no revenues other than those generated by
the facility and that the owner is a nonprofit organization, which asserted that it had no funds available to
make the required deposit. In addition, according to the owner, the former owner of the property—the
entity which received this distribution—filed for bankruptcy February 11, 2004. After report issuance,
several other events occurred, including the death of two of the owners. Also, the remaining owners
entered into a $500,000 civil money penalty settlement agreement with HUD for various regulatory
violations, including items cited in this audit report and one of a sister project.

    HUD submitted a revised management decision, stating that it would submit a memorandum to OIG
for write-off concurrence and closure of the recommendation. OIG worked closely with HUD’s Office of
General Council, Departmental Enforcement Center, and the HUD program office to resolve a number
of recommendations in this report. HUD aggressively pursued resolution of the recommendations and
concluded that further pursuit would not be beneficial. Thus, on February 18, 2011, OIG concurred
with the revised management decision for recommendation 2A to write off more than $140,000. OIG is
awaiting HUD’s memorandum. (Audit report 2009-FW-1002)

Significant Management Decision With Which OIG Disagrees
HUD’s Community Development Block Grant Set-Aside for Colonias Was Not Used for Its
Intended Purposes – Washington, DC, Issue Date: July 29, 2008

   HUD OIG issued an audit entitled “HUD’s Community Development Block Grant Set-Aside Was
Not Used for Its Intended Purposes.” Among the issues reported was that due to the lack of guidance,
colonia set-aside funding was spent for parks, swimming pools, recreation centers, and public facility
improvements. OIG recommended that CPD issue guidance or criteria that (1) better define a colonia,



Chapter 10 - Audit Resolution                                                                                   131
      (2) require the States to support their colonia designations with objective criteria, and (3) require States
      to prioritize funding to colonias with the greatest need, thereby better assuring compliance with the
      Cranston-Gonzales National Affordable Housing Act. CPD agreed to issue guidance.

          Further, GAO issued its December 2009 report, “Rural Water Infrastructure – Improved Coordination
      and Funding Processes Could Enhance Federal Efforts to Meet Needs in the U. S.-Mexico Border Region”
      (GAO-10-126), which found that HUD has “not always ensured compliance with statutory requirements
      and regulations concerning the eligibility of applicants or projects or the prioritization of funds from
      programs targets at the border region.” GAO also “found that HUD has not developed guidance for
      determining what constitutes a colonia, has not made such determinations, and has not reviewed
      states’ determinations. Lacking guidance and direction from HUD, states have applied the requirements
      differently.”

           OIG reported in its April 1, 2010, through September 30, 2010, Semiannual Report to Congress that
      it disagreed with CPD’s proposed guidance due to OIG’s disagreement with CPD’s interpretation of the
      statute implementing the colonia set-aside and CPD’s definition of a colonia. OIG also previously reported
      that it had referred the issue to the Deputy Secretary. In December 2010, the Deputy Secretary met with
      Acting Inspector General Stephens to discuss the issue. After this meeting, HUD’s Office of General
      Counsel issued a legal opinion in response to the referral and disagreement, dated December 16, 2010.
      In it, HUD’s General Counsel determined that CPD’s position was legally correct.

          On February 8, 2011, CPD issued Notice CPD-11-001 to provide guidelines for administering the State
      Community Development Block Grant colonia set-aside. The notice provided guidance, and regarding
      the criteria for a community to be considered a colonia, CPD stated, “In addition to being in existence
      before November 28, 1990, Section 916(e)(1)(C) requires a colonia to be ‘determined to be a colonia on
      the basis of objective criteria, including lack of potable water supply, lack of adequate sewage systems,
      and lack of decent, safe, and sanitary housing.’ This means that all three expressly named criteria be
      included in such list and that at least one of three be included in each instance.”

          As OIG disagrees that the statute allows CPD to define a colonia as lacking in just one of the criteria,
      such as only potable water; adequate sewage systems; or decent, safe, and sanitary housing, OIG noted
      its disagreement with the management decision but has closed the recommendations based on the
      Deputy Secretary’s agreement with the legal opinion and CPD. (Audit Report 2008-FW-0001)

      Federal Financial Management Improvement Act of 1996
          In fiscal year (FY) 2010, HUD did not substantially comply with FFMIA. In this regard, HUD’s
      financial management systems did not substantially comply with Federal financial management system
      requirements.

          During FY 2010, HUD made limited progress in bringing the financial management systems into
      compliance with FFMIA. HUD’s financial management systems continued to not meet current
      requirements. HUD’s systems were not operated in an integrated fashion and linked electronically
      to efficiently and effectively provide agencywide financial system support necessary to carry out the
      agency’s mission and support the agency’s financial management needs.

          HUD’s financial systems, many of which were developed and implemented before the issue date of
      current standards, were not designed to provide the range of financial and performance data currently
      required. HUD is in the process of modernizing its financial management systems by developing an
      integrated financial management system. The modernization development, HUD’s Integrated Financial
      Improvement Project (HIFMIP), was launched in FY 2003 but has been plagued by delays. Originally



132                                                                                   Chapter 10 - Audit Resolution
planned for implementation in 2006, the contract for HIFMIP was awarded on September 23, 2010. The
Office of Management and Budget (OMB) approved the 18-month base period of performance for the
contract, which is expected to run through April 2012. Future option periods will require OMB approval.

    FFMIA requires OIG to report in its Semiannual Reports to Congress instances and reasons when an
agency has not met the intermediate target dates established in its mediation plan required by FFMIA. At
the end of 2010, 4 of the 42 financial management systems were not in substantial compliance with FFMIA.
These four systems are the HUD Procurement System (HPS), Small Purchase System (SPS), Integrated
Disbursement and Information System (IDIS), and Facilities Integrated Resources Management System
(FIRMS). The Department acquired a new application, HUD Integrated Acquisition Management System,
to replace the HPS and SPS on September 30, 2010. As of November 15, 2010, HUD had not provided
remediation plans for FIRMS. OIG determined that IDIS is not in substantial compliance with FFMIA.
Although 38 individual systems had been certified as compliant with Federal financial management
systems requirements, HUD had not performed independent reviews of all of its financial management
systems in accordance with OMB Circular A-127. Collectively and in the aggregate, deficiencies continued
to exist.

    In addition, OIG audit reports have disclosed that security of financial information was not provided in
accordance with OMB Circular A-130, Management of Federal Information Resources, appendix III, and
the Federal Information Security Management Act.

                                                   nnn




Chapter 10 - Audit Resolution                                                                                  133
Appendix 1 - Peer Review Reporting




                                     135
      Background
          The Dodd-Frank Wall Street Reform and Consumer Protection Act (Public Law No. 111-203), Section
      989C, requires Inspectors General to report the latest peer review results in their semiannual reports to
      Congress. The purpose in doing so is to enhance transparency within the government. Both the Office of
      Audit and Office of Investigation are required to undergo a peer review of their individual organizations
      every 3 years. The purpose of the reviews is to ensure that the work completed by the respective
      organizations meets the applicable requirements and standards. The following is a summary and status
      of the latest round of peer reviews for both organizations.


      Office of Audit
      Peer Review Conducted on HUD OIG
          The U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG),
      received a grade of pass (the highest rating) on the peer review report issued by the U.S. Treasury Inspector
      General for Tax Administration on September 22, 2009. There were no recommendations included in the
      System Review Report. The report stated:

           In our opinion, the system of quality control in effect for the year ended March 31, 2009, for the
           audit organization of the HUD OIG has been suitably designed and complied with to provide the
           HUD OIG with reasonable assurance of performing and reporting in conformity with applicable
           professional standards in all material respects. Federal audit organizations can receive a rating
           of pass, pass with deficiencies, or fail. The HUD OIG has received a peer review rating of pass.

      Peer Review Conducted by HUD OIG on USDA
          The U.S. Department of Agriculture (USDA) OIG received a rating of pass on the peer review report issued
      by HUD OIG on September 30, 2009. The System Review Report contained no findings or recommendations.


      Office of Investigation
      Peer Review Conducted on HUD OIG
          The most recent peer review of the Office of Investigation was conducted in 2008 by the United States
      Postal Service’s Office of Inspector General. The results of the peer review found HUD OIG compliant
      (the highest rating) with the quality of standards established by the inspector general community and the
      attorney general guidelines.

                                                          nnn




136                                                                              Appendix 1 - Peer Review Reporting
Appendix 2 - Audit Reports Issued
      Internal Reports
      15 Audit Reports
      Chief Financial Officer (4 Reports)
      2011-DP-0003		        HUD Did Not Fully Comply With the Requirements of OMB Circular A-127, 12/03/2010.
      2011-DP-0004		        Fiscal Year 2010 Review of Information Systems Controls in Support of the 		
      			                   Financial Statements Audit, 01/14/2011.
      2011-FO-0003		        Additional Details to Supplement Our Report on HUD’s Fiscal Years 2010 and 2009 	
      			                   Financial Statements, 11/15/2010. Better use: $753,500,000.
      2011-FO-0004		        Annual Evaluation of HUD’s Compliance With Presidential Executive Order 13520, 	
      			                   Reducing Improper Payments, 12/07/2010.
      Chief Information Officer (4 Reports)
      2011-DP-0001		        HUD Did Not Properly Manage HITS Contracts and Contractors To Fully Comply 		
      			                   With Contract Requirements and Acquisition Regulations, 10/06/2010.
      2011-DP-0002		        Better Planning for the Unisys Rehost Project Was Needed, 11/19/2010.
      2011-DP-0005		        Although HUD Continued to Make Improvements to Its Entitywide Security 		
      			                   Program, Challenges Remained in Its Efforts To Comply with Federal Information 	
      			                   Security Requirements, 02/10/2011.
      2011-DP-0006		        HUD’s Controls Over Selected Configuration Management Activities Need 		
      			                   Improvement, 03/24/2011.
      Government National Mortgage Association (1 Report)
      2011-FO-0001		        Audit of Ginnie Mae’s Financial Statements for Fiscal Years 2010 and 2009, 		
      			                   11/05/2010.
      Housing (3 Reports)
      2011-FO-0002		        Audit of the FHA’s Financial Statements for Fiscal Years 2010 and 2009, 11/05/2010.
      2011-HA-0001		        HUD Did Not Adequately Plan the Procurement of the Management and Marketing 	
      			                   Contracts, 11/09/2010.
      2011-LA-0001		        HUD Did Not Provide Adequate Oversight and Guidance During the Technical 		
      			                   Review of the Retreat at Santa Rita Springs, 01/21/2011.	
      Office of Chief Human Capital Officer (1 Report)
      2011-PH-0001		        HUD Hired Employees in Accordance With Office of Personnel Management 		
      			                   Guidelines for Streamlining the Federal Hiring Process, 01/25/2011.
      Public and Indian Housing (2 Reports)
      2011-CH-0001		        HUD Can Improve Its Oversight of Public Housing Agencies’ Section 8 Project-		
      			                   Based Voucher Programs, 11/16/2010.
      2011-NY-0001		        HUD’s Oversight of Public Housing Authorities’ Energy Performance Contracting in 	
      			                   New York and New Jersey Had Not been Sufficient, but HUD Had Taken 			
      			                   Appropriate Steps To Improve Controls, 02/01/2011.


                                                       nnn




138                                                                             Appendix 2 - Audit Reports Issued
External Reports
63 Audit Reports
Community Planning and Development (26 Reports)
2011-AO-1001		         The State of Louisiana Generally Ensured That Disbursements to Small Rental 		
			                    Property Program Participants Were Eligible and Supported, Baton Rouge, 		
			                    LA, 10/28/2010.
2011-AO-1002		         The State of Louisiana Did Not Always Ensure That Disbursements Under Its First 	
			                    Time Homebuyer Program Complied With Federal Regulations and Program 		
			                    Requirements, Baton Rouge, LA, 10/29/2010. Questioned: $2,817,530; 			
			                    Unsupported: $2,549,115.
2011-AT-1004		         Mecklenburg County Mismanaged Its Shelter Plus Care Program, Charlotte, NC, 		
			                    01/21/2011. Questioned: $466,175; Unsupported: $441,100.
2011-BO-1007		         The Community Builders Is Expected To Expend Funding Within the Deadline and 	
			                    Meet Its Goals for the NSP 2, Boston, MA, 03/21/2011.
2011-CH-1001		         The City of Flint Lacked Adequate Controls Over Its HOME Program Regarding 		
			                    Community Housing Development Organizations’ Home-Buyer Projects, 			
			                    Subrecipients’ Activities, and Reporting Accomplishments in HUD’s System, Flint, 	
			                    MI, 10/13/2010. Questioned: $2,236,722; Unsupported: $64,761; Better use: $646,298.
2011-CH-1003		         The City of Cleveland Lacked Adequate Controls Over Its HOME Investment 		
			                    Partnerships Program and American Dream Downpayment Initiative-Funded 		
			                    Afford-A-Home Program, Cleveland, OH, 12/27/2010. Questioned: $810,000; 		
			                    Unsupported: $760,000; Better use: $90,000.
2011-CH-1004		         The State of Indiana’s Administrator Lacked Adequate Controls Over the State’s 		
			                    HOME Investment Partnerships Program and American Dream Downpayment 		
			                    Initiative-Funded First Home/PLUS Program, Indianapolis, IN, 01/31/2011. 		
			                    Questioned: $942,071; Unsupported: $803,445; Better use: $123,768.
2011-FW-1006		         The Texas Department of Housing and Community Affairs Generally Ensured 		
			                    That Its Program Management Firm Complied With Requirements, Austin, 		
			                    TX, 01/26/2011. Questioned: $71,691.
2011-KC-1001		         The City of East St. Louis Did Not Properly Manage Housing Rehabilitation 		
			                    Contracts Funded by the CDBG Program, East St. Louis, IL, 02/09/2011. 			
			                    Questioned: $127,780; Better use: $400,000.
2011-LA-1001		         The City of Los Angeles Housing Department Did Not Always Effectively 			
			                    Administer Its Homelessness Prevention and Rapid Re-Housing Program, 		
			                    Los Angeles, CA, 10/25/2010.
2011-LA-1004		         The Community Development Programs Center of Nevada Did Not Fully Comply 	
			                    With NSP Requirements, Las Vegas, NV, 12/21/2010. Questioned: $10,831; 		
			                    Unsupported: 	$10,831.
2011-LA-1005		         The City and County of San Francisco Did Not Always Ensure That Homelessness 	
			                    Prevention and Rapid Re-Housing Funds Were Used as Required, San Francisco, 	
			                    CA, 12/21/2010. Questioned: $63,008; Unsupported: $54,188.
2011-LA-1006		         The City of Mesa Needs To Improve Its Procedures for Administering Its NSP 		
			                    Grant, Mesa, AZ, 02/08/2011. Questioned: $22,344; Better use: $328,207.




Appendix 2 - Audit Reports Issued                                                                            139
      2011-LA-1007		     Allegations of Lutheran Social Services of Northern California’s Misuse of 		
      			                Homelessness Prevention and Rapid Re-Housing Program Funds Were 			
      			                Unsubstantiated, Sacramento, CA, 02/08/2011.
      2011-NY-1002		     The City of Bayonne Did Not Adequately Administer Its Economic Development 		
      			                Program, Bayonne, NJ, 11/12/2010. Questioned: $645,601; Better use: $196,292.
      2011-NY-1004		     The City of Binghamton Did Not Always Administer Its Section 108 Loan Program 	
      			                in Accordance With HUD Requirements, Binghamton, NY, 12/21/2010. 			
      			                Questioned: $3,926,961; Unsupported: $2,403,393; Better use: $81,561.
      2011-NY-1005		     The Lower Manhattan Development Corporation CDBG Disaster Recovery 		
      			                Assistance Funds, New York, NY, 02/07/2011.
      2011-PH-1001		     The Virginia Housing Development Authority Generally Administered Its Tax Credit 	
      			                Assistance Program Funded Under the Recovery Act in Accordance With 		
      			                Applicable Requirements, Richmond, VA, 10/25/2010.
      2011-PH-1002		     The City of Scranton Did Not Administer Its CDBG Program in Accordance With 		
      			                HUD Requirements, Scranton, PA, 11/08/2010. Questioned: $11,735,924; 			
      			                Unsupported: $11,735,924.
      2011-PH-1003		     The Pennsylvania Housing Finance Agency Generally Administered Its Tax Credit 	
      			                Assistance Program Funded Under the Recovery Act in Accordance With 		
      			                Applicable Requirements, Harrisburg, PA, 11/08/2010. Questioned: $287,526; 		
      			                Unsupported: $151,936.
      2011-PH-1005		     The District of Columbia Did Not Administer Its HOME Program in Accordance 		
      			                With Federal Requirements, Washington, DC, 12/23/2010. Questioned: $8,174,880; 	
      			                Unsupported: $6,479,685; Better use: $1,884,526.
      2011-PH-1006		     The City of Pittsburgh Can Improve Its Administration of Its CDBG Recovery 		
      			                Act Funds, Pittsburgh, PA, 01/31/2011. Questioned: $400,000; Unsupported: $400,000.
      2011-PH-1008		     The West Virginia Housing Development Fund Generally Administered Its Tax 		
      			                Credit Assistance Program Funded Under the Recovery Act in Accordance 		
      			                With Applicable Requirements, Charleston, WV, 03/21/2011.
      2011-SE-1002		     Washington State Housing Finance Commission Did not Always Disburse Its 		
      			                Tax Credit Assistance Program Funds in Accordance With Program Requirements, 	
      			                Seattle, WA, 01/19/2011. Questioned: $187,104; Unsupported: $17,068.
      2011-SE-1003		     Oregon Housing and Community Services Allowed a Developer To use NSP 		
      			                Funds for Ineligible Purposes, Salem, OR, 03/01/2011. Questioned: $5,000.
      2011-SE-1004		     Oregon Housing and Community Services Generally Complied With NSP 		
      			                2 Requirements, Salem, OR, 03/28/2011.
      General Counsel (1 Report)
      2011-PH-1009		     Deutsche Bank Berkshire Mortgage, Inc., Acquired a $45.6 Million Loan That Was 	
      			                Not Properly Underwritten in Accordance With HUD’s Multifamily Accelerated 		
      			                Processing Program, Bethesda, MD, 03/22/2011. Questioned: $29,774,713.
      Housing (10 Reports)
      2011-AT-1001		     Nationwide Home Loans Did Not Follow HUD Requirements in Approving FHA 		
      			                Loans and Implementing Its Quality Control Program, Miami, FL, 10/25/2010. 		
      			                Better use: $5,186,994.




140                                                                          Appendix 2 - Audit Reports Issued
2011-BO-1004		         The Neighborhood Assistance Corporation of America Generally Administered 		
			                    Its HUD Grants Used for Housing Counseling Activities in Accordance With HUD 		
			                    Requirements, Jamaica Plain, MA, 02/16/2011.
2011-BO-1005		         Semper Home Loans, Inc., Needs To Improve Its Quality Control Process for 		
			                    Loan Origination and Updating of Mortgage Records, Providence, RI, 03/02/2011. 	
			                    Questioned: $169,000; Better use: $179,400.
2011-DE-1001		         Citizen Complaint Against BIONIC Real Estate Services, LLC, Regarding 			
			                    Its Management of a HUD Section 236-Insured Multifamily Property Cannot 		
			                    Be Supported, St. Joseph, MO, 11/08/2010.
2011-FW-1002		         Gold Financial Services, Inc., Did Not Follow HUD/FHA Requirements in 			
			                    Underwriting Two Loans and Originated a Third in Violation of Its Own Internal 		
			                    Controls, San Antonio, TX, 10/25/2010. Questioned: $71,259; Better use: $86,885.
2011-FW-1003		         WR Starkey Mortgage, LLP, Did Not Follow HUD Underwriting Requirements for 		
			                    13 of 14 Loans Reviewed, Plano, TX, 12/17/2010. Questioned: $360,032; Better 		
			                    use: $543,482.
2011-LA-1003		         Naomi Gardens Did Not Comply With HUD Procurement and Waiting List 		
			                    Requirements, Arcadia, CA, 11/24/2010.
2011-NY-1006		         Financial Management and Procurement Controls at Westbeth Artists Houses 		
			                    Did Not Always Comply With Regulations, New York, NY, 03/10/2011. Questioned: 	
			                    $377,516; Unsupported: $332,836.
2011-PH-1004		         NFM, Inc., Did Not Fully Implement Its Quality Control Plan in Accordance With 		
			                    HUD Requirements, Linthicum, MD, 11/10/2010.
2011-SE-1001		         Alaska Housing Finance Corporation’s Management and Occupancy Reviews 		
			                    Were Not Always as Comprehensive as Required for a Section 8 Performance-		
			                    Based Contract Administrator, Anchorage, AK, 12/17/2010.
Lead Hazard Control (1 Report)
2011-CH-1002		         ACORN Associates, Inc., Materially Failed To use Its Lead Elimination 			
			                    Action Program Grant Funds Appropriately, New Orleans, LA, 11/08/2010. 		
			                    Questioned: $3,247,078; Unsupported: $2,047,163; Better use: $752,842.
Public and Indian Housing (20 Reports)
2011-AO-1003		         The Housing Authority of East Baton Rouge Parish Generally Ensured That It Met 		
			                    HUD and the Recovery Act Requirements but Incurred an Ineligible Expenditure, 	
			                    Baton Rouge, LA, 01/04/2011.
2011-AT-1002		         The East Point Housing Authority Made Excessive Housing Assistance Payments 		
			                    for a Zero-Income Tenant and Its Units Did Not Meet Housing Quality Standards, 		
			                    East Point, GA, 11/22/2010. Questioned: $38,447.
2011-AT-1003		         The Housing Authority, City of Wilson, Mismanaged Its Section 8 Program, Wilson, 	
			                    NC, 01/14/2011. Questioned: $124,346; Unsupported: $14,568.
2011-BO-1001		         The Cambridge Housing Authority Generally Administered Its Public Housing 		
			                    Capital Fund Stimulus (Formula) Recovery Act Funded Grant in Accordance With 	
			                    Applicable Requirements, Cambridge, MA, 11/02/2010.
2011-BO-1002		         Brockton Housing Authority Needs To Improve Controls over its Interprogram 		
			                    Fund Transactions and Housing Choice Voucher Program Procurements, 			
			                    Brockton, MA, 12/13/2010. Questioned: $1,146,168; Unsupported: $1,146,168.




Appendix 2 - Audit Reports Issued                                                                           141
      2011-BO-1003		   The Housing Authority of the City of New Haven Did Not Support Cost 			
      			              Reasonableness for More Than $1.4 Million or Properly Obligate $60,000 			
      			              of Its Capital Fund Stimulus Recovery Act Grant, New Haven, CT, 				
      			              12/17/2010. Questioned: $1,498,948; Unsupported: $1,438,948.
      2011-BO-1006		   The New Bedford Housing Authority Generally Administered Its Public Housing 		
      			              Capital Fund Stimulus Formula and Competitive Grants (Recovery Act Funded) in 	
      			              Accordance With Applicable Requirements, New Bedford, MA, 03/03/2011.
      2011-CH-1005		   The Housing Authority of the County of Cook Needs To Improve Its Controls 		
      			              Over Its Administration of Section 8 Housing Assistance Payments to Its Nonprofit 	
      			              Units, Chicago, IL, 02/07/2011. Questioned: $35,193; Better use: $10,688.
      2011-CH-1006		   The DuPage Housing Authority Inappropriately Administered Its Section 8 Housing 	
      			              Choice Voucher Program, Wheaton, IL, 03/23/2011. Questioned: $5,532,347; 		
      			              Unsupported: $400,250.
      2011-FW-1001		   The Housing Authority of the City of Shreveport Mismanaged Its Recovery 		
      			              Act Funds by Entering into Imprudent Contracts to Meet the Obligation Deadline, 	
      			              Shreveport, LA, 10/14/2010. Questioned: $1,147,670.
      2011-FW-1004		   The West Memphis Housing Authority Generally Administered Its Recovery Act 		
      			              Funding in Compliance with Requirements, West Memphis, AR, 01/05/2011. 		
      			              Questioned: $23,412.
      2011-FW-1005		   The Housing Authority of the City of Port Arthur Mismanaged Its Recovery Act 		
      			              Funding, Port Arthur, TX, 01/25/2011. Questioned: $725,546.
      2011-KC-1002		   The East St. Louis Housing Authority Drew Capital Funds for Unsupported and 		
      			              Ineligible Expenses, East St. Louis, IL, 03/01/2011. Questioned: $171,687; 			
      			              Unsupported: $90,534.
      2011-LA-1002		   The Housing Authority of the City of Los Angeles Generally Had Capacity; 		
      			              However, It Needs To Improve Controls Over Its Administration of Its Capital Fund 	
      			              Grant Awarded Under The Recovery Act Program, Los Angeles, CA, 11/04/2010. 		
      			              Questioned: $369,259; Unsupported: $369,259.
      2011-LA-1008		   The Hawthorne Housing Authority Failed To Maintain an Adequate Financial 		
      			              Management System, Hawthorne, CA, 03/28/2011. Questioned: $1,488,455; Better 	
      			              use: $450,000.
      2011-NY-1001		   The Jersey City Housing Authority Had Administration Weaknesses in Its Capital 		
      			              Fund Programs, Jersey City, NJ, 10/19/2010. Questioned: $5,636,567; Unsupported: 	
      			              $5,583,115; Better use: $1,479,147.
      2011-NY-1003		   The Irvington Housing Authority Did Not Administer Its Capital Fund Programs in 	
      			              Accordance With HUD Regulations, Irvington, NJ, 11/24/2010. Questioned: 		
      			              $2,631,523; Unsupported: $2,422,132; Better use: $60,621.
      2011-NY-1007		   The Jersey City Housing Authority Had Financial Control Weaknesses in Its 		
      			              Recovery Act Funded Public Housing Capital Fund Program, Jersey City, 			
      			              NJ, 03/11/2011. Questioned: $18,574.
      2011-NY-1008		   The Jersey City Housing Authority Did Not Always Obligate or Disburse 			
      			              Replacement Housing Factor Capital Fund Grants in a Timely Manner, Jersey City, 	
      			              NJ, 03/18/2011. Questioned: $3,118,327.




142                                                                        Appendix 2 - Audit Reports Issued
2011-PH-1007		          The Philadelphia Housing Authority Did Not Comply With Several Significant HUD 	
			                     Requirements and Failed To Support Payments for Outside Legal Services, 		
			                     Philadelphia, PA, 03/10/2011. Questioned: $4,496,120; Unsupported: $4,496,120.

Audit-Related Memorandums1
Community Planning and Development (2 Reports)
2011-AT-1801		          The City of Columbus Demonstrated the Capacity to Obligate Its NSP-1 Funds, 		
			                     Columbus, GA, 11/24/2010.
2011-AT-1802		          The Municipality of Arecibo Charged the HOME Program With Expenditures 		
			                     That Did Not Meet Program Objectives, Arecibo, PR, 01/27/2011. Questioned: 		
			                     $483,500; Unsupported: $431,489; Better use: $108,635.
Housing (3 Reports)
2011-CF-1801		          An Underwriting Review of 15 FHA Lenders Demonstrated That HUD Missed 		
			                     Critical Opportunities To Recover Losses to the FHA Insurance Fund, Washington, 	
			                     DC, 03/02/2011.
2011-FW-1801		          Review of Allied Home Mortgage Capital Corporation’s Fiscal Year 2009 Financial 	
			                     Statements, Houston, TX, 11/01/2010.
2011-LA-1801		          Review of Compliance With the Real Estate Settlement Procedures Act by DHI 		
			                     Mortgage, LTD, and Its Closing Agents, Tucson & Scottsdale, AZ, 02/09/2011.



                                                       nnn




1
 The memorandum format is used to communicate the results of reviews not performed in accordance
with generally accepted government auditing standards, to close out assignments with no findings and
recommendations, to respond to requests for information, to report on the results of a survey, or to report the
results of civil actions or settlements.



Appendix 2 - Audit Reports Issued                                                                                 143
Appendix 3 - Tables
                                              Table A
                             Audit reports issued before the start of the period
                              with no management decision at March 31, 2011
                    *Significant audit reports described in previous semiannual reports
                 Report number                   Reason for lack of               Issue date
                    and title                   management decision

      * 2009-AT-0001 HUD Lacked Adequate       See chapter 10, page 128.          09/28/2009
      Controls to Ensure the Timely
      Commitment and Expenditure of HOME
      funds

      2010-KC-0002 FHA Delayed Sending         See chapter 10, page 129.          08/06/2010
      Violation Notices to Lenders That Did
      Not Meet Recertification Requirements




146                                                                                  Appendix 3 - Tables
                                           Table B
                Significant audit reports on which final action had not been completed
                                 within 12 months after the date of the
                                      Inspector General’s report
    Report                      Report title                   Issue      Decision         Final
    number                                                      date       date           action

 2002-AT-1002     Housing Authority of the City of Tupelo,   07/03/2002   10/31/2002     07/01/2015
                  Housing Programs Operations, Tupelo, MS
                  	
 2002-KC-0002     Nationwide Survey of HUD’s Office of       07/31/2002   11/22/2002     08/30/2011
                  Housing Section 232 Nursing Home
                  Program

 2004-DP-0002     Application Control Review of the Tenant   02/25/2004   07/14/2004     12/31/2011
                  Rental Assistance Certification System

 2005-AT-1004     Housing Authority of the City of Durham,   11/19/2004   03/15/2005     03/15/2015
                  NC

 2005-CH-1002     Washington Mutual Bank, Underwriting of    11/29/2004   01/28/2005     07/31/2011
                  FHA-Insured Loans, Downers Grove, IL

 2005-NY-1005     The Housing Authority of the City of       05/26/2005   09/23/2005     10/11/2011
                  Newark Bond Financing Activities and
                  Section 8 Housing Choice Voucher
                  Administrative Fee Reserves, Newark, NJ

 2005-AT-1013     Corporacion Para el Fomento Economico      09/15/2005   01/11/2006      Note 1
                  de la Ciudad Capital Did Not Administer
                  Its Independent Capital Fund in
                  Accordance with HUD Requirements, San
                  Juan, PR

 2006-CH-0001     Real Estate Assessment Center’s Physical   11/30/2005   01/10/2006     12/31/2011
                  Condition Assessment Was Compromised

 2006-NY-1003     The Housing Authority of the City of       02/14/2006   08/17/2006     09/13/2012
                  Newark’s Controls Over Bond Financing
                  Activities, Obtaining Supporting
                  Documentation, and Legal Settlements
                  Require Improvement, Newark, NJ

 2006-SE-0002     The Office of Single Family Housing        08/16/2006   03/30/2007      Note 1
                  Expanded Late Endorsement Eligibility
                  Without Studying Associated Risks

 2006-KC-1013     The Columbus Housing Authority             08/30/2006   10/17/2006     11/30/2012
                  Improperly Expended and Encumbered
                  Its Public Housing Funds, Columbus, NE



Appendix 3 - Tables                                                                                   147
        Report                     Report title                    Issue      Decision         Final
        number                                                      date       date           action

      2006-DP-0802   Assessment of HUD’s Compliance with         09/21/2006   11/24/2006    09/30/2014
                     OMB Memorandum M-06-16, “Protection
                     of Sensitive Agency Information”

      2007-LA-0001   Tax Credit Project Owners Are Allowed       11/08/2006   07/05/2007      Note 2
                     To Charge Higher Rents for Tenant-Based
                     Section 8 Voucher Households than Non-
                     Voucher Households

      2007-DP-0003   Review of HUD’s Procurement Systems         01/25/2007   05/25/2007    10/15/2011

      2007-KC-0002   HUD Can Improve Its Use of Residual         01/29/2007   01/29/2007      Note 2
                     Receipts To Reduce Housing Assistance
                     Payments

      2007-KC-0003   HUD Did Not Recapture Excess Funds          04/30/2007   08/27/2007      Note 1
                     from Assigned Bond-Financed Projects

      2007-BO-0002   HUD Did Not Process Multifamily             05/21/2007   09/07/2007      Note 2
                     Accelerated Processing Applications
                     within Established Processing Goals and
                     the Multifamily Accelerated Processing
                     Guide Is Outdated

      2007-SE-0001   HUD’s Oversight of the Section 8 Project-   06/07/2007   10/05/2007      Note 1
                     Based Contract

      2007-FW-1011 Capmark Finance, Inc., Misrepresented         07/02/2007   10/23/2007      Note 2
                   Asbury Square Apartments’ Financial and
                   Physical Condition When Underwriting
                   the $9.098 Million Loan, Tulsa, OK

      2007-AT-1010   The Cathedral Foundation of Jacksonville    08/14/2007   12/03/2007      Note 2
                     Used More Than $2.65 Million in Project
                     Funds for Questioned Costs, Jacksonville,
                     FL

      2007-DP-0006   Review of HUD’s Personal Identity           08/28/2007   12/20/2007      Note 1
                     Verification and Privacy Program

      2007-AT-0001   HUD Needs To Improve Controls Over Its      09/19/2007   09/19/2007      Note 1
                     Contract Administration Processes

      2007-KC-0801   Lenders Submitted Title II Manufactured     09/24/2007   03/11/2008      Note 2
                     Housing Loans for Endorsement without
                     the Required Foundation Certifications

      2007-CH-1017   The City of Cincinnati Lacked Adequate      09/30/2007   01/28/2008    09/30/2011
                     Controls over Its HOME Investment
                     Partnerships Program, Cincinnati, OH

148                                                                                    Appendix 3 - Tables
    Report                      Report title                  Issue      Decision       Final
    number                                                     date       date         action

 2008-LA-0001     The Los Angeles Multifamily Hub Did Not   11/05/2007   03/03/2008    Note 1
                  Properly Monitor Its Performance-Based
                  Contract Administrator, Los Angeles
                  LOMOD

 2008-LA-1003     Home for Life Foundation Did Not          12/18/2007   02/26/2008   04/01/2013
                  Properly Administer Its Supportive
                  Housing Program Grants, Los Angeles, CA

 2008-AT-1004     The City of West Palm Beach Did Not       01/09/2008   05/05/2008   05/01/2012
                  Properly Administer Its CDBG Program,
                  West Palm Beach, FL
                  	
 2008-AT-1005     The City of Fort Lauderdale Did Not       01/11/2008   05/05/2008   05/01/2012
                  Properly Administer Its CDBG Program,
                  Fort Lauderdale, FL

 2008-NY-1003     The City of New York’s Department of      01/23/2008   05/21/2008    Note 1
                  Housing Preservation and Development
                  Had Administrative Weaknesses in Its
                  HOME Program, New York, NY

 2008-AO-1002     State of Louisiana, Road Home Program,    01/30/2008   05/12/2008    Note 1
                  Funded 418 Grants Coded Ineligible or
                  Lacking an Eligibility Determination,
                  Baton Rouge, LA

 2008-KC-0002     HUD Did Not Ensure That Housing           03/24/2008   07/22/2008   10/01/2011
                  Authorities Properly Administered the
                  Community Service and Self-Sufficiency
                  Requirement

 2008-AO-0801     Review of Duplication of Participants     03/28/2008   08/01/2008    Note 1
                  Benefits under HUD’s Katrina Disaster
                  Housing Assistance Program and Disaster
                  Voucher Program

 2008-AT-0003     HUD Lacked Adequate Controls over the     05/14/2008   09/10/2008   09/30/2012
                  Physical Condition of Section 8 Voucher
                  Program Housing Stock

 2008-BO-0002     Maintenance of Effort Requirements Are    05/21/2008   10/02/2008    Note 1
                  Needed to Ensure Intended Use of CDBG
                  Program Funds

 2008-CH-1010     The City of Cincinnati Lacked Adequate    06/11/2008   10/09/2008   07/13/2011
                  Controls over Its System Reporting and
                  Rental Rehabilitation Projects for Its
                  HOME Investment Partnerships Program,
                  Cincinnati, OH

Appendix 3 - Tables                                                                                149
        Report                     Report title                  Issue      Decision         Final
        number                                                    date       date           action

      2008-DP-0004   Review of Selected FHA Major              06/12/2008   10/08/2008      Note 1
                     Applications’ Information Security
                     Controls

      2008-LA-1012   The Housing Authority of the City of      07/01/2008   10/14/2008    12/31/2013
                     Calexico Did Not Comply with Public
                     Housing Program Rules and Regulations,
                     Calexico, CA

      2008-AO-1005   State of Louisiana, Road Home Program,    08/07/2008   01/13/2009      Note 1
                     Did Not Ensure That All Additional
                     Compensation Grant Applicants Were
                     Eligible, Baton Rouge, LA

      2008-CH-1014   The City of Cincinnati Did Not Adequately 09/26/2008   01/22/2009    07/31/2011
                     Manage Its HOME Investment Partnerships
                     Program, Cincinnati, OH

      2009-CH-1001   New Phoenix Assistance Center             10/24/2008   02/20/2009      Note 1
                     Substantially Failed to Manage Its
                     Supportive Housing Program Grant,
                     Chicago, IL

      2009-FO-0002   Audit of the FHA’s Financial Statements   11/07/2008   03/13/2009    04/15/2011
                     for Fiscal Years 2008 and 2007

      2009-FO-0003   Additional Details to Supplement Our      11/14/2008   03/19/2009    12/31/2011
                     Report on HUD’s Fiscal Years 2008 and
                     2007 Financial Statements

      2009-FW-1002 The Owner of Ebony Lake Healthcare          11/25/2008   03/25/2009    10/01/2011
                   Center Violated Its Regulatory Agreement
                   with HUD, Brownsville, TX

      2009-DP-0003   Review of the Centralized HUD Account     01/09/2009   04/30/2009      Note 2
                     Management Process

      2009-AO-0002   HUD’s Receivership Did Not Ensure That    01/29/2009   08/21/2009      Note 2
                     the Housing Authority of New Orleans
                     Properly Accounted for Its Fungibility
                     Funding, Monitored and Paid Two of
                     Its Contractors, and Paid Its Accounts
                     Payable Disbursements

      2009-NY-1008   The City of Newburgh Did Not Always       02/24/2009   06/11/2009      Note 2
                     Administer Its CDBG Program in
                     Accordance with HUD Requirements,
                     Newburgh, NY




150                                                                                  Appendix 3 - Tables
    Report                      Report title                 Issue      Decision       Final
    number                                                    date       date         action

 2009-AO-1001     State of Louisiana, Road Home Program,   05/05/2009   09/16/2009    Note 2
                  Did Not Ensure That Road Home
                  Employees Were Eligible to Receive
                  Additional Compensation Grants, Baton
                  Rouge, LA

 2009-AO-1002     State of Louisiana, Road Home            05/05/2009   09/16/2009    Note 2
                  Program, Did Not Ensure That Multiple
                  Disbursements to a Single Damaged
                  Residence Address Were Eligible, Baton
                  Rouge, LA

 2009-CH-1008     The City of East Cleveland Did Not       05/11/2009   09/08/2009   09/08/2011
                  Adequately Manage Its HOME Investment
                  Partnerships and CDBG Programs, East
                  Cleveland, OH

 2009-NY-1012     The City of Rome Did Not Administer      05/20/2009   09/23/2009    Note 2
                  Its Economic Development Activity in
                  Accordance with HUD Requirements,
                  Rome, NY

 2009-FW-0801 Tenant Confirmation for Disaster Housing     05/28/2009   09/25/2009   10/01/2011
              Assistance Program for March and April
              2009

 2009-DP-0005     Review of Implementation of Security     06/11/2009   11/17/2009   12/31/2014
                  Controls over HUD’s Business Partners

 2009-AT-1008     Miami-Dade County Did Not Properly       06/19/2009   09/25/2009    Note 2
                  Administer Its CDBG Program, Miami, FL

 2009-PH-0801     Corrective Action Verification Review,   06/19/2009   07/09/2009    Note 2
                  Upfront Grant for Ridgecrest Heights
                  Apartments, CEMI-Ridgecrest, Inc.,
                  Washington, DC, Audit Memorandum
                  98-AO-219-1804

 2009-FW-0001 HUD’s Disaster Recovery Grant Reporting      06/25/2009   10/23/2009    Note 2
              System Can Collect the Basic Information
              Needed to Monitor the Neighborhood
              Stabilization Program

 2009-LA-1011     City of Los Angeles Housing Department   07/01/2009   10/21/2009   09/01/2011
                  Did Not Ensure That the Buckingham
                  Place Project Met HOME Program
                  Requirements, Los Angeles, CA




Appendix 3 - Tables                                                                               151
        Report                     Report title                   Issue      Decision         Final
        number                                                     date       date           action

      2009-AT-1009   The Housing Authority of the City of       07/20/2009   11/16/2009    06/30/2011
                     Newnan Inappropriately Encumbered
                     Assets and Advanced Funds to Support Its
                     Nonprofit Organization, Newnan, GA

      2009-KC-1008   Grace Hill Used Neighborhood Initiative    07/24/2009   10/13/2009      Note 2
                     Grant Funds to Pay Unsupported Payroll
                     Expenses and Duplicated Computer
                     Support Costs, St. Louis, MO

      2009-CH-1011   The Housing Authority of the City of       07/31/2009   11/24/2009    01/01/2030
                     Terre Haute Failed to Follow Federal
                     Requirements and Its Employment
                     Contract Regarding Nonprofit
                     Development Activities, Terre Haute, IN

      2009-KC-0001   HUD Subsidized an Estimated 2,094 to       08/14/2009   03/31/2011    12/31/2013
                     3,046 Households That Included Lifetime
                     Registered Sex Offenders

      2009-AT-1011   The City of Miami Did Not Properly         08/18/2009   12/15/2009    04/04/2011
                     Administer Its CDBG Program, Miami, FL

      2009-CH-0002   The Office of Affordable Housing           08/28/2009   12/26/2009      Note 2
                     Programs’ Oversight of HOME Investment
                     Partnerships Program Income Was
                     Inadequate

      2009-LA-1018   DHI Mortgage Company, LTD’s Scottsdale     09/10/2009   01/08/2010    06/30/2011
                     and Tucson, AZ, Branches Did Not Always
                     Follow FHA-Insured Loan Underwriting
                     and Quality Control Reaquirements

      2009-LA-1019   The Owner of Park Lee Apartments           09/15/2009   01/13/2010    07/13/2011
                     Violated Its Regulatory Agreement with
                     HUD, Phoenix, AZ

      2009-DE-1005   Adams County Did Not Have Adequate         09/17/2009   01/15/2010      Note 2
                     Controls over Its Block Grant Funds,
                     Westminster, CO

      2009-AO-1003   Louisiana Land Trust, As the State of      09/23/2009   01/26/2010      Note 2
                     Louisiana’s Subrecipient, Did Not Always
                     Ensure That Properties Were Properly
                     Maintained, Baton Rouge, LA

      2009-DE-1801   Adams County Had Weaknesses That           09/24/2009   01/14/2010      Note 2
                     Could Significantly Affect Its Capacity
                     to Administer Its Recovery Act Funding,
                     Commerce City, CO

152                                                                                   Appendix 3 - Tables
    Report                      Report title                   Issue      Decision       Final
    number                                                      date       date         action

 2009-LA-1020     The Housing Authority of the City of       09/24/2009   12/29/2009   04/30/2011
                  Richmond Did Not Follow Procurement
                  Requirements and Had Internal Control
                  Weaknesses, Richmond, CA

 2009-AT-1012     The Municipality of Río Grande Needs       09/25/2009   01/22/2010    Note 2
                  to Improve Administration of Its CDBG
                  Program and Its Recovery Act Funds, Rio
                  Grande, PR

 2009-AT-0001     HUD Lacked Adequate Controls to Ensure     09/28/2009   03/18/2011    Note 3
                  the Timely Commitment and Expenditure
                  of HOME Funds

 2009-AT-1013     The City of Atlanta Entered Incorrect      09/28/2009   11/05/2009    Note 2
                  Commitments into HUD’s Integrated
                  Disbursement and Information System for
                  its HOME Program, Atlanta, GA

 2009-CH-1017     The Housing Authority of the City of       09/29/2009   01/22/2010   06/30/2011
                  Terre Haute Failed to Follow Federal
                  Requirements Regarding Its Turnkey III
                  Homeownership Program Units’ Sales
                  Proceeds, Terre Haute, IN

 2009-DP-0006     Review of HUD’s Web Application            09/29/2009   12/17/2009   09/30/2011
                  Systems

 2009-AT-1015     The Puerto Rico Public Housing             09/30/2009   01/27/2010   05/05/2011
                  Administration Mismanaged Its
                  Capital Fund Financing Program and
                  Inappropriately Obligated $32 Million in
                  Recovery Act Funds, San Juan, PR

 2009-CH-1019     The Michigan State Housing Development     09/30/2009   01/27/2010   02/01/2012
                  Authority Failed to Operate Its Section
                  8 Project-Based Voucher Program
                  According to HUD’s and Its Requirements,
                  Lansing, MI

 2009-CH-1020     The City of Flint Lacked Adequate          09/30/2009   01/27/2010    Note 2
                  Controls over Its Commitment and
                  Disbursement of HOME Investment
                  Partnerships Program Funds, Flint, MI

 2009-DP-0007     Review of Selected Controls within the     09/30/2009   03/26/2010    Note 2
                  Disaster Recovery Grant Reporting System




Appendix 3 - Tables                                                                                 153
        Report                     Report title                     Issue      Decision         Final
        number                                                       date       date           action

      2010-NY-1002   Jersey Mortgage Company Did Not Always 10/09/2009         03/19/2010      Note 2
                     Comply with HUD/FHA Loan Underwriting
                     Requirements, Cranford, NJ

      2010-FW-0001 HUD Did Not Maintain Documentation             11/10/2009   01/08/2010      Note 2
                   to Determine if Public Housing Agencies
                   Took Corrective Action on its January 7,
                   2008 Memorandum and Public Housing
                   Agencies Paid an Estimated $7 Million for
                   Deceased Tenants

      2010-LA-0001   HUD’s Performance-Based Contract             11/12/2009   03/12/2010      Note 2
                     Administration Contract Was Not Cost
                     Effective

      2010-FO-0002   Audit of the FHA’s Financial Statements      11/13/2009   03/05/2010      Note 2
                     for Fiscal Years 2009 and 2008

      2010-FO-0003   Additional Details to Supplement Our         11/16/2009   04/02/2010    04/01/2011
                     Report on HUD’s Fiscal Years 2009 and
                     2008 Financial Statements

      2010-BO-1002   The City of Holyoke, Office of Community     11/23/2009   09/30/2010    04/15/2011
                     Development, Needs to Improve Its
                     Administration of HOME- and CDBG-
                     Funded Housing Programs, Holyoke, MA

      2010-CH-1003   The Grand Rapids Housing Commission          11/24/2009   03/22/2010    10/01/2011
                     Needs to Improve Its Administration of Its
                     Section 8 Project-Based Voucher Program,
                     Grand Rapids, MI

      2010-AO-0801   HUD Needs to Ensure That the Housing         12/15/2009   04/19/2010    04/30/2012
                     Authority of New Orleans Strengthens
                     Its Capacity to Adequately Administer
                     Recovery Funding

      2010-NY-1005   The City of Paterson Did Not Always          12/18/2009   03/19/2010    06/30/2011
                     Administer Its CDBG Program in
                     Accordance with HUD Requirements,
                     Paterson, NJ

      2010-AO-1002   State of Louisiana Did Not Always            01/04/2010   05/14/2010      Note 2
                     Ensure Compliance Under Its Recovery
                     Workforce Training Program, Baton
                     Rouge, LA

      2010-NY-1802   Control Weaknesses at the Syracuse           01/14/2010   03/04/2010    08/31/2011
                     Housing Authority May Affect Its Capacity
                     to Administer American Recovery and
                     Reinvestment Act Funds, Syracuse, NY
154                                                                                     Appendix 3 - Tables
    Report                       Report title                     Issue      Decision       Final
    number                                                         date       date         action

 2010-FW-1002 The Housing Authority of the Sac and Fox          01/20/2010   04/23/2010   04/23/2011
              Nation of Oklahoma Improperly Spent
              More Than $800,000 in Contracts and Did
              Not Always Operate in Accordance with
              HUD Rules and Regulations or Its Own
              Policies, Shawnee, OK

 2010-NY-1007     The City of Jersey City Needs To              02/02/2010   04/05/2010   04/01/2011
                  Strengthen Its Controls To Ensure That
                  It Will Be Able To Effectively Administer
                  CDBG-R Funds, Jersey City, NJ

 2010-BO-0001     HUD Was Not Effective in Recovering the       02/18/2010   06/18/2010   05/01/2011
                  New London Housing Authority From
                  Troubled Status and Did Not Take the
                  Required Regulatory or Statutory Action

 2010-PH-0001     HUD’s Philadelphia, PA, Homeownership         02/26/2010   06/25/2010    Note 2
                  Center Did Not Always Ensure That
                  Required Background Investigations Were
                  Completed for Its Contracted Employees

 2010-DE-1002     Fort Belknap Indian Community Did Not         03/07/2010   06/25/2010   06/30/2011
                  Properly Administer Its Indian Housing
                  Block Grant Funds, Harlem, MT

 2010-KC-1001     The State of Iowa Misspent CDBG Disaster      03/10/2010   09/13/2010   10/31/2012
                  Assistance Funds and Failed To Check for
                  Duplicate Benefits, Des Moines, IA

 2010-NY-1803     The New York City Housing Authority Had       03/12/2010   06/03/2010   06/01/2011
                  the Capacity to Administer Capital Funds
                  Provided Under the American Recovery
                  and Reinvestment Act, New York, NY

 2010-LA-1009     DHI Mortgage Company, LTD’s Scottsdale,       03/19/2010   07/16/2010   06/02/2011
                  AZ, Branches Did Not Follow FHA-Insured
                  Loan Underwriting Requirements

 2010-KC-1003     The City of East St. Louis Did Not Properly   03/26/2010   07/22/2010   06/01/2011
                  Allocate Salary and Building Expenses or
                  Properly Document Its Process to Secure
                  a Consulting Services Contract, East St.
                  Louis, IL

 2010-CH-0001     The Office of Block Grant Assistance          03/29/2010   07/27/2010   06/01/2011
                  Lacked Adequate Controls Over the
                  Inclusion of Special Conditions in NSP
                  Grant Agreements


Appendix 3 - Tables                                                                                    155
                         Significant audit reports issued within the past 12 months
                            that were described in previous semiannual reports
                                on which final action had not been completed
                                             as of March 31, 2011

        Report                     Report title                    Issue      Decision         Final
        number                                                      date       date           action

      2010-DE-1801   The Fort Belknap Indian Community Had       04/23/2010   08/03/2010    07/31/2011
                     Weaknesses That Could Significantly
                     Affect Its Capacity To Administer Its
                     Recovery Act Funding, Harlem, MT

      2010-AT-1003   The Housing Authority of Whitesburg         04/28/2010   08/26/2010    11/29/2035
                     Mismanaged Its Operations, Whitesburg,
                     KY

      2010-AO-1003   The State of Louisiana’s Subrecipient       04/30/2010   08/27/2010      Note 2
                     Generally Ensured Costs Were Supported
                     Under Its Tourism Marketing Program,
                     Baton Rouge, LA

      2010-CH-1006   The Other Place, Inc., Needs To Improve     04/30/2010   08/10/2010    04/29/2011
                     the Administration of Its Homelessness
                     Prevention and Rapid Re-Housing
                     Program Under the ARRA, Dayton, OH

      2010-LA-1010   Arizona Department of Housing’s             05/07/2010   08/03/2010    05/31/2011
                     Administration of Its Recovery Act Grant:
                     Homelessness Prevention and Rapid Re-
                     Housing Program, Phoenix, AZ

      2010-PH-1008   Sasha Bruce Youthwork, Incorporated,        05/11/2010   11/03/2010    12/30/2011
                     Did Not Support More Than $1.9 Million in
                     Expenditures, Washington, DC

      2010-FW-1003 The Housing Authority of the Sac              05/13/2010   08/16/2010    07/31/2011
                   and Fox Nation of Oklahoma Did Not
                   Demonstrate the Administrative Capacity
                   To Appropriately Expend Its Recovery Act
                   Funding, Shawnee, OK

      2010-CH-1007   The Michigan State Housing Development      05/14/2010   09/08/2010    05/31/2012
                     Authority Needs To Improve Its Controls
                     Over Section 8 Project-Based Housing
                     Assistance Payments, Lansing, MI

      2010-AT-1004   Mobile Housing Board Used HOME              05/17/2010   08/31/2010    04/30/2011
                     Investment Partnerships Program Funds
                     for Ineligible and Unsupported Costs for
                     Its HOPE VI Redevelopment, Mobile, AL




156                                                                                    Appendix 3 - Tables
    Report                      Report title                    Issue      Decision       Final
    number                                                       date       date         action

 2010-KC-1004 The State of Iowa Did Not Implement             05/26/2010   10/13/2010   05/31/2011
              Adequate Controls Over Its Business
              Rental Assistance Program, Des Moines,
              IA
              	
 2010-FW-1004 The Georgetown Housing Authority Used           06/02/2010   08/20/2010   08/11/2011
              $195,855 for Ineligible and Unsupported
              Expenditures, Georgetown, TX

 2010-LA-1011     Sacramento Housing and Redevelopment        06/02/2010   02/22/2011   04/29/2011
                  Agency Did Not Always Administer the
                  NSP in Accordance With HUD Rules and
                  Regulations, Sacramento, CA

 2010-AT-1006     The Puerto Rico Department of Housing       06/11/2010   10/08/2010   10/31/2011
                  Failed To Properly Manage Its HOME
                  Investment Partnerships Program, San
                  Juan, PR

 2010-CH-1008     The DuPage Housing Authority                06/15/2010   10/08/2010   12/31/2012
                  Inappropriately Administered Its Section
                  8 Project-Based Voucher Program,
                  Wheaton, IL

 2010-AO-1004     The Mississippi Development Authority       06/22/2010   10/19/2010   07/01/2011
                  Generally Ensured That Contracts
                  Were Procured in Accordance With Its
                  Disaster Recovery Program Policies and
                  Procedures, Jackson, MS

 2010-NY-1012     The City of Jersey City’s CDBG Funds        07/01/2010   01/25/2011   01/15/2012
                  Used for a Float Loan Did Not Comply
                  With Applicable Regulations, Jersey City,
                  NJ

 2010-LA-1013     The City of Montebello Did Not Comply       07/08/2010   11/04/2010   11/01/2011
                  With HOME Requirements, Montebello,
                  CA

 2010-PH-1011     The Philadelphia Housing Authority Did      07/08/2010   09/27/2010   04/30/2011
                  Not Ensure That Its Section 8 Housing
                  Choice Voucher Program Units Met
                  Housing Quality Standards, Philadelphia,
                  PA

 2010-FW-1005 The Texas Department of Housing and             07/20/2010   11/16/2010   11/15/2011
              Community Affairs Did Not Fully Follow
              Requirements or Best Practices in the
              Acquisition of Its Disaster Recovery-
              Funded Program Management Firm,
              Austin, TX
Appendix 3 - Tables                                                                                  157
        Report                     Report title                    Issue      Decision         Final
        number                                                      date       date           action

      2010-CH-1807   Birmingham Bancorp Mortgage                 07/21/2010   11/12/2010    11/01/2011
                     Corporation Did Not Properly Underwrite
                     a Selection of FHA Loans, West
                     Bloomfield, MI
                     	
      2010-CH-1808   Mac-Clair Mortgage Corporation Did Not      07/22/2010   10/26/2010    11/01/2011
                     Properly Underwrite a Selection of FHA
                     Loans, Flint, MI

      2010-LA-1803   Alacrity Lending Company Did Not            07/26/2010   12/21/2010    11/01/2011
                     Properly Underwrite a Selection of FHA
                     Loans, Southlake, TX

      2010-AT-1007   The Housing Authority, City of Wilson,      07/27/2010   11/24/2010    11/27/2013
                     Lacked the Capacity To Effectively
                     Administer Recovery Act Funds, Wilson,
                     NC

      2010-BO-1006   Waltham Housing Authority Needs to          07/27/2010   11/24/2010    10/14/2011
                     Improve Controls Over Its Interprogram
                     Fund Transactions, Procurement, and
                     Travel for Its Housing Choice Voucher and
                     Low-Income Public Housing Programs,
                     Waltham, MA

      2010-CH-1010   The Housing Authority of the City of        07/27/2010   12/07/2010    11/04/2011
                     Terre Haute Substantially Mismanaged
                     Its Capital Fund Program and Lacked
                     Capacity To Adequately Administer Its
                     Recovery Act Funds, Terre Haute, IN

      2010-PH-1012   The Harrisburg Housing Authority Did    07/27/2010       09/27/2010    06/30/2011
                     Not Procure Goods and Services in
                     Accordance With HUD Regulations and Its
                     Procurement Policy, Harrisburg, PA

      2010-CH-1810   Dell Franklin Financial, LLC, Did Not       07/30/2010   12/10/2010    11/01/2011
                     Properly Underwrite a Selection of FHA
                     Loans, Millersville, MD

      2010-LA-1014   The Retreat at Santa Rita Springs Did Not   08/02/2010   11/29/2010    11/01/2011
                     Comply With HUD Rules and Regulations
                     and Other Federal Requirements, Green
                     Valley, AZ

      2010-AO-1005   The State of Louisiana’s Subrecipient       08/04/2010   01/13/2011    12/01/2011
                     Did Not Always Meet Agreement
                     Requirements When Administering
                     Projects Under the Orleans Parish Long
                     Term Community Recovery Program,
                     Baton Rouge, LA
158                                                                                    Appendix 3 - Tables
    Report                       Report title                     Issue      Decision       Final
    number                                                         date       date         action

 2010-CH-1811     D&R Mortgage Corporation Did Not              08/04/2010   12/22/2010   11/01/2011
                  Properly Underwrite a Selection of FHA
                  Loans, Farmington Hills, MI
                  	
 2010-CH-1011     The State of Illinois Needs To Improve        08/05/2010   11/27/2010   05/01/2011
                  Its Capacity To Effectively and Efficiently
                  Administer Its NSP, Chicago, IL

 2010-LA-1804     Assurity Financial Services, LLC, Did Not     08/05/2010   12/03/2010   12/02/2011
                  Properly Underwrite a Selection of FHA
                  Loans, Englewood, CO

 2010-LA-1805     Americare Investment Group Did Not            08/06/2010   12/16/2010   10/20/2011
                  Properly Underwrite a Selection of FHA
                  Loans, Arlington, TX

 2010-AT-1009     The Puerto Rico Public Housing                08/13/2010   10/29/2010   07/15/2011
                  Administration Needs To Improve Its
                  Procurement Procedures, San Juan, PR

 2010-AT-1010     The Housing Authority of DeKalb County        08/23/2010   11/18/2010   08/31/2011
                  Improperly Used Its Net Restricted Assets,
                  Decatur, GA

 2010-LA-1806     American Sterling Bank Did Not Properly       08/24/2010   12/22/2010   12/07/2011
                  Underwrite a Selection of FHA Loans,
                  Sugar Creek, MO

 2010-AT-1011     The Puerto Rico Department of Housing         08/25/2010   12/06/2010   11/30/2011
                  Did Not Ensure Compliance With HOME
                  Program Objectives, San Juan, PR

 2010-FW-0003 HUD Was Not Tracking Almost 13,000                08/25/2010   12/03/2010   08/25/2011
              Defaulted HECM Loans With Maximum
              Claim Amounts of Potentially More Than
              $2.5 Billion

 2010-LA-1015     The Housing Authority of the City             08/31/2010   12/20/2010   11/30/2011
                  and County of San Francisco Did Not
                  Effectively Operate Its Housing Choice
                  Voucher Housing Quality Standards
                  Inspections, San Francisco, CA

 2010-SE-1001     Washington State Did Not Disburse Its         08/31/2010   12/07/2010   04/30/2011
                  Homelessness Prevention and Rapid
                  Re-Housing Funds in Accordance With
                  Program Requirements, Olympia, WA




Appendix 3 - Tables                                                                                    159
        Report                     Report title                    Issue      Decision         Final
        number                                                      date       date           action

      2010-NY-1805   Webster Bank Did Not Properly               09/01/2010   02/09/2011    09/01/2012
                     Underwrite a Selection of FHA Loans,
                     Cheshire, CT
                     	
      2010-BO-1008   The Avesta Housing Management               09/03/2010   11/30/2010    05/06/2011
                     Corporation Did Not Properly Follow HUD
                     Rules and Regulations, Portland, ME

      2010-LA-1807   Alethes, LLC, Did Not Properly Underwrite   09/08/2010   01/04/2011    12/07/2011
                     a Selection of FHA Loans, Lakeway, TX

      2010-KC-1007   The Missouri Housing Development            09/10/2010   01/07/2011    04/29/2011
                     Commission Did Not Always Obtain
                     Required Documents and Properly Report
                     on the Tax Credit Assistance Program
                     Funded Under the Recovery Act, Kansas
                     City, MO

      2010-LA-0002   HUD’s Office of Single Family Housing’s     09/15/2010   01/13/2011    09/15/2011
                     Management Controls Over Its Automated
                     Underwriting Process

      2010-NY-1806   Security Atlantic Mortgage Company, Inc.,   09/22/2010   02/09/2011    01/20/2012
                     Did Not Properly Underwrite a Selection
                     of FHA Loans, Edison, NJ

      2010-NY-1807   First Tennessee Bank, N.A., Did Not         09/27/2010   02/17/2011    12/10/2011
                     Properly Underwrite a Selection of FHA
                     Loans, Memphis, TN

      2010-AT-1014   Polk County Did Not Comply With             09/28/2010   03/16/2011    03/01/2012
                     Procurement and Contract Requirements
                     in Its NSP and HOME Program, Bartow, FL

      2010-KC-0003   HUD’s Written Policies and Procedures    09/28/2010      02/03/2011    09/28/2011
                     for Loan Indemnifications Were Generally
                     Adequate, But Did Not Include Procedures
                     for Pursuing Signed Indemnification
                     Agreements From Lenders

      2010-KC-1008   The City of East St. Louis Awarded Block    09/28/2010   01/26/2011    05/12/2012
                     Grant Program Funds to Recipients
                     Without Adequately Verifying Their
                     Eligibility, East St. Louis, IL

      2010-NY-1808   Pine State Mortgage Corporation Did Not     09/29/2010   02/11/2011    01/30/2012
                     Properly Underwrite a Selection of FHA
                     Loans, Atlanta, GA




160                                                                                    Appendix 3 - Tables
    Report                      Report title                     Issue       Decision         Final
    number                                                        date        date           action

 2010-CF-1801     Final Civil Action, Anchor Mortgage         09/30/2010     02/18/2011    02/17/2012
                  Corporation, Loan Origination Fraud
                  - Violations of the False Claims Act,
                  Chicago, IL
                  	
 2010-DP-0004     Security Weaknesses on HUD’s Network        09/30/2010     12/02/2010    09/30/2011
                  Devices

 2010-FW-0004 HUD’s Oversight of the Hurricane Ike            09/30/2010     12/30/2010    12/31/2011
              Disaster Housing Assistance Program in
              Texas Needed Improvement

 2010-HA-0003     HUD Needs To Improve Controls Over Its      09/30/2010     01/27/2011      Note 2
                  Administration of Completed and Expired
                  Contracts

 2010-NY-1809     Sterling National Mortgage Company, Inc.,   09/30/2010     02/03/2011    01/31/2012
                  Did Not Properly Underwrite a Selection
                  of FHA Loans, Great Neck, NY




 Audits Excluded:                                           Notes:

 79 audits under repayment plans                            1 Management did not meet the target date.
                                                            Target date is over 1 year old.
 30 audits under debt claims collection
 processing, formal judicial review,                        2 Management did not meet the target
 investigation, or legislative solution                     date. Target date is under 1 year old.

                                                            3 No management decision




Appendix 3 - Tables                                                                                      161
                                                     Table C
                               Inspector General-issued reports with questioned and
                                       unsupported costs at March 31, 2011
                                                   (thousands)
                            Audit reports                            Number of         Questioned       Unsupported
                                                                    audit reports        costs             costs

        A1 For which no management decision had been                      47              116,148             76,297
           made by the commencement of the reporting
      	                                                            			 			 			
           period
      	                                                            			 			 			
        A2 For which litigation, legislation, or investigation       4  7,042 4,424
           was pending at the commencement of the
      	                                                            			 			 			
           reporting period
      	                                                            			 			 			
        A3 For which additional costs were added to                  -  376 261
           reports in beginning inventory
      	                                                            			 			 			
        A4 For which costs were added to noncost reports             1  38  0
          B1 Which were issued during the reporting period                42               95,617             44,644
          B2 Which were reopened during the reporting                      0                 0                  0
             period
                                                                   			 		                              		
                                              Subtotals (A+B)       94  219,221                         125,626
      	
          C For which a management decision was made                      651             139,890             92,900
            during the reporting period
      	                                                            			 			 			
      	      (1) Dollar value of disallowed costs:     		          			 		       		
                	    - Due HUD                                      33 2
                                                                         42,597  21,257
              	      - Due program participants                     36   90,920  66,359
      	
             (2) Dollar value of costs not disallowed                     103              6,373              5,284
        D For which management decision had been                           3               5,419              3,305
          made not to determine costs until completion
      	   of litigation, legislation, or investigation
                                                                   		                			 			
      	                                                            	                 	           	
        E For which no management decision had been                   26                73,912      29,421
          made by the end of the reporting period                    <50>4             <62,254>4   <17,786>4
      	
                                                                   		                		                		
                                                                   	                 	                 	



      1
        22 audit reports also contain recommendations with funds to be put to better use.
      2
        7 audit reports also contain recommendations with funds due program participants.
      3
        7 audit reports also contain recommendations with funds agreed to by management.
      4
        The figures in brackets represent data at the recommendation level as compared to the report level.
      See Explanations of Tables C and D.




162                                                                                                  Appendix 3 - Tables
                                               Table D
                       Inspector General-issued reports with recommendations
                           that funds be put to better use at March 31, 2011
                                              (thousands)
                         Audit reports                                 Number of                Questioned
                                                                      audit reports               costs

    A1 For which no management decision had been made                        30                   218,555
       by the commencement of the reporting period
	                                                                 			                     				
  A2 For which litigation, legislation, or investigation was        1                       2,957
     pending at the commencement of the reporting
	                                                                 			                     				
     period
	                                                                 			                     				
  A3 For which additional costs were added to reports in            -                       0
     beginning inventory
	                                                                 			                     				
  A4 For which costs were added to noncost reports                  1                       1,624
    B1 Which were issued during the reporting period                         19                   766,109
    B2 Which were reopened during the reporting period                       0                        0
                                               Subtotals (A+B)               51                   989,245
	 C For which a management decision was made                                371                   154,366
    during the reporting period
	                                                                 			                     				
	   (1) Dollar value of disallowed costs: 		                    	 			                     				
    	       - Due HUD                                               102                     35,173
      	     - Due program participants                              26                     105,927
	
    (2) Dollar value of costs not disallowed                                 53                    13,266
  D For which management decision had been made                              2                     15,521
    not to determine costs until completion of litigation,
	   legislation, or investigation
                                                                  		                      			
	                                                                 	                       	
  E For which no management decision had been                        12                      819,358
    made by the end of the reporting period                         <15>4                   <42,157>4
	
                                                                  		                      			
                                                                  	




1
  22 audit reports also contain recommendations with questioned costs.
2
  1 audit report also contains recommendations with funds due program participants.
3
  3 audit reports also contain recommendations with funds agreed to by management.
4
  The figures in brackets represent data at the recommendation level as compared to the report level. 	
See Explanations of Tables C and D.




Appendix 3 - Tables                                                                                          163
      Explanations of Tables C and D
           The Inspector General Act Amendments of 1988 require Inspectors General and agency heads to report
      cost data on management decisions and final actions on audit reports. The current method of reporting at
      the “report” level rather than at the individual audit “recommendation” level results in misleading reporting
      of cost data. Under the Act, an audit “report” does not have a management decision or final action until
      all questioned cost items or other recommendations have a management decision or final action. Under
      these circumstances, the use of the “report” based rather than the “recommendation” based method of
      reporting distorts the actual agency efforts to resolve and complete action on audit recommendations. For
      example, certain cost items or recommendations could have a management decision and repayment (final
      action) in a short period of time. Other cost items or nonmonetary recommendation issues in the same
      audit report may be more complex, requiring a longer period of time for management’s decision or final
      action. Although management may have taken timely action on all but one of many recommendations
      in an audit report, the current “all or nothing” reporting format does not take recognition of their efforts.

          The closing inventory for items with no management decision on tables C and D (line E) reflects figures
      at the report level as well as the recommendation level.

                                                         nnn




164                                                                                             Appendix 3 - Tables
Appendix 4 - Index
        State                  Page numbers

      Alabama			               15, 55, 70
      Arizona			               17, 22, 49, 64
      Arkansas			              80
      California			            14, 30, 42, 43, 50, 79, 83, 104, 113, 118, 120, 121
      Colorado			              17, 20, 21, 37, 55, 117
      Connecticut			           17, 78
      District of Columbia		   60, 121, 131
      Florida				              10, 14, 18, 19, 38, 39, 44, 53, 67, 85, 113, 118
      Georgia			               31, 39, 64, 116
      Idaho				                113
      Illinois				             15, 24, 29, 31, 34, 40, 42, 43, 45, 54, 60, 69, 95, 110, 111, 113, 114, 116, 118, 		
      				                     121
      Indiana			               24, 113, 119
      Iowa				                 16
      Kansas				               16, 122
      Kentucky			              67
      Louisiana			             38, 39, 44, 69, 78, 80, 89, 91, 92, 93, 94, 95, 101, 116, 118, 122
      Maine				                112
      Maryland			              11, 15, 21, 43, 49, 54, 111, 115, 117, 119
      Massachusetts			         12, 16, 30, 40, 41, 44, 84, 111, 114, 116, 117
      Michigan			              14, 23, 41, 45, 61, 67, 68, 72, 115, 118, 119, 120, 121
      Minnesota			             53, 95, 121
      Mississippi			           44, 91, 93, 94
      Missouri			              16, 18, 53, 95, 112, 116
      Nevada			                114, 116
      New Hampshire		          110
      New Jersey			            14, 17, 21, 33, 34, 44, 45, 55, 60, 69, 70, 71, 80
      New Mexico			            119, 120
      New York			              18, 20, 23, 38, 40, 43, 45, 49, 54, 55, 59, 69, 70, 71, 90, 112, 114, 115, 118, 120, 	
      				                     130
      North Carolina			        20, 30, 64, 116
      Ohio				                 18, 19, 23, 84, 110, 111, 114



166                                                                                             Appendix 4 - Index
  State              Page numbers

Pennsylvania			      19, 24, 32, 45, 59, 69, 81, 95, 121
Puerto Rico			       63, 115
Rhode Island			      10, 19, 39, 119
South Carolina		     117
Tennessee			         20, 24, 42, 44, 53, 113, 115
Texas				            10, 11, 15, 17, 23, 38, 54, 71, 79, 95, 104, 117, 118, 119, 122, 131
Utah				             22, 68, 71, 114
Vermont			           111
Virginia			          16, 17, 22, 82, 122
Washington			        82, 112, 122
West Virginia			     82
Wisconsin			         113		


                                           nnn
                                            




Appendix 4 - Index                                                                          167
HUD OIG Operations Telephone
Listing
      Office of Audit
      Headquarters Office of Audit, Washington, DC					       202-708-0364
      Region 1			         Boston, MA						                    617-994-8380			
      				                Hartford, CT						                  860-240-4800		
      Region2			          New York, NY						                  212-264-4174			
      				                Albany, NY						                    518-464-4200			
      				                Buffalo, NY						                   716-551-5755			
      				                Newark, NJ						                    973-622-7900
      Region 3			         Philadelphia, PA					               215-656-0500			
      				                Baltimore, MD						                 410-962-2520			
      				                Pittsburgh, PA						                412-644-6372			
      				                Richmond, VA						                  804-771-2100
      Region 4			         Atlanta, GA						                   404-331-3369			
      				                Miami, FL						                     305-536-5387			
      				                Greensboro, NC					                 336-547-4001			
      				                Jacksonville, FL					               904-232-1226			
      				                Knoxville, TN						                 865-545-4369			
      				                San Juan, PR						                  787-766-5202
      Region 5			         Chicago, IL						                   312-353-7832			
      				                Columbus, OH					                   614-469-5745			
      				                Detroit, MI						                   313-226-6190			
      				                Minneapolis, MN					                612-370-3000
      Region 6			         Fort Worth, TX						                817-978-9309			
      				                Houston, TX						                   713-718-3199			
      				                Oklahoma City, OK					              405-609-8606			
      				                San Antonio, TX					                210-475-6898
      Regions 7/8/10			   Kansas City, KS					                913-551-5870			
      				                St. Louis, MO						                 314-539-6339			
      				                Denver, CO						                    303-672-5452 			
      				                Seattle, WA						                   206-220-5360
      Regions 9			        Los Angeles, CA					                213-894-8016			
      				                Phoenix, AZ						                   602-379-7250			
      				                San Francisco, CA					              415-489-6400			
      				                Sacramento, CA					                 415-489-6400		
      Region 11			        New Orleans, LA					                504-671-3715			
      				                Jackson, MS						                   601-965-4700


                                      nnn




170                                                HUD OIG Operations Telephone Listing
Office of Investigation
Headquarters Office of Investigation, Washington, DC				             202-708-0390
Region 1				                           Boston, MA					               617-994-8450			
					                                  Hartford, CT					             860-240-4800			
					                                  Manchester, NH				            603-666-7988
Region 2				                           New York, NY					             212-264-8062			
					                                  Buffalo, NY					              716-551-5755		
Region 3				                           Philadelphia, PA				          215-656-0500			
					                                  Newark, NJ					               973-776-7347 			
					                                  Pittsburgh, PA					           412-644-6598		
Region 4				                           Atlanta, GA					              404-331-3359			
					                                  Birmingham, AL				            205-731-2630			
					                                  Columbia, SC					             803-451-4320			
					                                  Knoxville, TN					            865-545-4369			
					                                  Louisville, KY					           502-618-8127			
					                                  Memphis, TN					              901-229-6997			
					                                  Nashville, TN					            615-426-6171
Region 5				                           Chicago, IL					              312-353-4196			
					                                  Indianapolis, IN				          317-226-5427			
					                                  Minneapolis/St. Paul, MN			   612-370-3000
Region 6				                           Arlington, TX					            817-978-5440			
					                                  Houston, TX					              713-718-3196			
					                                  Little Rock, AR				           501-353-8115			
					                                  Oklahoma City, OK				         405-609-8601			
					                                  San Antonio, TX				           210-475-6819
Regions 7/8				                        Kansas City, KS				           913-551-5866			
					                                  Denver, CO					               303-672-5350			
					                                  Salt Lake City, UT				        801-524-6090			
					                                  St. Louis, MO					            314-539-6559
Regions 9				                          Los Angeles, CA				           213-894-0219			
					                                  Las Vegas, NV					            702-336-2144			
					                                  Phoenix, AZ					              602-379-7255
Region 10				                          Seattle, WA					              206-220-5380			
					                                  Billings, MT					             406-247-4080			
					                                  Sacramento, MT				            916-930-5691			
					                                  San Francisco, CA				         415-489-6683
Region 11				                          New Orleans, LA				           504-671-3701			
					                                  Baton Rouge, LA				           225-334-4913 			
					                                  Hattiesburg, MS				           601-299-4279			
					                                  Jackson, MS					              601-965-5772
Region 13				                          Baltimore, MD					            410-962-4502			
					                                  Greensboro, NC				            336-547-4000			
					                                  Richmond, VA					             804-771-2100



HUD OIG Operations Telephone Listing                                                    171
      Region 14				   Tampa, FL					              813-228-2026			
      					           Jacksonville, FL				        904-208-6126			
      					           Miami, FL					              305-536-3087			
      					           San Juan, PR					           787-766-5868
      Region 15				   Detroit, MI					            313-226-6280			
      					           Cleveland, OH					          216-522-4421			
      					           Columbus, OH				            614-469-6677			
      				
                            nnn

      						




172                                    HUD OIG Operations Telephone Listing
Report fraud, waste, and mismanagement in HUD
          programs and operations by

      Faxing the OIG hotline: 202-708-4829

        Sending written information to
Department of Housing and Urban Development
       Inspector General Hotline (GFI)
              451 7th Street, SW
           Washington, DC 20410

 E-mailing the OIG hotline: hotline@hudoig.gov

Internet: http://www.hudoig.gov/hotline/index.php

         All information is confidential,
        and you may remain anonymous.
Semiannual Report to Congress
October 1, 2010, through March 31, 2011

www.hudoig.gov

No. 65
